OFFICE OF INSPECTOR GENERAL

SEMIANNUAL REPORT
 TO THE CONGRESS
   October 1, 2004 - March 31, 2005
                              Inspector General

               HOTLINE
The Office of Inspector General (OIG) maintains a Hotline to make it easy to report allegations
of fraud, waste, abuse, mismanagement or misconduct in the programs and operations of the
United States Agency for International Development (USAID), the Inter-American Foundation
(IAF), the African Development Foundation (ADF), and the Millennium Challenge Corporation
(MCC). USAID, IAF, ADF and MCC employees, contractors, and program participants or the
general public may report allegations directly to the OIG. The Inspector General Act of 1978 and
other laws protect persons making hotline complaints. Submit complaints by e-mail, telephone,
or mail to:

Phone                  1-202-712-1023
                       1-800-230-6539

E-mail                 ig.hotline@usaid.gov

Mail                   USAID OIG HOTLINE
                       P.O. Box 657
                       Washington, DC 20044-0657

Individuals who contact the Hotline are not required to identify themselves. However, the OIG
encourages those who report allegations to identify themselves so they can be contacted if additional
questions arise as OIG evaluates their allegations. Pursuant to the Inspector General Act of 1978, the
Inspector General will not disclose the identity of an individual who provides information unless that
individual consents or unless the Inspector General determines that such disclosure is unavoidable
during the course of an investigation. You may request confidentiality when using the telephone or mail.
E-mail complaints can not be kept confidential because electronic e-mail systems are not secure.




U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
Ofﬁce of Inspector General
                                                   April 29, 2005

The Honorable Andrew S. Natsios
Administrator
U. S. Agency for International Development
Washington, DC 20523

Dear Mr. Natsios:

        I am pleased to report to you and the Congress of the United States the
accomplishments of the USAID Office of Inspector General (OIG) for the six-month period
ended March 31, 2005. This report is issued in compliance with the Inspector General Act of
1978, as amended.

        During this period the OIG issued 309 audit reports with monetary recommendations of
about $42 million, completed 62 investigations, and achieved savings and recoveries of $474,000.

         Our oversight initiatives for high-risk USAID operations in Iraq and Afghanistan produced
significant results in this period.

        In Iraq, our review of USAID’s Community Action Program found that 98 percent of the
intended outputs were achieved for projects tested. This is a significant result given the difficult
environment. The Health System support program had a lower achievement rate but the
Mission was receptive to our report findings and recommendations.

         In Afghanistan, our concurrent financial and performance audit program seeks to make
contributions to the implementation plan and ensure accountability.

          We have also directed significant efforts to developing an audit strategy for the relief and
rehabilitation activities related to USAID’s response to the Tsunami events in India, Sri Lanka
and Indonesia.

           Our work on HIV/AIDS activities identified concerns about sustainability.

        It is my pleasure to serve as the Agency’s Acting Inspector General and I appreciate the
cooperation extended to me and the OIG staff.

                                                   Sincerely,




                                                   Bruce N. Crandlemire
                                                   Acting Inspector General
U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
Ofﬁce of Inspector General
  for
The American Development Foundation



                                               April 29, 2005



Mr. Edward Brehm, Chairman
Mr. Nathaniel Fields, President
The African Development Foundation
1400 Eye Street, N.W., Tenth Floor
Washington, D.C. 20005-2248

Dear Sirs:

        It is with pleasure that I report to you and the U.S. Congress the
accomplishments of the U.S. Agency for International Development (USAID), Office of
Inspector General (OIG) with regard to the African Development Foundation (ADF) for the
period ended March 31, 2005.

       The report is issued in compliance with the Inspector General Act of 1978, as
amended. The Consolidated Appropriations Act (P.L. 106-113), dated
November 29, 1999, assigned audit and investigation responsibilities for the ADF to
USAID OIG.

        I appreciate the courtesy and assistance extended to my staff during our work
with your organization.

                                               Sincerely,




                                               Bruce N. Crandlemire
                                               Acting Inspector General




U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
Ofﬁce of Inspector General
  for
The Inter-American Foundation



                                                April 29, 2005



Mr. Roger Wallace, Chairman of the Board
Ms. Linda Borst Kolko, Interim President
The Inter-American Foundation
901 North Stuart Street, 10th Floor
Arlington, Virginia 22203

Dear Sir and Madam:

        It is with pleasure that I report to you and the U.S. Congress the
accomplishments of the U.S. Agency for International Development (USAID) Office of
Inspector General (OIG) with regard to the Inter-American Foundation (IAF) for the period
ended March 31, 2005.

       The report is issued in compliance with the Inspector General Act of 1978,
as amended. The Consolidated Appropriations Act (P.L. 106-113), dated
November 29, 1999, assigned audit and investigation responsibilities for the IAF to
USAID OIG.

        I appreciate the courtesy and assistance extended to my staff during our work with
your organization.

                                                Sincerely,




                                                Bruce N. Crandlemire
                                                Acting Inspector General




U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
                    Semiannual Report to the Congress

                                Acronyms
ADF              African Development Foundation
ARS              Accrual Reporting System
CAM              Contract Audit Management
CAP              Community Action Program
CEO              Chief Executive Ofﬁcer
CIP              Commodity Import Program
CLOs             Country Liaison Ofﬁces
CPA/IG           Coalition Provisional Authority/Inspector General
CTOs             Cognizant Technical Ofﬁcers
DCAA             Defense Contract Audit Agency
FAR              Federal Acquisition Regulation
FFMIA            Federal Financial Management Improvement Act of 1996
FSN              Foreign Service National
GAO              Government Accountability Ofﬁce
GOE              Government of Egypt
GMRA             Government Management and Reform Act
HIV/AIDS         Human Immunodeﬁciency Virus/Acquired Immune Deﬁciency Syndrome
IAF              Inter-American Foundation
IG               Inspector General
IG Act           Inspector General Act of 1978
MCA              Millennium Challenge Account
MCC              Millennium Challenge Corporation
MEPI             Middle East Partnership Initiative
MOU              Memorandum of Understanding
NGOs             Non-Government Organizations
OIG              Ofﬁce of Inspector General
OMB              Ofﬁce of Management and Budget
PVO              Private Voluntary Organization
RECAP Activity   Emergency Reconstruction of Roads and Bridges Activity
REDSO/ESA        Regional Economic Development Services Ofﬁce for East and Southern Africa
REFS             Rehabilitation of Economic Facilities and Services
Results Act      Government Performance and Results Act of 1993
RIG              Regional Inspector General
SAIs             Supreme Audit Institutions
USAID            United States Agency for International Development
USPSC            U.S. Personal Services Contractors


                                                                    October 1, 2004 — March 31, 2005
                                                                                                                                                                           i
                                          Semiannual Report to the Congress

                                                Table of Contents
Reporting Requirements ................................................................................................................................ ii
Executive Summary ......................................................................................................................................... 1
Overview............................................................................................................................................................ 2
Highlights............................................................................................................................................................ 4
USAID
       Major Management Challenges ........................................................................................................ 8
                 Financial Management ............................................................................................................ 8
                 Information Resources Management................................................................................10
                 Managing for Results ............................................................................................................11
                 Procurement Management .................................................................................................11
                 Human Capital Management ..............................................................................................12
       Other Management Challenges......................................................................................................12
                 Iraq ...........................................................................................................................................12
                 Afghanistan .............................................................................................................................13
                 Tsunami ...................................................................................................................................14
                 West Bank and Gaza ............................................................................................................14
                 HIV/AIDS ................................................................................................................................14
       Expanding Accountability .................................................................................................................16
                 Expanding Supreme Audit Institutions’ Capabilities ......................................................16
                 Fraud Awareness Training ....................................................................................................16
                 Financial Management Training ...........................................................................................18
                 Accountability over Contractors and Grantees ............................................................18
       Introduction to USAID Bureaus and Independent Ofﬁces ......................................................21
                 Bureau for Africa ...................................................................................................................21
                 Bureau for Asia and the Near East ...................................................................................25
                 Bureau for Europe and Eurasia ..........................................................................................29
                 Bureau for Latin America and the Caribbean .................................................................33
                 Bureau for Management ......................................................................................................36
African Development Foundation
       OIG Strategy ......................................................................................................................................40
       Management Challenges ..................................................................................................................40
       OIG Oversight Activities .................................................................................................................41
Inter-American Foundation
       OIG Strategy ......................................................................................................................................42
       Management Challenges ..................................................................................................................42
       OIG Oversight Activities .................................................................................................................43
Appendices.......................................................................................................................................................45




                                                                                                                             October 1, 2004 — March 31, 2005
ii
                               Semiannual Report to the Congress

            Reporting Requirements—USAID
     The Inspector General Act of 1978, as amended, requires each Inspector General to submit semiannual
     reports to the Congress summarizing the activities of the office during the preceding six-month period. The
     required reporting areas, as prescribed under Section 5(a) of the Act, include the following:

                                    Reporting Requirement                                        Location

     Significant Problems, Abuses and Deficiencies                                              Pages 8-15


     Recommendations for Corrective Actions                                                    Pages 21-38


     Summary of Each Significant Report                                                        Pages 21-38

                                                                                               Appendix A
     List of Audit Reports Issued
                                                                                               Pages 46-61

     Summary of Each Audit Report over Six Months Old for Which No Management                   Appendix B
     Decision Has Been Made                                                                      Page 63

     Significant Prior Recommendations on Which Corrective Action Has Not Been                  Appendix C
     Completed                                                                                   Page 64

                                                                                               Appendix D
     Statistical Table of Reports with Questioned and Unsupported Costs
                                                                                                Page 66

                                                                                                Appendix E
     Statistical Table of Reports with Recommendations That Funds Be Put to Better Use
                                                                                                 Page 67

                                                                                                Nothing to
     Summary of Instances in Which Information or Assistance was Refused
                                                                                                 Report

                                                                                                Nothing to
     Decisions and Reasons for Significant Revised Management Decisions
                                                                                                 Report

                                                                                                Nothing to
     Significant Management Decisions with Which the Inspector General Disagrees
                                                                                                 Report

     Remediation Plan Information (Required under the Federal Financial Management              Appendix F
     Improvement Act of 1996)                                                                    Page 68

     Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions          Appendix G
     Which Resulted                                                                             Page 69

October 1, 2004 — March 31, 2005
                                                                                                          iii
                          Semiannual Report to the Congress

           Reporting Requirements—ADF
The Inspector General Act of 1978, as amended, requires each Inspector General to submit semiannual
reports to the Congress summarizing the activities of the office during the preceding six-month period. The
required reporting areas, as prescribed under Section 5(a) of the Act, include the following:

                               Reporting Requirement                                        Location

Significant Problems, Abuses and Deficiencies                                             Pages 40-41


Recommendations for Corrective Actions                                                    Pages 40-41


Summary of Each Significant Report                                                           Page 41

                                                                                           Appendix A
List of Audit Reports Issued
                                                                                            Pages 62

Summary of Each Audit Report over Six Months Old for Which No Management                   Appendix B
Decision Has Been Made                                                                      Page 63

Significant Prior Recommendations on Which Corrective Action Has Not Been                  Appendix C
Completed                                                                                   Page 65

                                                                                           Nothing to
Statistical Table of Reports with Questioned and Unsupported Costs
                                                                                            Report

                                                                                           Nothing to
Statistical Table of Reports with Recommendations That Funds Be Put to Better Use
                                                                                            Report

                                                                                           Nothing to
Summary of Instances in Which Information or Assistance was Refused
                                                                                            Report

                                                                                           Nothing to
Decisions and Reasons for Significant Revised Management Decisions
                                                                                            Report

                                                                                           Nothing to
Significant Management Decisions with Which the Inspector General Disagrees
                                                                                            Report

Remediation Plan Information (Required under the Federal Financial Management              Nothing to
Improvement Act of 1996)                                                                    Report

Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions           Nothing to
Which Resulted                                                                              Report

                                                                             October 1, 2004 — March 31, 2005
iv
                               Semiannual Report to the Congress

                 Reporting Requirements—IAF
     The Inspector General Act of 1978, as amended, requires each Inspector General to submit semiannual
     reports to the Congress summarizing the activities of the office during the preceding six-month period. The
     required reporting areas, as prescribed under Section 5(a) of the Act, include the following:

                                    Reporting Requirement                                        Location

     Significant Problems, Abuses and Deficiencies                                             Pages 42-43


     Recommendations for Corrective Actions                                                    Pages 42-43


     Summary of Each Significant Report                                                           Page 43

                                                                                                Appendix A
     List of Audit Reports Issued
                                                                                                 Pages 62

     Summary of Each Audit Report over Six Months Old for Which No Management                   Appendix B
     Decision Has Been Made                                                                      Page 63

     Significant Prior Recommendations on Which Corrective Action Has Not Been                  Nothing to
     Completed                                                                                   Report

                                                                                                Nothing to
     Statistical Table of Reports with Questioned and Unsupported Costs
                                                                                                 Report

                                                                                                Nothing to
     Statistical Table of Reports with Recommendations That Funds Be Put to Better Use
                                                                                                 Report

                                                                                                Nothing to
     Summary of Instances in Which Information or Assistance was Refused
                                                                                                 Report

                                                                                                Nothing to
     Decisions and Reasons for Significant Revised Management Decisions
                                                                                                 Report

                                                                                                Nothing to
     Significant Management Decisions with Which the Inspector General Disagrees
                                                                                                 Report

     Remediation Plan Information (Required under the Federal Financial Management              Nothing to
     Improvement Act of 1996)                                                                    Report

     Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions           Nothing to
     Which Resulted                                                                              Report

October 1, 2004 — March 31, 2005
                                                                                                              1
                          Semiannual Report to the Congress

                          Executive Summary
This report presents the results of the Ofﬁce of      This report also details the OIG’s efforts to improve
Inspector General’s audit and investigative efforts   the accountability environment overseas, including
at the U.S. Agency for International Development      oversight of USAID contractors and grantees, and
(USAID), the African Development Foundation           support of Supreme Audit Institutions. One activity
(ADF), and the Inter-American Foundation (IAF) for    was the fraud awareness seminars conducted in
the six-month period ending March 31, 2005. The       Iraq.
USAID Ofﬁce of Inspector General (OIG) discusses
its work relating to the Millennium Challenge         Major management challenges facing USAID as
Corporation (MCC), for which it also has statutory    identiﬁed by the OIG in the areas of managing
responsibility, in a separate semiannual report.      for results, procurement, human capital, ﬁnancial
                                                      management, and information technology are
During this reporting period, the OIG issued 309      updated in this report. In addition, this report
audit reports with monetary recommendations           discusses the OIG’s role in providing oversight for
valued at $42 million and completed 62                USAID’s programs in Iraq, Afghanistan, the West
investigations with savings and recoveries of         Bank and Gaza, as well as for HIV/AIDS programs.
$474,000. OIG and USAID continue to meet              An investigation identiﬁed weakness in procurement
the goal of reaching “management decision” on         management by a contractor that was subsequently
all audit recommendations within six months of        corrected as a result of the investigation.
report issuance, as they have routinely since March
31, 2001.                                             Finally, this report discusses the OIG’s audit
                                                      strategy, major challenges, and current oversight
This report highlights the OIG’s most signiﬁcant      activities facing ADF and IAF and reports that
audits and investigations during the reporting        unqualiﬁed opinions were issued on their ﬁnancial
period. Of particular note are our continuing         statements for ﬁscal year 2004 as well.
reports on Iraq and Afghanistan, both areas of high
risk and visibility. And an audit and investigative
strategy has been developed to respond to the
Tsunami relief efforts undertaken by USAID. In
the area of USAID’s computer security, audits have
found improvements to the extent that this area
is no longer a material weakness for the Agency.
The OIG also reports an unqualiﬁed opinion on
the Agency’s ﬁscal year 2004 ﬁnancial statements
for the second year.




                                                                            October 1, 2004 — March 31, 2005
2
                              Semiannual Report to the Congress
                                                           Congress fully and currently informed about prob-
    Overview                                               lems and deﬁciencies relating to the administration
    The Ofﬁce of Inspector General (OIG) is respon-        of programs and operations, as well as about actions
    sible for providing audit and investigative services   taken to correct those deﬁciencies and problems.
    to the U.S. Agency for International Development
    (USAID), the African Development Foundation            Organization
    (ADF), the Inter-American Foundation (IAF) and
                                                           The OIG is organized into four operational units:
    the Millennium Challenge Corporation (MCC).
                                                           Audit, Investigations, Management, and MCC. There
                                                           are seven overseas ﬁeld ofﬁces, each headed by a
    Mission                                                Regional Inspector General, located in Baghdad,
    Established under the Inspector General Act of         Iraq; Budapest, Hungary; Cairo, Egypt; Dakar,
    1978 (IG Act), as amended, the OIG is tasked with      Senegal; Manila, Philippines; Pretoria, South Africa;
    (1) promoting economy, efﬁciency, and effective-       and San Salvador, El Salvador. These regional ofﬁces
    ness in the administration of programs and (2)         maintain close working relationships with the
    preventing and detecting fraud and abuse in world-     USAID missions in their regions, and their presence
    wide program operations. The IG Act also requires      in the ﬁeld enables auditors and investigators to
    all Inspectors General to keep management and the      carry out their responsibilities efﬁciently.




October 1, 2004 — March 31, 2005
                                                                                                                             3
                            Semiannual Report to the Congress

             USAID Ofﬁce of Inspector General

                                                Inspector General                              Counsel to
             Special Assistant                  Deputy Inspector General                      the Inspector
                                                                                                 General




  Assistant Inspector              Assistant Inspector             Assistant Inspector            Assistant Inspector
General -- Investigations           General -- Audit                General -- MCC               General -- Management




     Deputy AIG/I           Deputy AIG/A           Deputy AIG/A         Deputy AIG/MCC             Deputy AIG/M




    Headquarters                                                                                     Applications
     Liaison &                                    Headquarters                                       & Business
    Coordination            Financial Audits       Liaison &               Financial Audits           Solutions
      Division                  Division          Coordination                 Division               Division
                                                    Division
                                                                                                     Network &
      AFR/ANE                                                                                        Computer
                                Information                                                          Operations
       Division                Technology &       Performance               Performance               Division
                               Special Audits    Audits Division           Audits Division
                                  Division
                                                                                                      Personnel
      LAC/E&E                                                                                          Services
      Division                                                                                         Division

                                                                                                       Budget &
                                                                                                      Acquisition
                                                                                                       Division


                                           Regional Inspector General Offices




   Baghdad          Budapest            Cairo             Dakar           Manila            Pretoria          San Salvador
     Iraq           Hungary             Egypt            Senegal        Philippines       South Africa         El Salvador


                                                                                         October 1, 2004 — March 31, 2005
4
                                 Semiannual Report to the Congress

    Highlights                                                 Highlights of Signiﬁcant
    The following sections describe the most signiﬁcant        Audits
    results of the OIG work concluded in the past six-
    month period. During this semiannual period, the           Audit activities include ﬁnancial and performance
    OIG issued reports on its activities in Iraq and on        audits at USAID, the African Development
    the President’s Emergency Plan for AIDS Relief.            Foundation, and the Inter-American Foundation.
                                                               The following table is a statistical summary of OIG
    The investigative results reﬂect investigative             audit activities during this reporting period.
    activity that resulted in criminal action, civil action,
    personnel action, systemic change, and ﬁnancial
    recoveries and savings.




                                                    Number of
              Type of Report                         Reports           Monetary Recommendations ($)
    Financial Audits
    USAID Programs and Operations                         2                                   0
    Foundations’ Programs and
                                                          2                                   0
    Operations
    U.S.-Based Contractors                                73                         7,609,042
    U.S.-Based Grantees                                  30                         11,463,418
       Quality Control Reviews                            3                                  0
    Foreign-Based Organizations                          140                        22,075,458
       Quality Control Reviews                            8                                  0
    Enterprise Funds                                     10                                  0
    Performance Audits
    USAID Economy and Efﬁciency                          32                            454,872
    Foundations’ Economy and Efﬁciency                    2                                  0
    Other                                                 7                              1,000
                   TOTAL                                 309                        41,603,790




October 1, 2004 — March 31, 2005
                                                                                                                      5
                                 Semiannual Report to the Congress
OIG Activities in Iraq                                             cooperation. Although USAID and its implementing
                                                                   partners ensured that the program achieved
The OIG has an ofﬁce in Baghdad to review USAID’s                  intended outputs, the OIG found that the program’s
Iraq program activities. Although this ofﬁce is                    monitoring and reporting could be improved.
located with the USAID Mission in the protected
International Zone of Baghdad, in performing their                 The OIG recommended that USAID/Iraq develop
audit responsibilities, the OIG staff visit USAID                  and implement a plan of action to improve the
activities throughout Iraq. During this period, the                integrity of the program data so that it could more
OIG conducted audits of Iraq’s Community Action                    effectively monitor and report results.
Program and its Health System.
                                                                   A management decision was reached on the
                                                                   recommendation.
Audit of USAID/Iraq’s
Community Action Program                                           (Audit Report No. E-267-05-001-P)

During the past 25 years, the Iraqi people have                    Audit of USAID/Iraq’s Health
experienced the hardships of three wars and
economic sanctions. This economic decline, coupled
                                                                   System Strengthening Contract
with lack of investment, has affected the quality and              Activities
capacity of the provision of social services. To aid in
resolving this problem, USAID’s Community Action                   USAID awarded a $23 million contract to strengthen
Program (CAP) encourages citizens to become                        the overall health system and ensure the rapid
involved in addressing the issues that affect their                normalization of speciﬁc health services through the
communities. As of August 7, 2004, USAID/Iraq had                  provision of technical, commodity and managerial
obligated approximately $120 million to the CAP                    support to the Iraqi Ministry of Health. The OIG
and disbursed approximately $38 million.                           determined that for 47 selected activities, only 19
                                                                   activities or 40 percent achieved their intended
                                                                   outputs.

                                                                   Although the contract had expired, preventing
                                                                   the Mission from taking action to address the
                                                                   unachieved outputs, the OIG identiﬁed one area
                                                                   where improvements needed to be made in the
                                                                   Mission’s procedures for processing future contract
                                                                   modiﬁcation requests to ensure such requests are
                                                                   addressed in a timelier manner.

                                                                   The OIG recommended that USAID/Iraq develop
                                                                   written procedures covering its review and approval
                                                                   of requests for modiﬁcations in order to help ensure
 Photograph of a class at at the Surean School constructed under   that outputs are achieved in a timely way in future
 USAID/Iraq’s Community Action Program in the town of Said         projects.
 Sadiq, Iraq.
                                                                   Final action was taken upon report issuance.
The OIG determined that the USAID’s Community
Action Program achieved 98 percent of its intended                 (Audit Report No. E-267-05-002-P)
outputs, such as citizen participation, inter-
community cooperation, and local government

                                                                                        October 1, 2004 — March 31, 2005
6
                                 Semiannual Report to the Congress
    Audit of USAID/Ethiopia’s                              The report included ﬁve recommendations that
                                                           included funding, information sharing, and program
    Implementation of the                                  sustainability issues.
    President’s Emergency Plan for
    AIDS Relief                                            Management decisions have been reached on four of
                                                           the ﬁve recommendations, and ﬁnal action had taken
    The OIG recently issued the pilot report in a          place on two recommendations. A management
    series of audits on the President’s Emergency Plan     decision is pending on one recommendation.
    for AIDS Relief. The objectives of the audit were
    to determine (1) how USAID/Ethiopia participated       (Audit Report No. 9-663-05-005-P)



                                                           Highlights of Signiﬁcant
                                                           Investigations
                                                           OIG investigations focus on programs and
                                                           operations that are most vulnerable to fraud in
                                                           the activities of USAID, the African Development
                                                           Foundation, and the Inter-American Foundation.

                                                           Investigative priorities include program integrity
                                                           (fraud involving contracts, grants and cooperative
                                                           agreements) and employee integrity (serious
                                                           misconduct by direct-hire employees).           OIG
     Photograph of a child orphaned by HIV/AIDS. The cow
     was provided by a government program as a means of    investigations may result in criminal, civil or
     sustainable support.                                  administrative action. The following is a summary
                                                           of the investigative workload and results during this
    in the President’s Emergency Plan for AIDS Relief      reporting period.
    activities, (2) whether USAID/Ethiopia’s HIV/AIDS
    activities progressed as expected towards planned                    Workload Indicator
    outputs in their agreements and contracts, and
                                                           Cases Opened                        73
    (3) whether USAID/Ethiopia’s HIV/AIDS activities
    contributed to the overall U.S. Government’s           Cases Closed                        62
    Emergency Plan targets.                                Hotline Contacts                  2,489
                                                                               Results
    The OIG concluded that USAID/Ethiopia has a
    principal role in the President’s Emergency Plan       Recoveries/Savings               $473,956
    for AIDS Relief activities in Ethiopia for HIV/AIDS    Resignations/Terminations            7
    prevention and care, as well as a major supporting     Personnel Suspensions                1
    role for HIV/AIDS treatment; its partners were
    progressing as expected towards meeting planned        Suspensions/Debarments               0
    outputs in their agreements, and USAID/Ethiopia’s      Indictments                          1
    HIV/AIDS activities are contributing signiﬁcantly to   Convictions                          1
    the overall U.S. Government’s Emergency Plan care
                                                           Systemic Changes                    11
    and treatment targets for ﬁscal year 2004.



October 1, 2004 — March 31, 2005
                                                                                                           7
                          Semiannual Report to the Congress
Investigation Leads to Civil                           to pay the government $200,000; and both sides
                                                       agreed to set-aside all further claims regarding this
Complaint                                              matter.
The U.S. Department of Justice and the U.S.
Attorney for the District of Idaho ﬁled a civil        Investigation Leads to Conviction
false claims complaint against two U.S.-based          of Corporate Chief Executive
construction companies and their Egyptian partner.     Ofﬁcer
The complaint stated that the undisclosed joint
venture between the three ﬁrms violated USAID          The Chief Executive Ofﬁcer (CEO) of a major
nationality rules. The three companies entered         Egyptian company pled guilty to a felony false
into the undisclosed joint venture to secure ﬁve       statement charge in the U.S. District Court for
separate USAID-funded host country construction        the Southern District of New York stemming from
contracts—valued at over $400 million—with the         his participation in a multi-million dollar scheme
Government of Egypt (GOE). During the bidding          to defraud USAID. More speciﬁcally, the CEO
and prequaliﬁcation phase of all ﬁve contracts, the    acknowledged his involvement in the preparation
two U.S. construction companies submitted false        and submission of an application to USAID/
documents to the GOE and USAID certifying that         Egypt containing false information in the form
the project would be carried out by the U.S. ﬁrms      of fraudulent bids and seeking over $2 million in
only. The OIG investigation determined that the        ﬁnancing via USAID’s Commodity Import Program
defendants purposefully failed to disclose to USAID    (CIP) to purchase communications equipment.
the true nature and constitution of their three-       USAID regulations require that all commodities
party joint venture, which included an Egyptian        purchased with CIP funds be bought from a U.S.
construction company. Having the Egyptian ﬁrm as       company. However, the OIG investigation of this
a partner would have disqualiﬁed the joint venture     matter revealed that the CEO presented USAID
from consideration for award of the contracts in       with false documentation indicating that the
question.                                              equipment came from a U.S.-based company, when,
                                                       in actuality, he purchased the equipment from an
Investigation Yields $200,000                          Egyptian ﬁrm for substantially less money—and
Civil Settlement                                       used a portion of the proceeds to pay his company’s
                                                       private debt.
The U.S. Attorney’s Ofﬁce for the District of
Columbia entered into an agreement with a U.S.         As a result of his guilty plea, the CEO is facing a
ﬁrm to settle a false claims law suit arising out of   maximum sentence of ﬁve years in prison and a
an OIG investigation. The settlement brought to        ﬁne of $250,000. The sentencing is scheduled for
closure a longstanding OIG investigation which         later this year.
resulted in the ﬁling of a civil fraud complaint by
the government against the ﬁrm in April 2001
seeking damages for the submission of false/
fraudulent invoices to USAID by the company
for a period covering 1994 to 1996. In 2002, the
company ﬁled a response in the U.S. District Court
for the District of Columbia to the government’s
civil complaint, as well as a counterclaim against
the government for breach of contract. Per the
terms of the settlement agreement, the company,
while not acknowledging any wrong-doing, agreed

                                                                             October 1, 2004 — March 31, 2005
8
                              Semiannual Report to the Congress
                                                           • Calculating and reporting accounts payable.
    Major Management
                                                           • Recording costs against USAID goals.
    Challenges
                                                           • Recognizing and reporting accounts
    USAID implements America’s foreign economic and          receivable.
    humanitarian assistance programs in accordance
    with foreign policy guidance provided by the           • Reconciling ﬁnancial management information.
    Secretary of State. USAID manages a budget of
    approximately $10.6 billion and advances U.S.         Calculating and Reporting
    foreign policy objectives by supporting:
                                                          Accounts Payable
     • Economic growth, trade, and agricultural
                                                          During ﬁscal year 2004, USAID established a
       development.
                                                          process to compile, monitor, and review quarterly
     • Improvements in global health.                     information on accruals certiﬁed in the Accrual
                                                          Reporting System (ARS) at individual USAID/
     • Conﬂict   prevention,        democracy,     and    Washington Bureaus. USAID also established
       developmental relief activities.                   procedures for validating statistically selected
                                                          quarterly accrual amounts, evaluating the reliability
    In pursuit of its mission, USAID faces a number       of the ARS, and updating its accrual policies
    of Major Management Challenges—which parallel         and procedures. In addition, for its overseas
    the President’s Management Agenda. This section       locations, USAID improved its estimation process,
    updates the continuing efforts by USAID to address    coordination between ﬁnancial and program staff,
    those challenges and OIG efforts to assist in         and retention of supporting documentation.
    overcoming them.
                                                          Despite these improvements, the OIG identiﬁed
    These Major Management Challenges are:                (1) training needs for USAID’s Cognizant Technical
                                                          Ofﬁcers, (2) deﬁciencies in estimating accrual
     • Financial Management                               expenditures and accounts payable, and (3)
                                                          deﬁciencies in routinely determining and reporting
     • Information Resources Management                   inactive obligations that could be deobligated.
     • Managing for Results                               The OIG recommended that USAID update its
                                                          Cognizant Technical Ofﬁcer training courses to
     • Procurement Management                             include sessions on developing and supporting
                                                          quarterly accrual estimates. The OIG is reviewing
     • Human Capital Management
                                                          USAID’s policies and procedures for its estimation
                                                          process and USAID’s progress in reviewing inactive
    Financial Management                                  obligations.

    For the second year in a row, the OIG issued          Recording Costs Against USAID
    unqualiﬁed opinions on USAID’s ﬁscal year 2004
    ﬁnancial statements. This is an important milestone   Goals
    and represents signiﬁcant progress by USAID. While
                                                          USAID has made progress in ensuring the accuracy
    USAID has made progress over the last ﬁve years,
                                                          of its Statement of Net Cost. It has established
    several areas of its ﬁnancial management system
                                                          and implemented procedures for obtaining annual
    continue to present challenges:
                                                          certiﬁcations from responsible ofﬁcers indicating

October 1, 2004 — March 31, 2005
                                                                                                                                      9
                                         Semiannual Report to the Congress
that strategic objectives are properly assigned to                                  The OIG is currently reviewing USAID’s system to
appropriate joint USAID/State performance goals.                                    more readily account for and report its accounts
It has also issued revised guidance requiring that all                              receivable and also monitoring USAID’s progress in
strategic objectives must link to one principal goal,                               deploying the integrated system overseas.
objective, and pillar as deﬁned in its most current
strategic plan.                                                                     Reconciling Financial
Despite this progress, in ﬁscal year 2004, USAID
                                                                                    Management Information
had deﬁciencies in obtaining certiﬁcation and                                       USAID made progress in reconciling its
linking strategic objectives to one principal goal on                               fund balance with the U.S. Treasury and its
a consistent and timely basis and in completing its                                 intragovernmental activity and balances with
Annual Reports Database. The OIG continues to                                       its Federal trading partners. It established a
review these areas.                                                                 Cash Reconciliation Working Group that is
                                                                                    focusing on (1) consistently performing monthly
Recognizing and Reporting                                                           and cumulative reconciliation processes, (2)
Accounts Receivable                                                                 developing methods to monitor unreconciled
                                                                                    items, and (3) developing clear instructions and
USAID has taken steps to establish policies and                                     procedures for processing reconciling items.
procedures to account for worldwide accounts
receivable but continues to experience difﬁculty                                    In ﬁscal year 2004, the OIG identiﬁed several
in recognizing and reporting accounts receivable                                    challenges that continued to limit USAID’s ability
accurately and in a timely manner. This continues                                   to reconcile and correct differences between its
to occur because USAID does not have a complete                                     reported fund balances and the control balances
integrated system for ensuring that its accounts                                    reported by the Department of Treasury, and to
receivable are complete and accurate for interim                                    reconcile signiﬁcant intragovernmental activities
and year-end ﬁnancial reporting.1                                                   and balances with its Federal trading partners.
                                                                                    Speciﬁcally, USAID did not:
In August 2004, the Phoenix system was deployed
at USAID overseas missions in Peru, Ghana,                                           • Document the reasons for unreconciled
Egypt, Colombia, and Nigeria. In ﬁscal year 2005,                                      activities and balances on a regular basis.
USAID’s overseas missions in Latin America
and the Caribbean, and Europe and Eurasia are                                        • Implement procedures to resolve problems
implementing the integrated system. USAID                                              other than timing differences.
anticipates worldwide deployment of Phoenix
during ﬁscal year 2006. The challenge in recognizing                                 • Receive documentation from several client
and reporting accounts receivable will be reduced                                      overseas missions to support unreconciled
by worldwide deployment of an integrated                                               transactions.
procurement system, which is also planned to be
implemented at that time.                                                            • Review, certify, or sign monthly reconciliation
                                                                                       documents.
1
   USAID initiated the Financial Systems Integration (FSI) project to acquire and
incrementally implement, through successive phases and product releases, a           • Assign necessary staff resources to reconcile
single, Agency-wide integrated core ﬁnancial system. CGI-American Management           its signiﬁcant quarterly intragovernmental
Systems (CGI-AMS) Momentum Financials™ software is a Commercial Off-                   activities and balances with Federal trading
the-Shelf (COTS) ﬁnancial management system conﬁgured for USAID and
referred to as Phoenix. The use of a COTS software package advances USAID
                                                                                       partners and promptly resolve differences.
towards Federal Financial Management Improvement Act (FFMIA) compliance
and provides standard ﬁnancial business processes and standard ﬁnancial             The OIG continues to review USAID’s policies in
management systems across the Agency.                                               these areas.
                                                                                                        October 1, 2004 — March 31, 2005
10
                                     Semiannual Report to the Congress
 Information Resources                                                    reported that USAID’s current process of deferring
                                                                          spending and postponing implementation of a sound
 Management                                                               and integrated information technology architecture
                                                                          are in direct contradiction to the mandates of the
 Improving Information                                                    Information Technology Management Reform Act
 Resources Management                                                     and the Clinger-Cohen Act.
 Processes                                                                The OIG will continue to monitor USAID’s efforts
                                                                          in this area.
 The Clinger-Cohen Act requires (1) procedures to
 select, manage, and evaluate information technology
 investments and (2) a means for senior managers
                                                                          Improving Computer Security
 to monitor progress in terms of costs, system                            USAID has made signiﬁcant progress in improving
 capabilities, timeliness, and quality.                                   computer security and no longer considers
                                                                          computer security to be a material weakness.
 USAID has taken steps to resolve and correct
 the material weakness in information technology                          Signiﬁcant steps USAID has taken to ensure the
 (IT) capital investment planning, budgeting and                          security of its information resources include:
 acquisition. As discussed in the March 31, 2004
 Semiannual Report to the Congress, USAID                                  • Providing training to employees. Through a “Tips
 created the Business Transformation Executive                               of the Day” program, all USAID employees,
 Committee (BTEC). The BTEC then established                                 in order to log into USAID networks, must
 a Capital Planning and Investment Control (CPIC)                            read short summaries of USAID’s security
 Subcommittee to advise the BTEC on investment                               policies and answer questions to ensure their
 selection—considering potential risk, cost, and                             understanding. Employees with signiﬁcant
 beneﬁt, as well as priority in relation to other                            responsibilities under the information security
 USAID investments. The CPIC Subcommittee met                                program may take online security courses.
 to develop budgets for IT capital planning, using
 the newly issued Automated Directives System,                             • Conducting periodic network scans to identify
 Chapter 577, in which USAID has documented its                              vulnerabilities.
 capital planning and investment controls. USAID
 has also established a Program Management Ofﬁce                           • Operating network intrusion sensors to detect
 to manage its IT projects, but the Ofﬁce is not yet                         unauthorized attempts to access USAID
 fully staffed.                                                              networks.

 While USAID has established procedures that                               • Establishing central control over ﬁrewalls for
 provide for disciplined IT project selection and                            all USAID networks.
 management, in some cases these procedures have
 not been fully tested. More effort is needed to                           • Converting servers to Windows 2000, an
 move USAID’s information resources management                               operating system that incorporates many
 program management practices toward a mature                                security improvements in comparison to
 level that is consistent with industry best practices,                      Windows 98.
 such as the Capability Maturity Model. For example,
 a recent study2 on USAID’s IT infrastructure                              • Detecting     and    responding     to   security
                                                                             incidents.

                                                                          While signiﬁcant progress has been made, USAID is
 2
      Forrester Research, Inc., “Analysis and Recommendations for USAID
                                                                          still working to correct certain security weaknesses.
 Infrastructure Refresh,” January 20, 2005.


October 1, 2004 — March 31, 2005
                                                                                                                            11
                                    Semiannual Report to the Congress
For example, it is developing disaster recovery plans                     year 2004 consolidated ﬁnancial statements did
for three major systems and ensuring that disaster                        not contain a clear picture of USAID’s planned
recovery plans for two other major systems are                            and actual performance for that year. Moreover,
tested.                                                                   the primary performance information included
                                                                          was based on results achieved in ﬁscal year 2003
The OIG will continue to monitor USAID’s progress                         rather than ﬁscal year 2004. Additionally, a recent
in improving its computer security.                                       audit on USAID’s implementation of the Ofﬁce of
                                                                          Management and Budget’s Program Assessment
Managing for Results                                                      and Rating Tool (PART) determined that staff
                                                                          involved in PART preparation lacked adequate
USAID has programs in about 100 countries                                 training, USAID-speciﬁc guidance was not available,
promoting a wide range of objectives related to                           and documentation supporting USAID’s PART
economic growth, agriculture, and trade; global                           submission was not readily available.
health; and democracy, conﬂict prevention and
humanitarian assistance. Federal laws, such as the                        Nevertheless, USAID has made notable
Government Performance and Results Act of 1993,                           improvements to this year’s Management’s
require that Federal agencies develop performance                         Discussion and Analysis. First, the Management’s
measurement and reporting systems that establish                          Discussion and Analysis for ﬁscal year 2004
strategic and annual plans, set annual targets,                           reported more current-year results than the prior
track progress, and measure results. In addition,                         year’s. USAID’s present ability to compare the
government-wide initiatives, such as the President’s                      estimated current-year results against established
Management Agenda, require that agencies link their                       goals and targets is a signiﬁcant step in the right
performance results to budget and human capital                           direction. Second, the Management’s Discussion
requirements.                                                             and Analysis for ﬁscal year 2004 used USAID’s New
                                                                          Strategic Planning Framework and Goal Structure
A signiﬁcant element of USAID’s performance                               contained in the Joint USAID/State Strategic Plan.
management system is the Annual Report prepared                           This new framework is designed to present a more
by each of its operating units. These reports                             coherent, concise and logical reﬂection of how the
provide information on the results attained with                          Department of State and USAID organize their
USAID resources, request additional resources,                            work towards results and outcomes.
and explain the use of, and results expected from,
these additional resources. Information in these                          Procurement Management
unit-level Annual Reports is consolidated to present
a USAID-wide picture of achievements in USAID’s                           USAID achieves development results largely through
annual Performance and Accountability Report.                             intermediaries: contractors or recipients of grants
                                                                          or cooperative agreements. Efﬁcient and effective
The OIG continues to monitor USAID’s progress                             acquisition and assistance systems are therefore
in improving its performance management system.                           critical.
While USAID has made notable improvements,
more remains to be done. For example, during                              As part of its strategic plan, the OIG has adopted
the prior reporting period, the OIG reported3 that                        a strategic objective of contributing to the
certain information included in the Management’s                          improvement of USAID’s processes for awarding
Discussion and Analysis section of USAID’s ﬁscal                          and administering contracts, grants, and cooperative
                                                                          agreements. The OIG has developed multi-year
3
    “Independent Auditor’s Report on USAID’s Consolidated Financial       strategies to promote increased efﬁciency and
Statements, Internal Controls, and Compliance for Fiscal Years 2004 and
2003,” November 15, 2004 (Audit Report No. 0-000-05-001-C).
                                                                          effectiveness in USAID procurement processes.


                                                                                               October 1, 2004 — March 31, 2005
12
                            Semiannual Report to the Congress
 Within the framework of a multi-year audit plan,
 the OIG deﬁned “standards for success” for
                                                          Other Management
 critical acquisition and assistance processes. Audit     Challenges
 plans have been developed to identify the Ofﬁce
 of Acquisition and Assistance’s status in achieving
 these standards and the steps needed for further         Iraq
 improvement. The OIG is planning to conduct
                                                          The OIG conducts audits in Washington and
 an audit of the system used by USAID’s Ofﬁce of
                                                          Iraq of USAID’s Iraq programs. In Baghdad, the
 Acquisition and Assistance to assess the quality of
                                                          OIG has seven auditors who conduct ﬁnancial
 work performed by its contracting ofﬁcers.
                                                          and performance audits of reconstruction and
                                                          relief activities. The USAID Mission carries out
 Human Capital                                            programs in education, health care, food security,
                                                          infrastructure reconstruction, airport and seaport
 Management                                               management, economic growth, community
 Management of a diverse and widespread workforce         development, local governance, and transition
 impacts the ability of USAID to carry out its mission.   initiatives.
 Accordingly, USAID has undertaken a major effort
                                                          On the investigative side, the OIG has a Special
 to improve and restructure its human capital
                                                          Agent assigned to Baghdad for investigative
 management. For example, in August 2004, USAID
                                                          coverage and proactive efforts. During the
 issued its ﬁrst comprehensive Human Capital
                                                          current reporting period, this individual traveled
 Strategic Plan, which covered ﬁscal years 2004 to
                                                          to Northern Iraq to conduct two fraud awareness
 2008. Nevertheless, as of December 31, 2004, the
                                                          seminars with USAID contractors and grantee
 Ofﬁce of Management and Budget (OMB) gave
                                                          personnel. The OIG investigator also initiated
 USAID an unsatisfactory rating for its overall status
                                                          four cases and completed three others. Currently,
 in the area of human capital management. Despite
                                                          there are ﬁve cases under active investigation in
 this overall assessment, OMB and the Ofﬁce of
                                                          Iraq and another two that have been placed in
 Personnel Management rated USAID’s progress as
                                                          tracking awaiting action by outside parties.
 satisfactory. However, more remains to be done.
 Most importantly, USAID needs to implement               During this reporting period, the OIG performed
 its workforce planning and analysis initiative and       an audit of the award for USAID’s contract for
 implement strategies to close or eliminate mission-      security services. The audit found that USAID
 critical skill gaps.                                     did not comply with signiﬁcant provisions of the
                                                          Federal Acquisition Regulation (FAR). Speciﬁcally,
 The OIG completed an audit of USAID’s Human
                                                          USAID (1) did not adequately document its use of
 Capital Strategic Plan, which determined that the
                                                          sole-source procurement or its selection of the
 plan incorporated the best practices that had been
                                                          contractor, (2) obtained security services for a
 identiﬁed by OMB (see page 37).
                                                          seven-month period using a document that did not
                                                          meet FAR requirements, and (3) incurred multiple
                                                          potential funds-control violations in obtaining
                                                          security services. Additionally, through this contract,
                                                          USAID purchased 14 armored vehicles that did not
                                                          meet U.S. Government armoring standards and did
                                                          not adequately document the $1.9 million cost of
                                                          the vehicles (see page 25).

                                                          The OIG recommended that USAID’s Chief

October 1, 2004 — March 31, 2005
                                                                                                            13
                           Semiannual Report to the Congress
Acquisition Ofﬁcer issue notices reminding              coverage of USAID’s activities in that country.
contracting personnel that (1) adequate and             Much of the OIG’s efforts involve performance and
complete documentation be prepared and retained         ﬁnancial audits of the $665 million Rehabilitation of
and (2) all USAID procurements are subject to           Economic Facilities and Services (REFS) program—
Federal procurement regulations. Additionally, the      the largest and most visible activity that USAID/
OIG recommended that USAID review potential             Afghanistan implements.
funds-control violations and change its policies on
contractors’ purchases of armored vehicles. USAID       During this reporting period, the OIG issued a
has agreed to take action to address the OIG’s          performance audit report on the progress of USAID/
recommendations.                                        Afghanistan’s school and clinic reconstruction
                                                        program. The audit found that the program was not
An OIG audit of the $120 million Community Action       on schedule to build or renovate over 500 schools
Program determined that the program achieved            and clinics by the end of calendar year 2004 as
intended outputs. However, the audit recommended        planned. A number of factors contributed to the
improvements in monitoring and reporting (see           program not meeting its objectives, including security
page 5). A third audit, of USAID/Iraq’s health system   threats and incidents, overly optimistic expectations,
strengthening contract activities, determined that      and insufﬁcient oversight and monitoring. The OIG
activities under this $23 million contract had not      recommended that USAID/Afghanistan develop
achieved the intended outputs and recommended           an implementation plan with milestones for the
the timely disposition of contract modiﬁcations.        not completed portion of its school and clinic
USAID/Iraq reached management decisions on              reconstruction program (see page 26).
these recommendations (see page 5).
                                                        The OIG continues to contract for concurrent
The OIG also arranges for concurrent ﬁnancial           ﬁnancial audits of the USAID contractor
audits of USAID contractors and grantees                implementing the REFS program. These ﬁnancial
implementing programs in Iraq. These ﬁnancial           audits are being conducted by an audit ﬁrm and
audits of costs incurred by contractors are being       by the Defense Contract Audit Agency. During
conducted by the Defense Contract Audit Agency.         this period, the audit ﬁrm issued two ﬁnancial
During this period, nine ﬁnancial audit reports         audit reports covering $3 million in contractor-
covering $169.2 million in incurred costs were          incurred costs. The audit reports questioned $3
issued. These audits questioned about $5.6 million      thousand in costs and reported two internal control
in costs pertaining to salaries and wages, foreign      weaknesses.
allowances, subcontractor costs, security, overhead
costs, facility capital costs of money, miscellaneous   In the investigative arena, the OIG provides
expenses, and indirect costs.                           investigative coverage for Afghanistan out of its
                                                        Manila Ofﬁce. During the current reporting period,
                                                        an OIG investigator traveled to Kabul on four
Afghanistan                                             occasions in response to reported allegations. As
USAID continues to devote considerable funding to       a result, four cases were opened and one ongoing
rebuilding the country’s physical, social, economic     case was closed.
and political infrastructure. In ﬁscal year 2004,
USAID’s budget for Afghanistan was approximately
$1.1 billion—18 percent of the total budget for
the Bureau for Asia and the Near East. Only Iraq
received more assistance.

The OIG continues to provide continual audit

                                                                              October 1, 2004 — March 31, 2005
14
                            Semiannual Report to the Congress
                                                         reports described 23 internal control weaknesses
 Tsunami                                                 and 43 instances of noncompliance with contract
                                                         terms and/or applicable laws and regulations. These
 The OIG plans to provide audit and investigative        audits did not identify any instance where USAID
 support to USAID’s tsunami relief and                   funds for assistance for the West Bank and Gaza
 reconstruction efforts in South East Asia.              were provided to terrorist organizations.
 The OIG is represented on USAID’s Tsunami Task          Finally, the OIG will continue its emphasis on
 Force. On March 18 , 2005, the OIG attended a           proactive efforts in the West Bank and Gaza.
 meeting of the representatives of the donor nations,    Accordingly, the OIG anticipates making fraud
 “High-Level Coordination Meeting on Rehabilitation      awareness presentations and site visits.
 and Reconstruction Assistance to Tsunami-Affected
 Countries,” held in Manila. At this meeting the
 various donor country representatives described         HIV/AIDS
 the assistance activities that had been conducted
                                                         According to the latest ﬁgures released by the
 to date, and the affected countries described the
                                                         Joint United Nations Program on HIV/AIDS,
 assistance that is still needed.
                                                         approximately 39.4 million people are infected with
 Additionally, the OIG held meetings with the            HIV/AIDS and the number is growing. Recognizing
 USAID/Mission Directors from the three countries        that the AIDS pandemic is one of the greatest health
 where USAID will be providing the majority of the       challenges of our time, the Bush Administration
 tsunami assistance (India, Sri Lanka, and Indonesia).   announced the President’s Emergency Plan for AIDS
 We discussed various audit strategies to help           Relief (the Emergency Plan) in January 2003. The
 ensure accountability over funds for reconstruction     United States is focusing signiﬁcant new resources
 activities once these are underway. This may            in 15 of the most afﬂicted countries in the world.
 include risk assessments at the early stages of         Along with the Departments of State and Health
 program implementation, performance audits of           and Human Services, USAID is one of the key
 USAID programs, and concurrent non-Federal              agencies implementing the Emergency Plan.
 ﬁnancial audits of the incurred costs of the larger
                                                         USAID funding for HIV/AIDS programs had been
 implementing entities.
                                                         increasing steadily—from $139 million in ﬁscal year
                                                         1999 to more than $995 million in ﬁscal year 2004.
 West Bank and Gaza                                      With the funding increases, there is much interest
                                                         in monitoring the impact of USAID assistance on
 Within the Consolidated Appropriation Acts for          the HIV/AIDS epidemic.
 ﬁscal years 2003, 2004 and 2005, Congress required
 USAID to ensure that all contractors and grantees,      The Emergency Plan is one of USAID’s highest
 and signiﬁcant sub-contractors and sub-grantees of      priorities. In 2005, the OIG launched a worldwide
 the West Bank and Gaza are audited at least annually.   audit to determine how USAID is participating
 Within each of the ﬁscal year appropriations,           in the Emergency Plan and how it is progressing
 Congress provided up to $1,000,000 for the              with its Emergency Plan activities. The OIG also
 Inspector General of USAID to conduct audits,           anticipates conducting future audits assessing
 inspections, and other activities in furtherance of     USAID’s continuing progress and the effectiveness
 this provision.                                         of its Emergency Plan activities.

 During this period, the OIG issued 21 ﬁnal reports      Moreover, the OIG is coordinating with USAID
 which identiﬁed questioned costs of $2.4 million out    and other Federal agencies to develop an Ofﬁce of
 of the $28.4 million audited. In addition, the audit    Management and Budget Circular A-133 Program

October 1, 2004 — March 31, 2005
                                                                                    15
                          Semiannual Report to the Congress
Compliance Supplement, which would encompass
the government-wide HIV/AIDS programs under
the Emergency Plan. This supplement will include
program and audit guidance on HIV/AIDS programs,
allowing non-Federal auditors to more effectively
evaluate how well U.S.-based nonproﬁt organizations
are complying with laws, regulations and provisions
applicable to grant agreements associated with the
Emergency Plan.




                                                        October 1, 2004 — March 31, 2005
16
                            Semiannual Report to the Congress

 Expanding                                               Fraud Awareness Training
 Accountability                                          As part of its proactive strategy, the OIG conducts
                                                         fraud awareness training for USAID employees,
 Corruption and lack of accountability are major         contractors, grantees and others. The purpose
 impediments to development and threaten to              of this training is to alert personnel to fraudulent
 negate years of economic growth, especially in          schemes and practices so that they can prevent or
 areas of the world beset by political instability and   reduce fraud in USAID programs and operations.
 violence. The OIG audits and investigations afford      In addition, the OIG promotes the Hotline and
 one method of safeguarding USAID funds; however,        advises attendees of methods and procedures
 the OIG actively pursues additional methods to          to report potential fraud, waste or abuse. The
 promote accountability and transparency. For            following table is a summary of fraud awareness
 example, the OIG works with Supreme Audit               training provided during the current period.
 Institutions (SAIs) to expand their capabilities and
 provides fraud awareness and ﬁnancial management
 training.

 Expanding Supreme Audit
 Institutions’ Capabilities
 The OIG continues to work closely with selected
 Supreme Audit Institutions (SAIs) worldwide. SAIs
 are the recipient countries’ principal government
 audit agencies and are often the only organizations
 that have a legal mandate to audit the accounts and
 operations of their governments. Therefore, an SAI
 may be called upon to audit funds that USAID or
 other donors provide to the government of that
 country.

 Before its audits can be accepted by USAID, the
 SAI must meet certain requirements concerning
 its professional capability and independence. The
 process usually requires that the SAI, the USAID
 mission, and the OIG sign a Memorandum of
 Understanding (MOU) detailing standards and
 procedures to be used in auditing USAID funds.
 USAID missions and the OIG have MOUs with SAIs
 in 20 countries.




October 1, 2004 — March 31, 2005
                                                                                                                            17
                              Semiannual Report to the Congress

                                     Fraud Awareness Training
 Month                 Location               Sessions        Attendees                  Type of Attendee

              Bucharest, Romania                   2             34        USAID/Contractor/Grantee Personnel
OCT 04        Yerevan, Armenia                     2             118       USAID/Contractor/Grantee Personnel
              Washington, DC, U.S.                 1              6        Contractor - Board of Directors

              Alexandria, Egypt                    3             60        Contractor Personnel
NOV 04
              Washington, DC, U.S.                 3             30        USAID Personnel

DEC 04        Washington, DC, U.S.                 1             18        Grantee Personnel

              Washington, DC, U.S.                 1             50        USAID Personnel
JAN 05
              Baku, Azerbaijan                     2             51        USAID,/Contractor Personnel

              Basra, Iraq.                         2             40        USAID/Contractor Personnel
                                                                           Members of the Multi-National Force
FEB 05
              Washington, DC, U.S.                 1             21        USAID Personnel
              Lima, Peru                           2             22        USAID/Contractor/Grantee Personnel

              Washington, DC, U.S.                 3             69        USAID Personnel
              Kingston, Jamaica                    3             74        USAID/Contractor Personnel
MAR 05
              St. George, Granada                  1             26        USAID Personnel
              Baghdad, Iraq                        1              9        USAID Personnel

              Total                               28             628




Photograph of an OIG Investigator presenting fraud aware-          Photograph of an OIG Investigator conducting fraud
ness training to contractor personnel in Kingston, Jamaica.        awareness training for contractor personnel in Alexandria,
                                                                   Egypt.

                                                                                          October 1, 2004 — March 31, 2005
18
                            Semiannual Report to the Congress
 Financial Management                                   Audits of U.S.-Based Grantees
 Training                                               and Enterprise Funds
                                                        U.S.-based nonproﬁt organizations also receive
 USAID’s contracts and grants deﬁne the types
                                                        signiﬁcant USAID funds to implement development
 of costs that are legitimate charges to support
                                                        programs overseas. As required by OMB Circular
 USAID programs. To increase awareness and
                                                        A-133, “Audits of States, Local Governments, and
 compliance with cost principles, OIG has been
                                                        Non-Proﬁt Organizations,” non-Federal auditors
 training overseas USAID staff, contractors, grantees
                                                        perform annual ﬁnancial audits of USAID grantees
 and others. This training provides both a general
                                                        that spend over $500,000 of Federal funds annually.
 overview of U.S. Government cost principles and
 of audit requirements. It also provides examples       The OIG provides oversight of the non-Federal
 of concepts such as reasonableness, allocability and   auditors performing these audits and reviews
 allowable and non-allowable costs.                     the audit reports to determine whether they
                                                        are prepared in accordance with Circular A-133
 During this reporting period, the OIG provided
                                                        reporting requirements. The OIG also conducts
 ﬁnancial management training in 8 countries to
                                                        quality control reviews to determine whether
 about 300 individuals.
                                                        the underlying audits complied with Circular A-
                                                        133 requirements. In some instances, the OIG
 Accountability Over                                    contracts with DCAA, or oversees the work of
                                                        local audit ﬁrms contracted by USAID missions to
 Contractors and Grantees                               perform specialized ﬁnancial audits or agreed-upon
 USAID is required by the Federal Acquisition           procedure reviews, of U.S.-based grantees.
 Regulation (FAR), the Single Audit Act, Ofﬁce of
                                                        Enterprise Funds are U.S.-based nonproﬁt
 Management and Budget (OMB) Circulars, and its
                                                        organizations. USAID has established 11 Enterprise
 own internal policies and procedures to obtain
                                                        Funds, 10 of which invest in countries in Eastern
 appropriate and timely audits of its contractors
                                                        Europe and Eurasia, while the 11th invests in
 and grantees. The OIG provides oversight of these
                                                        southern Africa. Enterprise Funds are subject to
 audit activities, ensuring that audits are conducted
                                                        annual ﬁnancial statement audits performed by
 in accordance with applicable standards. The OIG
                                                        private accounting ﬁrms and reviewed by the OIG.
 also reviews audit reports of foreign organizations
                                                        During this reporting period, the OIG issued an
 receiving USAID funds.
                                                        agreed-upon-procedures review in response to
                                                        allegations of misuse of funds, on an Enterprise Fund
 Audit of U.S.-Based Contractors                        that covers 11 countries in southern Africa. The
                                                        review identiﬁed $9.6 million in questioned costs,
 The Defense Contract Audit Agency (DCAA)
                                                        26 reportable internal control weaknesses (14 of
 conducts audits, reviews, and pre-award surveys of
                                                        which were material), and 30 instances of material
 U.S.-based contractors on USAID’s behalf; the OIG
                                                        noncompliance with laws and regulations.
 reviews DCAA’s reports and transmits them to
 USAID management.                                      During the current reporting period, the OIG:
 During this reporting period, the OIG reviewed          • Reviewed and issued 40 non-Federal audit
 and transmitted 69 DCAA reports on U.S.-based             reports covering USAID funds of over $497
 contractors. These reports covered approximately          million spent by U.S.-based grantees.
 $890 million in costs claimed by the contractors
 and identiﬁed $7.3 million in questioned costs.         • Completed 3 quality control reviews covering

October 1, 2004 — March 31, 2005
                                                                                                         19
                          Semiannual Report to the Congress
    over $70 million in grantee expenditures.          to the appropriate USAID mission. In addition,
                                                       the OIG conducts quality-control reviews on the
 • Identiﬁed over $11 million in questioned            working papers of selected recipient-contracted
   costs.                                              audit reports.

Audits of Foreign-Based                                During the most recent reporting period, the OIG
Contractors and Grantees                               reviewed and transmitted 140 audits of foreign-
                                                       based organizations, resulting in over $22 million
Although OMB Circular A-133 does not apply             in questioned costs. The OIG also completed
to foreign-based contractors and grantees, given       eight quality-control reviews to ensure that the
the high-risk environment in which they operate,       audits were completed in accordance with audit
USAID has extended similar audit requirements          standards.
to its foreign-based contractors and grantees
through standard provisions included in grants,        Investigations: Prevention and
cooperative agreements, and contracts. Financial       Fraud Awareness
audits of foreign-based contractors and grantees
are normally conducted by independent audit ﬁrms       OIG investigative priorities are twofold: ﬁrst,
approved by the OIG.                                   to preserve and protect program and employee
                                                       integrity within USAID, ADF and IAF; and second,
Under this Recipient-Contracted Audit Program,         to prevent fraud, waste, and abuse within USAID,
audits are required for all foreign nonproﬁt           ADF and IAF programs and operations. During
organizations that spend $300,000 or more per          the current reporting period, the OIG has placed
ﬁscal year. USAID or the OIG may also request          increased emphasis on preventive strategies as a
audits of nonproﬁt organizations that fall below the   result of signiﬁcant Agency program expansion with
$300,000 threshold. With respect to foreign for-       respect to Iraq and Afghanistan. Use of proactive
proﬁt organizations, incurred cost audits of direct    strategies has proven to be very effective in
awards or of cost-reimbursement host-country           combating fraud, waste and abuse.
contracts and subcontracts must be performed
annually.                                              Accordingly, the OIG has employed a number of
                                                       strategies. For example, drawing upon the collective
In addition, Agency-contracted audits initiated        experience of its corps of special agents, the OIG
by either USAID or the OIG may also be used            presents fraud awareness training to employees,
to provide further audit coverage or to address        contractors, grantees and others to alert them
known or perceived ﬁnancial management                 to fraudulent practices and schemes and advises
problems concerning USAID’s contracts, grants, or      them on how to report fraud if it is encountered.
other agreements. For example, the OIG issued          When requested, the training is tailored for
an Agency-contracted audit of a grant with a total     presentation for speciﬁc groups, such as contracting
value of $5.7 million. The audit report identiﬁed      ofﬁcers or Cognizant Technical Ofﬁcers. Most
$4.8 million in questioned costs, eight material       important, investigations resulting in criminal and/
internal control weaknesses, and 20 instances of       or civil prosecution are publicized on the Agency’s
noncompliance with agreement terms, laws, and          website and other publications, calling attention
regulations. The OIG provided close oversight of       to prosecutive action taken against individuals or
the audit ﬁrm’s work.                                  organizations convicted of fraud. The publication of
                                                       prosecutive actions serves as a deterrent to fraud,
The OIG reviews all audit reports for compliance       waste and abuse.
with the “Guidelines for Financial Audits Contracted
by Foreign Recipients” and transmits the reports

                                                                            October 1, 2004 — March 31, 2005
20
                            Semiannual Report to the Congress
  Furthermore, the OIG has developed several
  publications and promotional materials. The
  newest publication, “What an Investigation Means
  to You,” outlines the types of activities that the
  OIG investigates, the purpose of its investigations,
  the investigative process, and the employee’s role
  in that process. Another publication, “What to
  Report,” provides speciﬁc guidelines for making
  complaints to the OIG Hotline. The “Fraud
  Indicators” publication encourages the reader to
  explore various techniques to identify indications
  of fraud. Furthermore, OIG Hotline posters,
  ﬂyers, and cards available in different languages
  have been distributed throughout the OIG’s
  overseas ofﬁces and within USAID Washington.
  In an effort to expand our outreach efforts, these
  materials were produced in English, Spanish,
  French and Arabic.




October 1, 2004 — March 31, 2005
                                                                                                          21
                          Semiannual Report to the Congress
                                                       Support Bureaus
Introduction to
                                                        • Policy and Program Coordination
USAID Bureaus and
Independent Ofﬁces                                      • Management

The Ofﬁce of Inspector General’s results presented      • Legislative and Public Affairs
in this section are organized by the USAID unit
                                                       Centralized programs and services that serve
or bureau where the audit or investigation was
                                                       the entire USAID organization are the focus of
focused.
                                                       the support bureaus. Strategic planning, policy
USAID is organized into ten major bureaus and          formulation, coordination, budget formulation,
ﬁve independent ofﬁces. The bureaus are divided        resource allocation, management services
by region, program focus, and support function.        (including information technology, personnel
USAID’s bureaus are:                                   and ﬁnancial management), and public and
                                                       Congressional liaison—these are the tasks of the
                                                       three main support bureaus.
Regional Bureaus
 • Africa                                              Independent Ofﬁces
 • Asia and the Near East                               • Ofﬁce of the Executive Secretariat

 • Europe and Eurasia                                   • Ofﬁce of Equal Opportunity Programs

 • Latin America and the Caribbean                      • Ofﬁce of the General Counsel

The regional bureaus formulate, approve, direct,        • Ofﬁce of Small and Disadvantaged Business
and implement the Agency’s strategic priorities for       Utilization and Minority Resource Center
economic assistance programs with the ﬁeld mission
staff under their responsibility.                       • Ofﬁce of Security

                                                       The independent ofﬁces, headed by directors
Program/Pillar Bureaus                                 who are appointed by the Administrator, provide
                                                       specialized functions for USAID.
 • Democracy,      Conﬂict     and    Humanitarian
   Assistance

 • Ecomonic Growth, Agriculture and Trade              Bureau for Africa
 • Global Health                                       Audit of USAID/Zambia’s Global
The pillar bureaus provide leadership, technical       Development Alliances
expertise, and management worldwide in primary
focus areas.                                           Global Development Alliances (GDAs) are
                                                       agreements between USAID and other parties—
The program activity or technical expertise supports   both public and private sector—in the development
USAID’s regional bureaus, ﬁeld missions and other      community to jointly deﬁne a development problem
operational units.                                     and jointly contribute to its solution. While working
                                                       closely with development partners is certainly not

                                                                             October 1, 2004 — March 31, 2005
22
                                    Semiannual Report to the Congress
 new to USAID, since 2001 the concept of public-                    Management decisions were reached on all three
 private alliances has been emphasized as a business                recommendations.
 model to increase USAID’s effectiveness in delivering
 foreign assistance.                                                (Audit Report No. 9-611-05-002-P)

 This audit was the pilot in a series of worldwide                  Audit of USAID/Mozambique’s
 audits being conducted by the OIG. Its objectives                  Performance Monitoring of
 were to determine whether USAID/Zambia
 considered utilizing GDAs in planning its activities               Railroad Rehabilitation Under
 and reported its GDAs accurately and completely,                   the Southern Africa Floods
 and whether selected GDAs achieved their intended                  Supplemental Appropriations
 results.
                                                                    The OIG conducted this audit at USAID/
                                                                    Mozambique to determine whether the Mission
                                                                    implemented and monitored its railroad
                                                                    reconstruction activities under the Southern
                                                                    Africa Floods Supplemental Appropriations.

                                                                    The audit found that USAID/Mozambique
                                                                    implemented and monitored its railroad
                                                                    reconstruction activities in accordance with USAID
                                                                    policies and procedures but did not, in accordance
                                                                    with USAID and Mission policy, conduct an annual
                                                                    contractor performance evaluation or prepare
                                                                    an annual contractor performance report for the
     Photograph of the manager of a GDA-supported milk collection   engineering consulting ﬁrm that supervised the
     center in Magoye, Zambia.                                      reconstruction contractor.

 The OIG determined that USAID/Zambia                               The OIG recommended that USAID/Mozambique
 considered utilizing GDAs in planning its activities.              evaluate and document the performance of the
 Four of its ﬁve strategic objective teams had                      engineering consulting ﬁrm.
 either implemented, were planning, or had actively
 considered GDAs, while the ﬁfth team provided                      A management decision was reached.
 a rationale for not doing so. However, USAID/
 Zambia did not always report its GDAs accurately                   (Audit Report No. 4-656-05-001-P)
 and completely, nor did it maintain documentation
 to support that its GDAs met the criteria to be                    Audit of USAID/Senegal’s
 reported as GDAs or partner contributions                          Contracting Operations
 reported to USAID/Washington. In addition, the
 one GDA funded in ﬁscal year 2003 and reporting                    The Regional Contracting Ofﬁce (RCO) in Dakar,
 results for that year was not achieving its intended               Senegal provides procurement services to support
 results.                                                           USAID programs throughout western Africa. The
                                                                    RCO reports administratively to the Mission
 The report included three recommendations to                       Director while receiving procurement guidance
 assist USAID/Zambia in strengthening its annual                    directly from the Ofﬁce of Acquisition and
 report, improving its GDA documentation system                     Assistance, Washington. In addition to Senegal,
 and supporting reported partner contributions, and                 in ﬁscal year 2004, the ofﬁce provided contracting
 revising indicators and targets for one alliance.
October 1, 2004 — March 31, 2005
                                                                                                                                                        23
                                          Semiannual Report to the Congress
support to several other USAID-presence                                    Follow-up Audit of USAID/
countries, including Guinea, Sierra Leone, and
Benin, as well as to the non-presence countries of                         Tanzania’s Participant Training
Guinea Bissau and Cape Verde. As of July 2004,                             Activities
the RCO had an active portfolio of 66 instruments4
with a total estimated value of $258 million.                              The OIG conducted this follow-up audit to
                                                                           determine      whether      USAID/Tanzania        took
The RCO followed USAID guidelines and applicable                           corrective actions on the recommendations in
regulations as they relate to bid solicitation                             Audit Report No. 4-621-04-001-P, Audit of USAID/
and awarding of instruments, instrument ﬁle                                Tanzania’s Participant Training Activities,5 and found
maintenance, and certain aspects of contract                               that the Mission effectively addressed eight of the
administration. However, the support provided by                           ten recommendations, but that additional action
the RCO was hampered by ineffective electronic                             was still required.
record keeping, and the ofﬁce did not fully comply
with certain requirements related to evaluations of                        The OIG determined that although the Mission
contractor performance and closeouts.                                      provided training to its data entry personnel,
                                                                           the database continued to contain inaccuracies.
The OIG recommended that USAID/Senegal                                     Also, even though the Mission sent out bills for
develop (1) an integrated contract information                             collection and follow-up letters and transferred
system based on a master database, (2) specific                            the uncollectible accounts receivable to the USAID
procedures that include assigning responsibility                           ﬁnancial management ofﬁce in Washington (in
for completing and submitting contractor                                   accordance with USAID policies and procedures),
performance evaluations to the National                                    the Mission did not record the accrued interest and
Institutes of Health Contractor Performance                                penalty charges for those accounts. As a result,
System, and (3) specific procedures that include                           the uncollectible accounts receivable amount was
assigning responsibility for actively monitoring                           understated by over $82,000 in accrued interest
and closing out expired instruments.                                       and penalty charges. Additionally, three non-
                                                                           returned participants had not been issued bills
USAID/Senegal reached management decisions on                              for collection. The cost of training for the three
all recommendations.                                                       individuals was over $372,000.

(Audit Report No. 7-685-05-003-P)                                          This follow-up audit report contained four
                                                                           recommendations for USAID/Tanzania, two for the
                                                                           USAID/Ofﬁce of Financial Management, and two
                                                                           for the USAID/Economic Growth Agriculture and
                                                                           Trade, Ofﬁce of Education. These recommendations
                                                                           included modifying the uncollectible accounts
                                                                           receivable amount of over $82,000 in accrued
                                                                           interest and penalty charges, and providing a
                                                                           corrective action plan to resolve the issue of
                                                                           recovering training costs of over $372,000 for the
                                                                           three non-returned participants.

                                                                           5
                                                                              Each year, USAID’s participant training programs send thousands of non-
                                                                           Americans to the United States. According to USAID, “participants” may be
                                                                           host country residents or foreign nationals taking part in a structured learning
                                                                           activity. Participant training may be short term or long term and may include
                                                                           a range of learning activities such as study tours, conferences, and academic
4
    Instrument is deﬁned as a grant, cooperative agreement, or contract.   training.

                                                                                                           October 1, 2004 — March 31, 2005
24
                            Semiannual Report to the Congress
  As of March 31, 2005, seven of the eight
  recommendations in the report had received a
  management decision. The eighth recommendation
  received a management decision after the end of
  the semiannual reporting period.

  (Audit Report No. 4-621-05-003-P)




October 1, 2004 — March 31, 2005
                                                                                                                                                              25
                                       Semiannual Report to the Congress
                                                                                Audit of USAID’s Compliance
Bureau for Asia and the                                                         with Federal Regulations in
Near East                                                                       Awarding the Contract for
                                                                                Security Services in Iraq to
Audit of USAID/Egypt’s Basic                                                    Kroll Government Services
Education Activities                                                            International, Inc.
The OIG performed this audit to determine (1) the
                                                                                In August 2003, after multiple attacks on Mission
status of USAID-ﬁnanced basic education activities
                                                                                staff, USAID ofﬁcials took steps to obtain security
in Egypt and (2) if the activities had progressed
                                                                                services for its personnel and facilities in Iraq—
towards their intended results. In regard to the
                                                                                including the purchase of 17 vehicles (14 of
status of the activities, USAID/Egypt had six primary
                                                                                them armored). Using other than full and open
projects during ﬁscal year 2003.
                                                                                competition as authorized under a blanket approval
USAID/Egypt’s basic education activities exceeded                               granted by the USAID Administrator for activities
their intended results during ﬁscal year 2003 for the                           and programs initiated in response to the crisis in
three performance indicators6 selected for testing.                             the Near East,7 USAID ofﬁcials in Baghdad selected
The Mission also reported that it met or exceeded                               Kroll Government Services International, Inc. to
targets for the remaining six performance indicators.                           provide these services.
Even though USAID/Egypt met or exceeded targets
                                                                                The OIG determined that USAID (1) did not
for its basic education performance indicators,
                                                                                adequately document the sole source procurement
reporting errors existed in the accuracy of three
                                                                                or explain its contractor choice, (2) obtained security
reported results out of four results selected for
                                                                                services using a letter contract that did not meet
testing, and one reported target was inaccurate.
                                                                                Federal Acquisition Regulation requirements, (3)
The OIG recommended that the Mission revise                                     incurred multiple potential funds-control violations,
its Performance Management Plan and the Annual                                  and (4) purchased armored vehicles that did not
Report to correct the errors.                                                   meet U.S. Government armoring standards and did
                                                                                not adequately document the $1.9 million cost of
A management decision and ﬁnal action were                                      those vehicles.
reached on the recommendation.
                                                                                USAID management reached management decisions
(Audit Report No. 6-263-05-002-P)                                               on all recommendations.

                                                                                (Audit Report No. A-267-05-005-P)




6
   The three performance indicators are (1) annual number of girls and women
                                                                                7
receiving basic education through USAID-funded programs; (2) pass rate             On January 16, 2003, the Ofﬁce of the USAID Administrator authorized
percentage of primary school children in USAID-funded schools and programs by   expedited acquisition and assistance procedures for activities and programs in
gender under the New Schools Program (the OIG tested pass rate percentages      response to the crisis in the Near East. This authority allowed USAID to award
for females only); (3) annual number of community development associations,     these contracts using other than full and open competition requirements in
non-governmental organizations, parent/teacher councils, community education    accordance with 40 USC 474. This statutory authority requires that the awarded
teams and public-private partners actively supporting formal and non-formal     contracts be supported by written justiﬁcations and approvals as described in the
USAID education programs.                                                       Federal Acquisition Regulation.

                                                                                                                 October 1, 2004 — March 31, 2005
26
                                     Semiannual Report to the Congress
 Audit of USAID/Afghanistan’s                                         of the program. To ensure that corrective actions
                                                                      are taken, the report recommended that the
 School and Clinic Reconstruction                                     Mission ﬁnalize an alternative implementation plan
 Program                                                              with timeframes for completing the program. In
                                                                      addition, the report included two recommendations
 The OIG conducted this audit to determine                            for corrective action of the internal control
 whether USAID/Afghanistan’s school and clinic                        deﬁciencies.
 reconstruction activities were on schedule to
 achieve planned outputs. The audit found that                        USAID/Afghanistan provided management decisions
 USAID/Afghanistan’s reconstruction activities were                   on all recommendations.
 not on schedule to achieve planned outputs.
                                                                      (Audit Report No. 5-306-05-003-P)
 The OIG reported that, as of October 31, 2004,
 no more than 328 of 533 planned buildings were                       Audit of USAID/Morocco’s
 completed or on schedule to be completed by the
 end of December 2004. Several factors contributed                    Management of Activities under
 to not achieving those planned outputs, including                    the Middle East Partnership
                                                                      Initiative
                                                                      The OIG audited USAID/Morocco’s management of
                                                                      activities under the Middle East Partnership Initiative
                                                                      to determine (1) the status of the activities and (2)
                                                                      if the activities were meeting their objectives.

                                                                      As of September 30, 2004, USAID/Morocco was
                                                                      responsible for awarding and managing $12.5 million
                                                                      programmed across 17 activities that linked to the
                                                                      broad goals outlined under the economic, political,
                                                                      and education reform initiatives of the Middle East
                                                                      Partnership Initiative.
     Photograph of the construction of an eight-classroom school at
     Karabagh, Province of Kabul.                                     The OIG could not determine if these activities
                                                                      were meeting their objectives because:
 overly optimistic implementation expectations,                        • USAID/Morocco had no performance indicators
 building design changes, unfamiliarity of the local                     to measure expected results for six of the
 labor force with construction speciﬁcations, security                   activities.
 threats and incidents, and insufﬁcient oversight
 and monitoring. In addition to not achieving the                      • USAID/Morocco’s strategic objectives were in
 program’s planned outputs, the OIG reported that                        the beginning stages of implementation.
 the Mission’s internal controls did not ensure that
 its implementing partners were accurately reporting                   • USAID/Morocco had not validated the
 construction progress.                                                  performance data reported by recipients;
                                                                         therefore, the Mission’s controls for monitoring
 The Mission was implementing measures to address                        and evaluating the accuracy of the data could
 the impediments of the program that it has control                      not be relied upon.
 over and was studying a number of alternative
 implementation methods to apply to what remains

October 1, 2004 — March 31, 2005
                                                                                                                27
                                Semiannual Report to the Congress
The OIG recommended that USAID/Morocco                        The audit identiﬁed 3,367 incidents of possible
implement alternative approaches to verify the                noncompliance with the MCP or Helms at 7 of
accuracy of performance results reported by the               the 41 subgrantees receiving USAID funds through
implementers, and a management decision was                   the Organization. The Organization suspended all
reached.                                                      USAID funding to ﬁve subgrantees and restricted
                                                              USAID funding to the remaining two subgrantees
                                                              until it has completed a review of all seven to
                                                              determine whether they had complied with the
                                                              MCP and Helms and USAID has reviewed the
                                                              Organization’s determination. The Organization
                                                              conﬁrmed that 2 of the 3,367 incidents involved
                                                              noncompliance with the MCP or Helms. As a result,
                                                              the Organization was taking action to terminate its
                                                              agreements with two subgrantees, and the Mission
                                                              recovered about $225,000.

                                                              The audit report made four recommendations. Final
                                                              action has been taken on three recommendations.
 Photograph of a beneﬁciary of the Women’s Literacy Program   A management decision has been made on the
 in Marrakech, Morocco.                                       fourth recommendation.

                                                              (Audit Report No. 5-388-05-004-P)
(Audit Report No. 6-608-05-001-P)
                                                              Investigation Leads to Systemic
Audit of USAID/Bangladesh’s
                                                              Change
Nongovernmental Organization
(NGO) Service Delivery                                        An investigation analyzing the salary justiﬁcation
Program                                                       process through use of Biographical Data Sheet
                                                              (BDS) forms in Iraq discovered a pattern of
USAID/Bangladesh awarded a $60 million                        suspicious ﬁlings from one large U.S.-based
cooperative agreement to a U.S.-based nonproﬁt                contractor. This contractor has a $37 million
organization (Organization) to implement the                  dollar cost-plus ﬁxed fee and overhead contract
NGO Service Delivery Program. The purpose                     to provide personnel to assist the USAID Mission
of the program is to support Bangladeshi NGOs                 in Iraq.
providing family planning and maternal and child
health services to the poor in Bangladesh. The                The BDS form is required and used by the Ofﬁce
program’s subgrantees are subject to the Mexico               of Procurement (OP) to establish the appropriate
City Policy (MCP) and the Helms Amendment                     salary level for contractor employees based on
(Helms).                                                      past work experience, education and previous
                                                              salary history. Contractors are required to certify
The objectives of this audit were to determine (1)            that they have veriﬁed the information on the
whether there are incidents of noncompliance with             BDS submitted by prospective employees prior to
the MCP and Helms on the part of the Organization             submission to OP.
and its subgrantees and (2) what actions USAID/
Bangladesh and the Organization have taken to                 During the course of the investigation, a number of
investigate incidents of noncompliance with the               BDS forms were tested to verify salary histories. In
MCP and Helms and to prevent future incidents.                several instances, the investigation found that the

                                                                                   October 1, 2004 — March 31, 2005
28
                            Semiannual Report to the Congress
 salary histories of the employees were signiﬁcantly
 inﬂated. When confronted with these ﬁndings, the
 contractor admitted that it had not veriﬁed the BDS
 information which it was certifying.

 Accordingly, the contractor instituted new and
 stronger controls over the BDS process to include
 written policy, training and creation of a centralized
 education registry of employee training.

 Investigation Results in
 Administrative Action
 An OIG investigation was initiated based on
 allegations that a USAID Personal Services
 Contractor (PSC) in Thailand had been submitting
 and receiving the maximum allowable amount for
 a Living Quarters Allowance even though monthly
 expenditures for rent and utilities were only half
 that amount. The OIG investigation established
 that the PSC claimed and received over $52,000
 above actual expenses for rent and utilities during a
 four-year period. Based on this ﬁnding, the Mission
 issued a Bill for Collection to the PSC demanding
 repayment of the $52,000. Thereafter, when the
 USAID ofﬁcial who issued the Bill for Collection
 began receiving personal threats via e-mail, the
 OIG, working in coordination with the Embassy’s
 Regional Security Ofﬁce (RSO), conﬁrmed that
 the PSC had sent the threatening e-mails to the
 USAID ofﬁcial in retaliation for issuing the Bill for
 Collection.

 Accordingly, the RSO immediately suspended the
 PSC’s security clearance, which resulted in the
 suspension of the person’s contract. Subsequently,
 USAID decided not to renew the PSC’s contract
 upon its expiration.




October 1, 2004 — March 31, 2005
                                                                                                            29
                           Semiannual Report to the Congress
Bureau for Europe and                                   Audit of USAID/Russia’s
                                                        Democracy Program
Eurasia
                                                        This audit was designed to determine (1) how funds
Follow-up Audit of                                      had been spent under the democracy and local
Recommendation No. 2, Audit                             governance program, and (2) whether USAID/Russia
                                                        had monitored the program to ensure that results
of USAID/Russia’s Monitoring of                         were achieved.
American International Health
Alliance’s (AIHA) Performance                           The OIG determined that USAID/Russia was funding
                                                        35 democracy and local governance activities with
This follow-up audit was conducted to determine         ﬁscal year 2004 obligations of $20.5 million. The
if USAID/Russia had satisfactorily implemented          Mission spent these funds to assist with Russia’s
Recommendation No. 2 from Audit Report B-               development of more legitimate democratic
118-03-002-P. Recommendation No. 2 stated that          institutions and more responsive local governments.
USAID/Russia must notify American International         The OIG also determined that, USAID/Russia
Health Alliance (AIHA) of the problems identiﬁed        did not fully monitor its democracy and local
with data quality and require that future quarterly     governance program to ensure that intended results
reporting include consistent and comparable             were achieved. Speciﬁcally, the Mission did not
data related directly to AIHA’s activities. The         develop and maintain timely and useful performance
OIG selected Recommendation No. 2 for follow-           indicators to ensure that the program achieved
up because it dealt with activity monitoring and        its performance targets, and the Mission had not
performance evaluation.                                 obtained sufﬁcient performance data to adequately
                                                        assess program progress.
The OIG determined that the Mission had taken
action to eliminate these problems. The OIG             The OIG recommended that USAID/Russia (1)
conﬁrmed that USAID/Russia and AIHA had                 review its performance indicators to ensure
revised the program’s Monitoring and Evaluation         that they provide appropriate information, (2)
Plan and developed performance indicators which         document its periodic indicator review process,
corresponded to the major activities supported by       (3) clearly deﬁne staff responsibilities for the
USAID/Russia. Furthermore, the revised quarterly        review of performance data, (4) periodically report
reports presented consistent and comparable data        performance information that compares actual
related to the new performance indicators. In           performance to planned results (5) document its
addition, Mission staff routinely checked and veriﬁed   compliance with guidance for establishing strategic
health program indicator data for compliance            objective teams, and (6) establish a training plan for
with USAID data quality standards and contacted         Cognizant Technical Ofﬁcers.
AIHA to seek improvements when problems were
identiﬁed.                                              All recommendations have received management
                                                        decisions.
USAID/Russia took         ﬁnal   action    on    this
recommendation.                                         (Audit Report No. B-118-05-002-P)

(Audit Report No. B-118-05-001-P)                       Investigation Results in Bill for
                                                        Collection for over $12,000
                                                        An investigation was initiated after the OIG received
                                                        allegations of false claims submitted by the former .

                                                                              October 1, 2004 — March 31, 2005
30
                             Semiannual Report to the Congress
 Country Director of a non-proﬁt organization              procurement-related ﬁles to its U.S. headquarters
 operating in the Federal Republic of Yugoslavia.          ofﬁce.
 USAID had awarded the U.S.-based organization
 two grants totaling $60,000 to support projects           Investigation Leads to Recovery
 focused on reducing the effects of institutionalism       of $52,736 and Systemic Change
 in orphanages. The USAID-supported projects
 provided counseling and assistance to young               An OIG investigation resulted in a contractor
 mothers and helped to reunite children with their         agreeing to refund a total of $52,736 in project
 families.                                                 funds associated with the USAID-funded Fostering
                                                           and Investing Lending Environment (FILE) Program
 The organization collaborated with the OIG to             in Bosnia-Herzegovina. The OIG initiated the
 uncover evidence of fraudulent receipts relative to       investigation in coordination with USAID/Sarajevo,
 USAID-sponsored projects. The organization had            Bosnia-Herzegovina and the contractor. The
 previously terminated the Country Director, who           investigation led to the recovery of over $50,000
 is currently undergoing local court proceedings           in disallowed costs for a sub-award employee who
 for violations related to misuse of the company’s         was subsequently terminated and over $2,000
 registered name. As a result of the investigation,        in disallowed relocation costs associated with
 USAID issued the organization a Bill for Collection for   a second employee. Furthermore, the USAID/
 over $12,000 to cover the fraudulent expenditures.        Sarajevo Economic Restructuring Ofﬁce Director
 USAID also contacted its implementing partners to         instituted a systemic change whereby exit interviews
 request that they not issue grants or sub-grants to       are conducted with all FILE Program ex-patriot
 organizations led by the former Country Director.         employees when they leave the program.
 Investigation Results in Systemic                         Investigation Leads to Recovery
 Change                                                    of over $11,500 and Systemic
 An investigation into allegations of possible             Change
 wrongdoing in a program supporting independent
 print and broadcast media in Eastern Europe               An OIG investigation conducted in coordination
 resulted in changes to a USAID implementer’s              with the USAID Mission to Georgia and a USAID
 management operations. Based on information               partner resulted in the identiﬁcation of over
 received from USAID/Montenegro, the OIG                   $11,500 in mischarges for travel-related tickets
 launched an investigation into a recipient program        purchased under the USAID-funded Strategic
 involving $3.5 million in USAID funds to consider         Technical Assistance for Results with Training
 potential corruption by its Chief of Party in             (START) Program. The START program supports
 steering USAID funds to selected equipment                human resources development and builds Georgian
 suppliers. The investigation revealed systemic            institutional capacity through education and training
 weaknesses in the organization’s procurement              programs. Travel-related tickets were purchased
 management processes.         As a result, the            with USAID funds from a local travel agency, whose
 organization undertook a review of its procurement        pricing structure resulted in disallowed costs
 and record-keeping procedures and implemented             exceeding $11,500 over a seven-month period.
 systemic improvements. For instance, to tighten           As a result of efforts by the partner and USAID
 internal controls on procurement procedures,              ofﬁcials, the local travel agency revamped its pricing
 the organization established a clear segregation          structure and agreed, in writing, to forgo over
 of duties involving procurements, supervision of          $11,500 in future travel-related expenses to repay
 procurements, and record keeping. In addition,            its overcharges to USAID.
 the organization’s ﬁeld ofﬁces now provide all

October 1, 2004 — March 31, 2005
                                                                                                          31
                           Semiannual Report to the Congress
Investigation Results in Recovery,                      key position in the ADP program without USAID
                                                        authorization. Further, the investigation found that
Termination and Systemic                                the ADP implementer did not use a proper selection
Change                                                  process in choosing the key personnel position, and
                                                        engaged in questionable sub-contracting practices
An OIG investigation conducted in coordination          with the implementer of the PFAP to minimize its
with USAID/Kiev resulted in the identiﬁcation of        exposure to the improper hiring procedures. As a
over $33,000 in rental funding wrongfully removed       result, USAID suspended the implementers’ abilities
from the Mission Cashier’s Ofﬁce. The investigation     to issue four sub-grants amounting to over $149,000.
also determined the identity of the responsible         The Chiefs of Party for both implementers were
employee and assisted the Mission in the recovery       removed, as well as one Deputy Chief of Party and
of the stolen funds. The Mission terminated the         two employees.
employee for cause, which provided a savings of over
$3,600 in severance and separation pay. In addition,
the Mission systemically strengthened its ability to
                                                        Investigation Leads to
account for funds designated for the payment of         Implementation of Systemic
government-leased facilities and quarters in two        Changes
ways. First, the Mission established a check log
and tracking veriﬁcation procedure. Second, the         In coordination with USAID’s Mission to Georgia,
Mission implemented a process for verifying its         an investigation was undertaken in response to
check-tracking procedure as part of its monthly,        information that a foreign national employee working
unannounced cash counts.                                in the Mission’s Procurement Ofﬁce had ﬁnancial
                                                        ties to companies receiving USAID funding.
Two American Implementers
                                                        The investigation did not substantiate these speciﬁc
Are Temporarily Suspended                               allegations, although the employee admitted he had
from Issuing Sub-Grants and                             been a former owner of one company receiving
Numerous Employees Are                                  USAID funding and remained personal friends
                                                        with the company’s president. The employee
Terminated or Demoted                                   further admitted that he had a long-standing social
An investigation launched in coordination with          relationship with the president of another company
the USAID’s Mission to Moldova and Ukraine              doing business with USAID. The Mission’s Ofﬁce
has resulted in the identiﬁcation of questionable       of Procurement—unaware of this relationship
practices in the awarding of sub-grants by U.S.-based   with the second company—tasked the employee
implementers involved with USAID’s Agribusiness         with conducting a ﬁnancial review of the economic
Development Program (ADP) and the Private               portion of the company’s bid submission. The
Farmers Assistance Program (PFAP). The ADP              second company won the USAID bid although
seeks to increase rural incomes and employment          the employee was not a member of the selection
by improving the international competitiveness and      committee. The company previously owned by the
trade performance of Moldova’s agricultural sector.     employee became a subcontractor to the second
The PFAP was launched in January 2001 to provide        company. The employee failed to disclose formally
post-privatization assistance to private farmers and    any of these relationships to USAID although
rural entrepreneurs in Moldova.                         previously he had received Agency-sponsored ethics
                                                        and integrity training.
Based on coordinated efforts by the OIG and Mission
Ofﬁcials in Ukraine and Moldova, information was        As a result of the information uncovered during
uncovered showing that an implementer ﬁlled a           the investigation, the Mission instituted two
                                                        systemic changes. First, all employees involved
                                                                             October 1, 2004 — March 31, 2005
32
                            Semiannual Report to the Congress
 with procurement actions must now ﬁle an annual
 ﬁnancial disclosure report. Second, employees
 must now register, in writing, their recusals and
 disclosures of information for permanent inclusion
 into their personnel ﬁles.




October 1, 2004 — March 31, 2005
                                                                                                              33
                            Semiannual Report to the Congress
                                                           Audit of USAID/Guatemala-
Bureau for Latin                                           Central American Program’s
America and the                                            Cooperative Agreement with
Caribbean                                                  Caribbean-Central American
                                                           Action (CCAA)
Audit of USAID/Colombia-
                                                           The U.S.-Central America Free Trade Agreement
Financed Subawards                                         (CAFTA) was signed by the United States and several
                                                           Central American countries on May 28, 2004. As
The OIG performed this audit to determine if
                                                           a comprehensive and reciprocal trade agreement,
USAID/Colombia’s development partners followed
                                                           CAFTA deﬁnes detailed rules that would govern
agreement provisions for awarding and administering
                                                           market access of goods and services.
subawards.
                                                           At the request of Congress, the OIG conducted this
USAID/Colombia’s development partners did not
                                                           audit to determine whether (1) USAID/Guatemala-
follow agreement provisions for awarding and
                                                           Central American Programs (USAID/G-CAP)
administering subawards. One of USAID/Colombia’s
                                                           complied with Federal law and USAID policies
development partners entered into cooperative
                                                           and procedures, (2) the cooperative agreement
agreements, which were not allowed under its
                                                           complied with selected Federal Appropriations
contract, and 11 of its development partners did
                                                           Law provisions, and (3) the cooperative agreement
not comply with requirements to compete awards
                                                           complied with Federal and USAID lobbying
as required by USAID policies and the Federal
                                                           restrictions.
Acquisition Regulation. USAID/Colombia did not
(1) evaluate proposals in accordance with USAID            The audit concluded that USAID/G-CAP complied
policies, (2) obtain all required certiﬁcations, and       with Federal law and USAID policies and procedures,
(3) include all required standard provisions in the        and that the cooperative agreement complied with
subaward agreements. Further, USAID/Colombia’s             selected Federal Appropriations Law provisions.
Cognizant Technical Ofﬁcers did not provide                However, the audit determined that the cooperative
sufﬁcient guidance to the development partners             agreement to CCAA did not fully comply with
regarding the requirements for making subawards.           Federal and USAID lobbying restrictions. The
                                                           agreement program description called for business
The OIG recommended that USAID/Colombia
                                                           and civil society leaders to sign the “Declaration of
(1) issue instructions to its development partners
                                                           Principles” which—among other things—asked for
to comply with the competition requirements,
                                                           business partners, friends and families in the United
(2) evaluate proposals in accordance with USAID
                                                           States to support efforts to ratify the CAFTA.
policies, (3) obtain required certiﬁcations, (4) include
all required standard provisions in the subawards,         The OIG recommended that the Mission require
and (5) provide the Cognizant Technical Ofﬁcers            the cooperative agreement to use the most recent
with refresher training.                                   Declaration of Principles, which omits any reference
                                                           to either ratiﬁcation of CAFTA or the United
Management decisions have been reached on all
                                                           States.
recommendations.
                                                           A management decision was reached upon report
(Audit Report No. 1-514-05-003-P)
                                                           issuance.

                                                           (Audit Report No. 9-596-05-003-P)

                                                                                October 1, 2004 — March 31, 2005
34
                            Semiannual Report to the Congress
 Audit of USAID/Peru’s Global                             made decisions related to regionalization of support
                                                          functions based on the following factors:
 Development Alliances
                                                           • Program size and complexity.
 The OIG performed this audit to determine
 whether USAID/Peru (1) considered utilizing Global        • Volume and complexity of transactions.
 Development Alliances in planning its activities,
 (2) reported its Global Development Alliances             • Experience and quality of foreign service
 accurately and completely, and (3) achieved intended        national staff.
 results for selected Global Development Alliances.
                                                           • Physical security of mission location.
 The OIG determined that USAID/Peru considered
 utilizing Global Development Alliances in planning        • Operating expense support costs.
 its activities and reported its Global Development
 Alliances accurately and completely. The OIG was          • Budget/cost savings.
 unable to determine whether two of USAID/Peru’s
 three Global Development Alliances achieved               • Quality-of-life indicators.
 their intended results because the Mission did not
 establish what the Alliance’s intended results were.     The LAC Bureau did, however, consider competitive
 For the third Alliance, the OIG determined that it       sourcing in regionalizing its support functions in
 did not achieve its intended results.                    accordance with USAID policies and U.S. laws and
                                                          regulations.
 The OIG recommended that for its Global
 Development Alliances, USAID/Peru (1) develop            The OIG made seven recommendations that
 targeted performance indicators and (2) revise           included planning, communications, analysis and
 the planned levels of intermediate annual targeted       monitoring issues.
 results.
                                                          The LAC Bureau provided management decisions
 USAID/Peru provided management decisions for             for all recommendations.
 both recommendations.
                                                          (Audit Report No. 1-598-05-001-P)
 (Audit Report No. 1-527-05-005-P)
                                                          Investigation Results in
 Audit of Regionalization Efforts                         Resignation
 in Latin America and the                                 Pursuant to an OIG fraud awareness presentation,
 Caribbean                                                information was received regarding a USAID
                                                          employee in Central America. It was alleged that
 The OIG conducted this audit to determine (1) what       the employee was misusing her ofﬁcial position to
 plans the Bureau for Latin America and the Caribbean     secure personal favors from subordinate staff. Such
 (LAC) had for regionalization of support functions,      favors included routinely requesting and receiving
 (2) how the LAC Bureau made decisions related to         “gifts” in the form of purchased meals and cash loans
 regionalization of support functions, and (3) whether    that were not repaid. Based on this information,
 the LAC Bureau considered competitive sourcing in        the OIG initiated an investigation.
 regionalizing its support functions in accordance with
 USAID policies and U.S. laws and regulations.            The investigation substantiated the allegations and
                                                          revealed that the employee cumulatively borrowed
 The LAC Bureau did not have a formal plan for            over $1,000 from other employees. The subject
 regionalization of support functions and, in fact,

October 1, 2004 — March 31, 2005
                                                                                       35
                            Semiannual Report to the Congress
employee had another employee obtain a credit card
in that employee’s name for the subject employee’s
use. The subject employee also admitted that on
multiple occasions she instructed her subordinates
to use ofﬁcial vehicles to transport her relatives and
to use their private vehicles to transport her relatives
while the employees were still on duty. After she
was confronted with the evidence uncovered by
the investigation, the subject employee resigned her
position with the USAID Mission.

Investigation Causes Employee
to Resign
The OIG initiated an employee integrity investigation
after an allegation was received that a USAID
employee took a government laptop computer
without authorization and then submitted an
insurance claim seeking reimbursement for the
value of the computer after it was damaged in a
ﬂood in the employee’s home.

The investigation substantiated the allegations and
determined that the insurance company had paid
the employee $500 for the damaged computer. In
addition, the investigation revealed that the subject
had prior criminal convictions. Confronted with
this evidence, the employee resigned.




                                                           October 1, 2004 — March 31, 2005
36
                            Semiannual Report to the Congress
                                                       ﬁnancial audits were performed for foreign and
 Bureau for Management                                 U.S. recipients in accordance with USAID policies
                                                       and the Ofﬁce of Management and Budget (OMB)
 Audit of USAID’s                                      Circular A-133 requirements.
 Implementation of OMB’s                               The OIG found that M/AA did not ensure that
 Program Assessment and Rating                         ﬁnancial audits were performed for foreign and U.S.
 Tool                                                  recipients in accordance with USAID policies and
                                                       OMB Circular A-133 requirements. M/AA did not
 The OIG conducted this audit to determine whether     maintain an inventory of required audits for foreign
 (1) USAID was implementing the Program Assessment     recipients and, as a result, was unable to ensure that
 and Rating Tool (PART) in accordance with the Ofﬁce   ﬁnancial audits were conducted. M/AA maintained
 of Management and Budget (OMB) guidance and (2)       an inventory of required audits for U.S. recipients
 USAID’s assessments were supported with adequate      in the Audit Tracking System; however, there were
 and sufﬁcient evidence.                               four audit reports that should have been received
                                                       but were not. The information in the system was
 The audit concluded that USAID prepared the           not accurate and was not updated to ensure that
 PART in accordance with OMB’s guidance; however,      ﬁnancial audits were conducted.
 the staff lacked adequate training, USAID-speciﬁc
 guidance for the implementation of the PART was       The OIG provided six recommendations that
 not available, and USAID did not maintain readily     included developing procedures and processes to
 available documentation to support its answers to     ensure that required ﬁnancial audits are conducted.
 the PART questionnaire.
                                                       Management decisions were reached on all
 The OIG made three recommendations to                 recommendations.
 strengthen USAID’s preparation of the PART
 questionnaire through training, the promulgation      (Audit Report No. 1-598-05-002-P)
 of agency-speciﬁc guidance, and the maintenance of
 documentation supporting its answers to the PART      Audit of Field Support
 questionnaire.                                        Mechanisms in the Global Health
 Management decisions were reached on all              Bureau
 recommendations.
                                                       USAID missions can access centrally awarded
 (Audit Report No. 9-000-05-004-P)                     contracts, cooperative agreements, and grants
                                                       through several mechanisms. The most commonly
 Audit of USAID’s Bureau                               used mechanism is “ﬁeld support,” through which
                                                       missions buy in to agreements that are centrally
 for Management, Ofﬁce of                              managed by USAID’s pillar bureaus. Under this
 Acquisition and Assistance’s                          procurement process, missions initially identify their
 Administration of Audits                              annual requirements and submit their requests for
                                                       needed services or commodities via USAID’s Field
 Required Under Awards to                              Support Database System.
 Foreign and U.S. Recipients
                                                       The OIG conducted this audit to determine whether
 The OIG performed this audit to determine             USAID can improve its ability to commit and
 if USAID’s Bureau for Management, Ofﬁce of            obligate funds under its ﬁeld support agreements.
 Acquisition and Assistance (M/AA) ensured that        The audit concluded that improvements could be

October 1, 2004 — March 31, 2005
                                                                                                                                37
                            Semiannual Report to the Congress
made to signiﬁcantly streamline the process for           Interim Report on Phoenix
committing and obligating funds relating to ﬁeld
support agreements.
                                                          Overseas Deployment Pilot
                                                          Observations at Egypt
The OIG recommended that USAID (1) coordinate
the review, selection, and funding of an information      The OIG conducted a ﬁeld visit of USAID’s
systems solution to facilitate the commitment of          deployment of the Phoenix Financial Management
and reporting on ﬁeld support funds, (2) designate        System at Cairo, Egypt and identiﬁed the following
the owner of the selected information systems             concerns:
solution, and (3) complete the planning, design,
and implementation of the selection information           1. USAID is relying on old hardware that may be
systems solution.                                            unreliable in providing interconnectivity between
                                                             USAID/Washington and overseas missions.
Management decisions have been reached on all
recommendations.                                          2. The pilot process may not provide a stable
                                                             model for the full global deployment.
(Audit Report No. 9-000-05-001-P)
                                                          3. The global migration deployment time line may
                                                             be too aggressive to achieve a successful result.
Audit of USAID’s Human Capital
Strategy                                                  The OIG concluded that the most signiﬁcant
                                                          challenge for the Phoenix overseas deployment is
The President’s Management Agenda (PMA)                   the aging telecommunications infrastructure. As a
identiﬁes the Strategic Management of Human               result, the OIG initiated a follow-up audit of USAID’s
Capital as its ﬁrst of ﬁve government-wide initiatives.   Information Technology (IT) Infrastructure to
Throughout the 1990s, USAID—like many agencies            determine if USAID has a capable IT infrastructure
government-wide—dramatically reduced the size of          that supplies reliable interconnectivity between
its direct hires. In response to the PMA’s initiative     USAID/Washington and overseas missions to
on human capital and to address the Agency’s many         effectively support Phoenix.8
human capital challenges, USAID developed a Human
Capital Strategic Plan.                                   Although the OIG made no recommendations in
                                                          the interim report, the Bureau of Management’s
As part of the Annual Plan for ﬁscal year 2004            Ofﬁce of Information Resources Management was
for monitoring improvements in the way USAID              requested to respond to the OIG’s concerns.
manages its human capital, the OIG conducted
this audit to determine if USAID’s Human Capital          The OIG will continue to monitor the progress
Strategy incorporates select best practices. Those        of the global deployment to ensure a successful
best practices were deﬁned as the six human               deployment of the ﬁnancial management system to
capital standards for success in the Human Capital        the mission ﬁeld locations.
Assessment and Accountability Framework,
developed by the Ofﬁce of Personnel Management,           (Report No. A-000-05-001-S)
the Ofﬁce of Management and Budget, and the
Government Accountability Ofﬁce. The OIG found
that USAID’s Human Capital Strategic Plan does
incorporate those select best practices.

The audit report contained no recommendations.
                                                          8
                                                            “Audit of USAID’s Information Technology Infrastructure,” February 22,
(Audit Report No. 9-000-05-003-P)                         2005 (Audit Report No. A-000-05-006-P).

                                                                                       October 1, 2004 — March 31, 2005
38
                             Semiannual Report to the Congress
 Audit of Management Activities                            The audit concluded that USAID has a capable
                                                           information technology infrastructure between
 of USAID/Nicaragua’s Cognizant                            USAID/Washington and most of USAID’s overseas
 Technical Ofﬁcers                                         missions in Latin America and the Caribbean, and
                                                           Europe and Eurasia. However, interconnectivity
 The OIG performed this audit to determine if              performance falls short at USAID’s missions in
 USAID/Nicaragua’s Cognizant Technical Ofﬁcers             Asia and the Near East, and especially in African
 (CTOs) were managing implementation activities in         regions where telecommunications infrastructure
 accordance with USAID policies.                           is inherently limited.      Additionally, USAID’s
                                                           aging information technology infrastructure is a
 The OIG found that USAID/Nicaragua’s CTOs were
                                                           contributing factor to slow network and software
 managing implementation activities in accordance
                                                           application performance.
 with USAID policies for 11 of 15 selected activities.
 USAID/Nicaragua’s        CTOs      should    improve      The OIG provided nine recommendations. Further,
 management of four activities which included              the OIG suggested that these improvements should
 reviewing indirect cost rates annually, conducting        be made prior to deploying the Phoenix system to
 regular site visits, preparing variance analyses, and     the missions worldwide.
 evaluating recipients’ program effectiveness at the
 end of the project.                                       Management decisions have been reached for
                                                           six recommendations and ﬁnal action has been
 The OIG recommended that USAID/Nicaragua                  completed on the remaining three recommendations
 (1) provide training to CTOs to better understand         upon issuance of the ﬁnal audit report.
 the process of reviewing provisional and ﬁnal/
 actual indirect cost rates, (2) establish a site visit    (Audit Report No. A-000-05-006-P)
 plan for each award, (3) provide training to CTOs
 on performing variance analyses of performance
 and ﬁnancial results, and (4) establish a procedure
 to ensure that CTOs prepare ﬁnal evaluations of
 recipients’ program effectiveness at the end of the
 program for grants and cooperative agreements.

 USAID/Nicaragua provided management decisions
 for all recommendations.

 (Audit Report No. 1-524-05-004-P)

 Audit of USAID’s Information
 Technology Infrastructure
 The OIG conducted this audit to determine whether
 USAID has a capable information technology
 infrastructure that supplies reliable interconnectivity
 between USAID/Washington and its overseas
 missions. Reliable interconnectivity is necessary to
 support USAID’s Phoenix ﬁnancial system, which
 it plans to deploy to selected overseas missions
 worldwide in 2005 and 2006.


October 1, 2004 — March 31, 2005
40
                             Semiannual Report to the Congress

       African Development Foundation
  In November 1999, the President signed Public Law        These assessments were used to determine where
  106-113, which amended the Inspector General             selected ADF operations could be vulnerable and
  Act of 1978 by assigning audit and investigative         to assist in developing future audit plans.
  responsibilities for the African Development
  Foundation (ADF) to the USAID/OIG. ADF is a
  U.S. Government corporation.
                                                           Management
  ADF began ﬁeld operations in 1984 and provides
  grants directly to community groups in Africa.           Challenges
  Based in Washington, D.C., and governed by a
  seven-member Board of Directors appointed by             In pursuit of its mission, ADF faces a number of
  the President of the United States, ADF receives         problems, concerns, and difﬁcult issues.
  its funding from congressional appropriations and
  obtains supplemental funding from public and             Performance Monitoring
  private sources. Currently, ADF is supporting
  approximately 186 projects and grants in 15 African      ADF faces a challenge with its indigenous partner
  countries. With an appropriation of $20 million in       organizations that provide technical support and
  ﬁscal year 2005, ADF provides development grants         training to ADF grantees, visit projects regularly
  directly to local organizations in Africa.               to monitor progress, and assist with on-the-
                                                           ground trouble-shooting. ADF’s goal is to help
                                                           these partners become ﬁnancially sustainable and
                                                           widely recognized as development experts in their
                                                           respective countries.
  OIG Strategy
                                                           ADF has strengthened its performance-
  The OIG is implementing a comprehensive strategy,
                                                           monitoring system by (1) aligning grantee
  including ﬁnancial and performance audits, to
                                                           project performance indicators with ADF’s
  maintain effective oversight of ADF operations. An
                                                           strategic plan objectives, (2) instituting quarterly
  important aspect of the strategy lies in the OIG’s
                                                           monitoring and reporting on projects, and (3)
  annual audit of ADF’s ﬁnancial statements. To
                                                           conducting semiannual reviews of its country
  achieve the most timely and cost-effective audits,
                                                           project portfolios. These reviews are providing
  the OIG coordinates this audit work with non-
                                                           ADF with greater insight into the strengths
  Federal auditors and provides technical audit advice
                                                           and weaknesses of its project development and
  and liaison to ADF and its auditors on a continual
                                                           approval processes.
  basis. Also, the OIG advises the auditors and, where
  appropriate, ADF of any deﬁciencies found in the
  audits. The OIG presents audit recommendations           Implementing an Integrated
  to ADF through its annual ﬁnancial statement audit
  report.
                                                           Financial Management
                                                           System
  Performance audits also play a key role in maintaining
  ADF accountability. After initially identifying          ADF prepares a complete set of ﬁnancial statements,
  relevant management controls, the OIG performed          and a private accounting ﬁrm, with OIG oversight,
  risk assessments of selected ADF operations.             audits those statements. Even though ADF again

October 1, 2004 — March 31, 2005
                                                                                                            41
                            Semiannual Report to the Congress
received an unqualiﬁed opinion on its ﬁnancial             needed in the management of its budget and
statements for ﬁscal year 2004, the OIG identiﬁed          operations, and of providing effective control over
a number of signiﬁcant challenges. For instance,           its revenues, expenditures, funds, property, and
ADF performed signiﬁcant accounting functions in           other assets.
systems not connected to its general ledger even
though information from these separate systems             Management decisions have been reached on both
is used to compile elements of ADF’s ﬁnancial              recommendations.
statements. During ﬁscal year 2004, ADF entered
into an interagency agreement with the Department          (Audit Report No. 0-ADF-05-003-C)
of the Interior’s National Business Center for
accounting and general ledger services. ADF
believes that this agreement will be fully operational
in ﬁscal year 2005 and will result in the resolution
of all problems in this area.



OIG Oversight
Activities
Current Activities
Audit of African Development
Foundation’s Financial
Statements for the Fiscal Year
Ended September 30, 2004
An audit of the African Development Foundation’s
ﬁnancial statements for the ﬁscal year ended
September 30, 2004, was performed, under OIG
oversight, by a non-Federal audit ﬁrm. The audit
ﬁrm provided an unqualiﬁed opinion on the ﬁnancial
statements. In its report, the audit ﬁrm identiﬁed
one material weakness in ADF’s internal controls
and four ﬁndings of noncompliance. The internal
control issue relates to an inadequacy in the system
used by the Department of Interior, National
Business Center, to process ADF’s transactions.
The four instances of noncompliance relate to the
inadequacy of ADF’s ﬁnancial and accounting system.
The OIG recommended that ADF implement the
U.S. Standard General Ledger at the transaction
level and implement an accounting system capable of
providing full disclosure of the results of its ﬁnancial
operations and adequate ﬁnancial information

                                                                                October 1, 2004 — March 31, 2005
42
                              Semiannual Report to the Congress

                Inter-American Foundation
 In November 1999, the President signed Public Law          assessments were used to determine where
 106-113, which amended the Inspector General               selected operations could be vulnerable and to
 Act of 1978 by assigning audit and investigative           assist in developing future audit plans.
 responsibilities for the Inter-American Foundation
 (IAF) to the USAID/OIG. IAF is a U.S. Government
 corporation.
                                                            Management
 IAF was established in 1969 and provides grants
 directly to local organizations in Latin America and
                                                            Challenges
 the Caribbean. Based in Arlington, Virginia, IAF has       In pursuit of its mission, IAF faces a number of
 47 employees and is governed by a nine-member              programmatic challenges and difﬁcult issues.
 Board of Directors appointed by the President
 of the United States. IAF’s operating budget and
 program budget consist of congressional appropria-         Performance Monitoring
 tions and funds derived through the Social Progress        and Results Documentation
 Trust Fund. Currently, IAF supports 200 projects in
 23 countries. With an appropriation of $18 million         IAF has formed 20 partnerships with 110 corporate
 in ﬁscal year 2005, it provides development grants         foundations and businesses throughout Latin
 directly to local organizations in Latin America and       America to co-fund development projects. IAF
 the Caribbean.                                             is using this network to transfer its project
                                                            methodology and approach to these foundations
                                                            and businesses to foster sustainability. These
                                                            partnerships, however, presented IAF with a
 OIG Strategy                                               challenge—how to monitor grants made through
 The OIG is implementing a comprehensive strategy           the partnerships. To address this challenge, IAF
 to maintain effective oversight of IAF operations          developed a system for auditing its partnerships and
 that includes ﬁnancial and performance audits. The         introduced this new system to its ﬁeld auditors. In
 ﬁrst key aspect of the strategy lies in the OIG’s          addition, IAF is developing performance indicators
 annual audit of IAF’s ﬁnancial statements. The OIG         and evaluation measures that will be incorporated
 contracts with non-Federal auditors, coordinates           into a Grassroots Development Framework for
 the work to achieve the most timely and cost-              data-gathering and analysis.
 effective audit, and provides technical audit advice
                                                            IAF is also focusing greater attention on developing
 and liaison to IAF and its auditors on a continual
                                                            performance indicators to measure progress in
 basis. Also, the OIG advises the auditor and, where
                                                            attaining “intangible” program results, such as
 appropriate, IAF of any deﬁciencies found in the
                                                            democracy-building and other societal changes.
 audits. The OIG presents audit recommendations
                                                            IAF has awarded a contract that will examine the
 to IAF through its annual ﬁnancial statement audit
                                                            suitability and effectiveness of these performance
 report.
                                                            indicators.
 Performance audits also play a key role in maintaining
                                                            In addition, IAF is working with migrant groups in
 IAF accountability. After initially identifying relevant
                                                            the U.S. to assist them in channeling some of the $40
 management controls, the OIG performed risk
                                                            billion in annual remittances, currently sent home
 assessments of selected IAF operations. These
                                                            to Latin America, into development activities.
October 1, 2004 — March 31, 2005
                                                                                    43
                          Semiannual Report to the Congress

Administrative and
Organizational Structure
IAF has implemented several major management
initiatives, including outsourcing of several
administrative functions and changing its
organizational structure. These initiatives have
resulted in timelier ﬁnancial reporting, swifter
procurements, and enhanced budget management.



OIG Oversight
Activities
Current Activities
Audit of the Inter-American
Foundation’s Financial
Statements for the Fiscal Year
Ended September 30, 2004
An audit of the Inter-American Foundation’s ﬁnancial
statements for the ﬁscal year ended September
30, 2004 was performed under OIG oversight, by
a non-Federal audit ﬁrm. The audit ﬁrm provided
an unqualiﬁed opinion on the ﬁnancial statements.
Moreover, the report did not contain ﬁndings or
recommendations for IAF management relative to
noncompliance or material weaknesses in internal
control.

(Audit Report No. 0-IAF-05-002-C)




                                                        October 1, 2004 — March 31, 2005
    45




A
P
P
E
N
D
I
C
E
S
46
                                     Semiannual Report to the Congress
                                                  REPORTS ISSUED
                                          October 1, 2004 through March 31, 2005
                                                                  USAID
                                                       Financial Audit Reports
                                                                                                                          Amount of
        Report         Date of                                                                                                         Type of
                                                                      Report Title                                         Findings
        Number         Report                                                                                                         Findings
                                                                                                                            ($000s)

                                                      —PROGRAMS AND OPERATIONS—

     0-000-05-001-C    11/15/04   Independent Auditor’s Report on USAID’s Financial Statements for Fiscal Years
                                  2004 and 2003
     0-000-05-001-F    11/17/04   Audit of USAID’s Fiscal Year 2004 Payroll Reconciliations

                                                   —FOREIGN-BASED ORGANIZATIONS—

     0-000-05-002-D    10/05/04   Triple Trust Organization, Report on Pre-Award Survey of Prospective Contractor
                                  Accounting System for Non-Proﬁt Organization
     0-000-05-051-D    02/07/05   African Agricultural Technology Foundation, Report on Audit of Pre-Award
                                  Accounting System Survey
     0-000-05-062-D    02/07/05   Inter-American Institute of Human Rights, Report on Audit of Post Award
                                  Accounting System
     5-492-05-001-D    10/14/04   Financial Audit of the Program Titled “Private Sector Family and Reproductive             186         QC
                                  Health System,” USAID/Philippines Cooperative Agreement No. 492-A-00-01-
                                  00020-00, Managed by FriendlyCare Foundation, Inc., for the Period from January            27         UN
                                  1, 2002 to December 31, 2002
     5-492-05-002-D    10/19/04   Report on the Audit of the Electronic Accounting System of FriendlyCare
                                  Foundation, Inc. as of April 19, 2004, USAID/Philippines Cooperative Agreement
                                  No. 492-A-00-01-00020-00
     5-492-05-003-D    10/20/04   Financial Audit of the Coastal Communities Empowerment Project, Destructive               937         QC
                                  Fishing Reform Project and Coral Reef Conservation Initiative, USAID/Philippines
                                  Cooperative Agreement No. 492-A-00-97-00060-00, Managed by the International              937         UN
                                  Marinelife Alliance -- Philippines, Inc., for the Period from January 1, 2001 to June
                                  30, 2002
     5-492-05-004-D    02/09/05   Close-out Audit of the Program Titled “Private Sector Family and Reproductive
                                  Health System,” USAID/Philippines Cooperative Agreement No. 492-A-00-99-
                                  00015-00, Managed by FriendlyCare Foundation, Inc., for the Period from July 15,
                                  1999 to October 15, 2001
     7-675-05-001-D    12/15/04   Audit of USAID Resources Provided to PRIDE/Finance for the Years Ended
                                  December 31, 2000, 2001, and 2002
     E-267-05-004-D    02/10/05   Audit of Costs Incurred Under Subcontracts 24910-TSC-003 and 24910-GSC-005                 13         QC
                                  from May 1, 2003 through September 30, 2004
     1-519-05-001-N    10/12/04   Quarterly Financial Audit of USAID Resources, Managed by the National Popular
                                  Housing Fund, Under the Special Objective Grant Agreement No. 519-0458,
                                  “Earthquake Recovery Program” Housing Activity, for the Quarter Ended June 30,
                                  2004
     1-519-05-002-N    12/03/04   Fund Accountability Statement Audit of the Earthquake Recovery Program,                    4          QC
                                  Small and Micro Business Activity, Technical Assistance Fund Sub-Activity, Grant
                                  Agreement No. 519-0458, Managed by the National Commission for the Micro and
                                  Small Enterprise, for the Year Ended December 31, 2003
     1-519-05-003-N    12/03/04   Quarterly Financial Statement Audit of the Special Objective Grant Agreement,
                                  Earthquake Recovery Program, Schools, Micro and Small Business (Local
                                  Municipal Markets) and Health Facilities Reconstruction Activities, Activity No.
                                  519-0458, Managed by the Social Investment Fund for Local Development, for the
                                  Quarter Ended June 30, 2004




  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

October 1, 2004 — March 31, 2005                                                                                                      Appendix A
                                                                                                                                              47
                                  Semiannual Report to the Congress
                                                                                                                    Amount of
      Report        Date of                                                                                                         Type of
                                                                  Report Title                                       Findings
      Number        Report                                                                                                         Findings
                                                                                                                      ($000s)
   1-504-05-004-N   12/21/04   Close-out Audit of the Fund Accountability Statement of the USAID Resources              316           QC
                               for the Guyana Justice Improvement Project, Grant Agreement No. 504-0109,
                               Managed by the University of West Indies, Cave Hill, and the University of              91             UN
                               Guyana, for the Period from June 1, 1996 to March 31, 2000
   1-519-05-005-N   01/11/05   Concurrent Financial Statement Audit of the Mother and Child Community Health           14             QC
                               Services Project in Santiago de Maria, El Salvador, Grant Agreement No. 519-A-
                               01-00213-00, Project No. 519-0458, Managed by AmeriCares Foundation Inc., for           14             UN
                               the Quarter Ended March 31, 2004
   1-519-05-006-N   01/12/05   Concurrent Financial Statement Audit of the Mother and Child Community Health           12             QC
                               Services Project in Santiago de Maria, El Salvador, Grant Agreement No. 519-A-
                               00-01-00213-00, Project No. 519-0458, Managed by Americares Foundation, Inc.,           12             UN
                               for the Quarter Ended June 30, 2004
   1-519-05-007-N   01/31/05   Quarterly Financial Audit of the Special Objective “Earthquake Recovery Program”
                               Housing Activity, Agreement No. 519-0458, Managed by the National Popular
                               Housing Fund, for the Quarter Ended September 30, 2004
   1-519-05-008-N   02/14/05   Quarterly Financial Statement Audit of the Special Objective Grant Agreement,          157             QC
                               Earthquake Recovery Program (EREP), Schools, Micro and Small Business (Local
                               Municipal Markets) and Health Facilities Reconstruction Activities, Activity No.
                               519-0458, Managed by the Social Investment Fund for Local Development, for the
                               Quarter Ended September 30, 2004
   4-615-05-001-N   10/06/04   Audit of USAID-Funded Community REACH Project and Closeout Audit of IMPACT              95             QC
                               Project Implemented by ICROSS Kenya Under USAID Sub Award Nos. 02-A-1-
                               Kenya-01/0 of 21 (REACH) and FCO 34285 (IMPACT) for the Period November                 56             UN
                               15, 2000 to December 31, 2003
   4-615-05-002-N   11/10/04   Close Out Audit of the Cooperative Bank of Kenya Limited, Grant No. 623-G-00-           40             QC
                               98-00060-00 for the Period October 1, 1999 to March 31, 2004
                                                                                                                        28            UN
   4-623-05-003-N   11/17/04   Audit of USAID Resources Managed by the Commercial Bank of Eritrea and the             3,881           QC
                               Rural Enterprise Unit, USAID Project No. 661-0009 for the Period September 30,
                               1997 to December 31, 2003
   4-656-05-004-N   02/16/05   Closeout Audit of USAID/Mozambique’s Resources Managed by Impacto                      216             QC
                               Projectos e Estudos Ambientais, Lda Under the Rural Access Project, Roads
                               Rehabilitation and Maintenance and Emergency Roads: Building and Support                54             UN
                               Effort - Environmental Analysis, Mitigation and Monitoring, Contract No. 656-C-00-
                               98-00066-00 for the Period November 9, 1998 to September 30, 2002
   4-674-05-006-N   03/24/05   Agency-Contracted Audit of USAID/South Africa’s Resources Managed by Amy               4,857           QC
                               Biehl Foundation Trust Under Grant Agreement No. 674-G-00-01-00021-00 and
                               the Closeout Audit of Cooperative Agreement No. 674-0320-A-00-7082-00 for the          3,683           UN
                               Period November 10, 1998 to March 31, 2004
   4-663-05-007-N   03/31/05   Agreed-Upon-Procedures Review of USAID Resources Managed by Africare                   765             QC
                               Ethiopia Under Agreement Nos. FFP-A-00-99-00077-00 (closeout), 663-G-00-01-
                               00356-00 (closeout) and FAO-A-00-00-00031-00 for the Period April 13, 1999 to          299             UN
                               September 30, 2003
   5-383-05-001-N   10/05/04   Financial Audit of the Rural Schools Expansion Project, USAID/Sri Lanka Contract        23             QC
                               No. 386-C-00-02-00194-00, Implemented by Young Entrepreneurs Sri Lanka, for
                               the Period from September 23, 2002 to September 30, 2003                                5              UN
   5-497-05-003-N   12/28/04   Financial Audit of USAID/Indonesia’s Rupiah Trust Fund for the Years Ended
                               September 30, 2002 and 2003
   5-492-05-004-N   01/14/05   Financial Audit of USAID/Philippines’ Peso Trust Fund for Operating Expenses, for
                               the Period from January 1, 2003 to December 31, 2003
   5-367-05-005-N   02/18/05   Close-out Audit of the Program in Agribusiness Development, USAID/Nepal Grant           76             QC
                               Agreement No. 367-G-00-97-00117-00, Managed by Agro Enterprises Center/
                               Federation of Nepalese Chamber of Commerce and Industry, for the Period from            69             UN
                               July 17, 1998 to September 30, 2002
   6-294-05-001-N   10/11/04   Audit of the Fund Accountability Statement of USAID Resources Managed by Afaq           4              QC
                               Ceneral Contracting Group, Ltd. Under C ontract Number 294-C-00-02-00216-00
                               “Emergency Water Pipeline -- Jalameh” for the Period from December 1, 2002 to
                               March 31, 2003




                                                                                                                    BU--Better Use of Funds
                                                                                                                    QC--Questioned Costs
                                                                                                                    UN--Unsupported Costs
                                                                                                                    Note: UN is part of QC

Appendix A                                                                                               October 1, 2004 — March 31, 2005
48
                                     Semiannual Report to the Congress
                                                                                                                       Amount of
        Report         Date of                                                                                                      Type of
                                                                    Report Title                                        Findings
        Number         Report                                                                                                      Findings
                                                                                                                         ($000s)
     6-294-05-005-N    11/29/04   Audit of Fund Accountability Statement of USAID Resources Provided by                    206       QC
                                  Chemonics International - TAMKEEN, Save the Children Federation, and
                                  Associates in Rural Development and Managed by El Hanan Benevolent                     206         UN
                                  Association for Mother & Child Under Sub-grant Numbers 01-21, 01-44, 02-141,
                                  SC/CPSP 007, and 002GS02 for the Period from June 15, 2001 to June 30, 2003
     6-294-05-015-N    02/17/05   Audit of USAID Resources Managed by Al Quds University Center, for
                                  Development in Primary Health Care, Under Sub-grants Provided by Care
                                  International; Chemonics International - Tamkeen; and Save the Children for the
                                  Periods from May 31, 2002 to August 31, 2003, July 15, 2001 to December 31,
                                  2003, and February 1, 2002 to August 31, 2003, respectively
     6-263-05-019-N    03/09/05   Audit of Inﬂows and Releases of Funds from the Government of Egypt’s Local
                                  Currency Special Accounts, Under USAID/Egypt’s Sector Policy Reform Programs
                                  and Private Sector Commodity Import Programs, for the Period from July 1, 2000
                                  to June 30, 2001
     1-596-05-001-R    10/07/04   Audit of the Fund Accountability Statement for USAID/G-CAP, Project Accord
                                  on the Rights and Identity of Indigenous People Human Capacity Development,
                                  Project No. 520-A-00-98-00013-00, Managed by the Rafael Landivar University, for
                                  the Year Ended December 31, 2003
     1-538-05-002-R    10/26/04   Audit of the Fund Accountability Statement of USAID Resources, Grant Agreement          2          QC
                                  Numbers 538-004-001, 538-005-01, 538-006-01, and 538-008-01, Managed by
                                  the Caribbean Community Secretariat Under Regional Strategic Objectives, for the
                                  Year Ended December 31, 2003
     1-521-05-003-R    10/28/04   Audit of the Fund Accountability Statement for USAID/Haiti Program for the
                                  Rrecovery of the Economy in Transition, Project No. 521-A-00-99-00073-00,
                                  Managed by the Societe Financiere Haitienne de Developpement S.A., for the
                                  Year Ended September 30, 2003
     1-526-05-004-R    10/28/04   Financial Statement Audit of the Program Strengthening the Sustainable
                                  Management of the Chaco and Pantanal Ecoregions, Project No. 526-00-A-00-
                                  00125-00, Managed by the Fundacion para el Desarrollo Sustenable del Chaco,
                                  for the Year Ended December 31, 2003
     1-518-05-005-R    10/28/04   Financial Statement Audit of the Program Strengthening Democracy in Ecuador,
                                  Agreement No. 518-A-00-03-00054-00, Managed by the Participacion Ciudadana,
                                  for the Period of April 1 to December 31, 2003
     1-526-05-006-R    10/29/04   Financial Statement Audit of USAID/Paraguay Project “Fortalecimiento
                                  Institucional del CEPEP,” cooperative Agreement No. 526-A-00-999-00008-00,
                                  Managed by the Centro Paraguayo de Estudios de Poblacion (CEPEP), for the
                                  Year Ended December 31, 2003
     1-521-05-007-R    10/29/04   Financial Statement Audit of the Forum 2000 Project Under the Recovery of the           76         QC
                                  Economy in Transition Program, USAID/Haiti Project No. 521-A-00-99-00074-
                                  00, Managed by Centre Pour la Libre Enterprise et la Democratie, for the Period         76         UN
                                  October 1, 2002 to September 30, 2003
     1-522-05-008-R    11/12/04   Close-out Financial Statement Audit of the Municipal Development Program,
                                  Agreement No. 522-A-00-93-00324-00, Managed by Fundacion para el Desarrollo
                                  Municipal, for the Period January 1, 2003 to September 30, 2003
     1-527-05-009-R    11/12/04   Financial Statement Audit of Special Objective Grant Agreement No. 527-0348,            7          QC
                                  Managed by the National Commission for Development and Life Without Drugs,
                                  for the Year Ended December 31, 2002
     1-526-05-010-R    11/12/04   Financial Statement Audit of USAID/Paraguay Program Entitled “Programa de               23         QC
                                  Accion de Desarrollo Ambiental,” Cooperative Agreement No. 526-A-00-94-00008-
                                  00, Managed by the Alter Vida Association, for the Year Ended December 31, 2003         11         UN
     1-526-05-011-R    11/12/04   Financial Statement Audit of Programs No. 526-A-00-01-00074-00, Civil Society
                                  and No. 526-A-00-01-00100-00, Health Decentralization and Community
                                  Participation, Managed by the Fundacion Comunitaria Centro de Informacion y
                                  Recursos para el Desarrollo, for the Year Ended December 31, 2003
     1-527-05-012-R    11/15/04   Audit of the Fund Accountability Statement of the Implementation of Electriﬁcation      21         QC
                                  Projects, Grant Agreement No. 527-0348, Managed by the Ministry of Energy and
                                  Mines, for the Year Ended December 31, 2002
     1-522-05-013-R    11/22/04   Fund Accountability Statement Audit of USAID/Honduras Project No. 522-0394,
                                  Strengthened Rule of Law and Respect for Human Rights Program, Managed by
                                  the Public Ministry of Honduras, for the Year Ended December 31, 2003


  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

October 1, 2004 — March 31, 2005                                                                                                   Appendix A
                                                                                                                                              49
                                  Semiannual Report to the Congress
                                                                                                                    Amount of
      Report        Date of                                                                                                         Type of
                                                                 Report Title                                        Findings
      Number        Report                                                                                                         Findings
                                                                                                                      ($000s)
   1-518-05-014-R   11/29/04   Fund Accountability Statement Audit of USAID/Ecuador Program for Community                14           QC
                               Strengthening Initiatives in Northern Ecuador, Cooperative Agreement No. 518-A-
                               00-01-00010-00, Managed by the International Organization for Migration, for the
                               Year Ended December 31, 2003
   1-525-05-015-R   11/29/04   Audit of the Fund Accountability Statement of the Hydrographic Basin of the
                               Panama Canal Project, Under Grant Agreement No. 525-A-00-01-00016-00,
                               Managed by the Sociedad Nacional Para el Desarrollo de Empresas y Areas
                               Rurales, for the Year Ended December 31, 2003
   1-519-05-016-R   11/29/04   Fund Accountability Statement Audit of the USAID/ES Technical Assistance
                               Project, Cooperative Agreement No. 519-A-00-01-00149-00, Managed by the
                               Fundacion Salvadorena Para la Reconstruccion y el Desarrollo, for the Year
                               Ended December 31, 2003
   1-519-05-017-R   12/03/04   Fund Accountability Statement Audit of the Institutional Strengthening Project,
                               Cooperative Agreement No. 519-A-00-01-00219-00, Managed by the Municipal
                               Corporation of the Republic of El Salvador, for the Year Ended December 31, 2003
   1-527-05-018-R   12/08/04   Audit of the Fund Accountability Statement of the Andean Center of Excellence
                               for Teacher Training Program, No. EDG-A-00-02-00036-00, Managed by the
                               Universidad Peruana Cayetano Heredia, for the Period October 1, 2002 to
                               December 31, 2003
   1-527-05-019-R   12/15/04   Audit of the Financial Statements of Movimiento Manuela Ramos, Managing the
                               Following Projects: Salud Reproductiva en la Comunidad, Cooperative Agreement
                               No. 527-A-00-95-00372-04, Mercomujer, Cooperative Agreement No. GEG-A-00-
                               01-00002-00, Coalicion para la Reforma del Congreso, Cooperative Agreement
                               No. 527-A-00-02-00167-00, for the Year Ended December 31, 2003
   1-527-05-020-R   12/15/04   Close-Out Audit of the Fund Accountability Statement for the National Rural
                               Transportation Infrastructure Program, Implementation Framework Sub-Agreement
                               for the Alternative Development Program, Under Grant Agreement No. 527-0348,
                               Managed by the National Commission for Development and Life Without Drugs,
                               for the Period January 1, 2003 to June 30, 2004
   1-538-05-021-R   12/23/04   Audit of the Fund Accountability Statement of the Caribbean Centre of Excellence       105             QC
                               for Teacher Training Project, Under Cooperative Agreement #EDG-A-00-02-
                               00038-00, Managed by the University of the West Indies/Joint Board of Teacher           92             UN
                               Education, for the Period of September 26, 2002 to July 31, 2004
   1-527-05-022-R   12/28/04   Close-Out Audit of the Fund Accountability Statement of the Alternative                 34             QC
                               Development Program, Sub-Agreement No. 527-0348, Managed by the National
                               Commission for the Development and Life Without Drugs--DEVIDA and the                   11             UN
                               Regional Government of Ucayali--GOREU, for the Period of August 1, 2002 to
                               June 30, 2003
   1-527-05-023-R   12/30/04   Financial Statement Audit of the Asociacion Beneﬁca Prisma for Varying Periods         2,171           QC
                               Between October 1, 2001 to December 31, 2002 (for the Seven Component
                               Activities) and the Commodity Status Report for the Year Ended September 30,           148             UN
                               2002
   1-522-05-024-R   12/30/04   Audit of the Fund Accountability Statement for the Basic Education and Skills
                               Training Project, Component I of Grant Agreement No. 522-0388, Managed by the
                               Secretary of Public Education, for the Year Ended December 31, 2003
   1-532-05-025-R   01/04/05   Audit of the Fund Accountability Statement for the New Horizons for Primary
                               Schools Project No. 532-0004-01, Managed by the Ministry of Education, Youth,
                               and Culture, for the Period April 1, 2001 to March 31, 2003
   1-517-05-026-R   01/06/05   Audit of the Fund Accountability Statement for Three Projects, Cooperative
                               Agreement No. 517-A-00-03-00114-00 and Donation Agreement Nos. 517-
                               G-00-02-00101-00 and 517-G-00-03-00127-00, Managed by the Fundacion
                               Institucionalidad y Justicia, Inc., for Different Starting Periods Ending December
                               31, 2003
   1-532-05-027-R   01/06/05   Audit of the Fund Accountability Statement of the Uplifting Adolescents Project 2,      21             QC
                               Cooperative Agreement No. 532-A-00-01-00002-00, Managed by People’s Action
                               for Community Transformation, for the Year Ended June 30, 2002                          8              UN
   1-532-05-028-R   01/10/05   Audit of the Fund Accountability Statement of the Uplifting Adolescents Project 2,      43             QC
                               Cooperative Agreement No. 532-A-00-01-00002-00, Managed by People’s Action
                               for Community Transformation, for the Year Ended June 30, 2003                          28             UN




                                                                                                                    BU--Better Use of Funds
                                                                                                                    QC--Questioned Costs
                                                                                                                    UN--Unsupported Costs
                                                                                                                    Note: UN is part of QC

Appendix A                                                                                               October 1, 2004 — March 31, 2005
50
                                     Semiannual Report to the Congress
                                                                                                                      Amount of
        Report         Date of                                                                                                     Type of
                                                                    Report Title                                       Findings
        Number         Report                                                                                                     Findings
                                                                                                                        ($000s)
     1-538-05-029-R    01/13/05   Audit of the Fund Accountability Statement of the Small and Medium Sized                 34       QC
                                  Enterprises Development, Project No. 538-004-01, Managed by the Organization
                                  of Eastern Caribbean States, for the Period from October 1, 2001 to June 30, 2003      11         UN
     1-532-05-030-R    01/18/05   Fund Accountability Statement Audit of the Micro Finance Loan Project, No. 532-A-
                                  00-01-0069-00, Managed by the Jamaican National Building Society, for the Year
                                  Ended March 31, 2004
     1-532-05-031-R    01/26/05   Audit of the Fund Accountability Statement for the New Horizons for Primary            1          QC
                                  Schools Project, Agreement No. 532-0004-01, Managed by the Ministry of
                                  Education, Youth, and Culture, for the Period April 1, 2003 to March 31, 2004
     1-527-05-032-R    01/26/05   Audit of the Fund Accountability Statement for the Participacion y Vigilancia de
                                  la Sociedad Civil en la Reforma Desempeno del Sistema de Administracion de
                                  Justicia Program, Agreement No. 527-A-00-02-00221, Managed by the Instituto de
                                  Defensa Legal, for the Year Ending December 31, 2003
     1-522-05-033-R    02/02/05   Audit of the Fund Accountability Statements of the Municipal Development Project,
                                  Child Survival Program No. 522-0340 and the Housing Guaranty Loan Project, No.
                                  596-HG-006, Managed by the Honduran Social Investment Fund/Directorate of
                                  Major Infrastructure, for the Year Ended December 31, 2003
     1-520-05-034-R    02/10/05   Financial Statement Audit of the Program “Better Health for Rural Women
                                  and Children,” G-CAP Agreement No. 520-98-A-00-00037-00, Managed by
                                  the Asociacion Pro-Bienestar de la Familia de Guatemala, for the Year Ended
                                  December 31, 2003
     1-511-05-035-R    02/10/05   Financial Statement Audit of the Project “Communication Strategy to Support
                                  USAID Health Partners in the Public and Private Sectors,” Cooperative Agreement
                                  No. 511-A-00-01-00067-00, Managed by the Centro Para Programas de
                                  Comunicacion Bolivia, for the Year Ended December 31, 2003
     1-519-05-036-R    02/14/05   Audit of the Fund Accountability Statement of the “Healthy Salvadorans Project,”
                                  Grant Agreement No. 519-0430, Managed by the Ministry of Public Health and
                                  Social Assistance through the Project Coordinator Unit, for the Year Ended
                                  December 31, 2003
     1-518-05-037-R    02/15/05   Revised Financial Statement Audit of Programa de Sostenibilidad Financiera y           15         QC
                                  Alianzas Estrategicas, Agreement No. 518-A-00-98-00-00187-00, Managed by
                                  Fundacion Grupo Esquel - Ecuador, for the Year Ending December 31, 2003
     1-511-05-038-R    02/15/05   Audit of the Financial Statements of the Project “Enhancing Sexual and
                                  Reproductive Health Clinical and Educational Services for Adults,” Donation
                                  Agreement No. 511-A-00-98-00158-00, Managed by Research Education and
                                  Services Center, for the Year Ending December 31, 2003
     1-522-05-039-R    02/17/05   Fund Accountability Statement Audit of the Basic Education and Skill Training
                                  Project, Cooperative Agreement No. 522-0388-A-00-5401-00/Endowment Fund,
                                  Managed by the Advisory Center for Human Resources Development of Honduras,
                                  for the Year Ended December 31, 2003
     1-522-05-040-R    02/22/05   Audit of the Fund Accountability Statement of the P.L. 480 Title II Program -
                                  Monetization Funds, Community Based Health Services Project, Food Security
                                  Extension Project, and Rural Employment and Development Project, Grant
                                  Agreement No. A-00-01-00002-00, Managed by CARE Honduras, for the 3-Year
                                  Period October 1, 2000 to September 30, 2003
     1-511-05-041-R    02/23/05   Close-out Audit of the Fund Accountability Statement of (1) Extension of               28         QC
                                  Reproductive Health Services and Products Project (Additional Activity of
                                  Tuberculosis in Santa Cruz), Agreement No. 511-G-00-95-00089-00 (511-0568 and          23         UN
                                  511-0644), (2) PROSALUD’s Institutional Consolidation, Agreement No. 511-A-00-
                                  01-00262-00, (3) Social Marketing, Agreement No. 511-A-00-02-00295-00, and (4)
                                  Partners in Health Project, Agreement No. 511-A-00-02-00261-00, Managed by
                                  Asociacion de Proteccion a la Salud (PROSALUD), for the Year Ended December
                                  31, 2003
     1-511-05-042-R    02/23/05   Financial Statement Audit of the Primary Attention in Integrated Health Program,       46         QC
                                  Cooperative Agreement No. 511-A-00-98-00156-00, Managed by the Integrated
                                  Health Coordination Program, for the Year Ended December 31, 2003                      18         UN


     1-522-05-043-R    02/24/05   Audit of the Fund Accountability Statement of Sustainable Improvements in Family
                                  Health Program, Cooperative Agreement No. 522-G-00-02-00-354-00, Managed
                                  by the Asociacion Hondurena de Planiﬁcacion de Familia, for the Period from
                                  October 1, 2002 to September 30, 2003

  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

October 1, 2004 — March 31, 2005                                                                                                  Appendix A
                                                                                                                                             51
                                  Semiannual Report to the Congress
                                                                                                                   Amount of
      Report        Date of                                                                                                        Type of
                                                                 Report Title                                       Findings
      Number        Report                                                                                                        Findings
                                                                                                                     ($000s)
   1-518-05-044-R   02/25/05   Fund Accountability Statement Audit of the Biodiversity Conservation in the              6            QC
                               Galapagos Marine Reserve Program, Cooperative Agreement No. 518-A-00-98-
                               00105-00, Managed by Fundacion Charles Darwin Para las Islas Galapagos, for
                               the Year Ended December 31, 2003
   1-517-05-045-R   03/16/05   Fund Accountability Statement Audit of the Program “Improving Living Conditions
                               in the Haitian-Dominican Border,” Grant Agreement No. 517-A-00-03-00118-00,
                               Managed by Fundacion Para el Desarrollo Comunitario, Inc., for the Period June
                               17, 2003 to June 30, 2004
   4-623-05-001-R   10/01/04   Audit of the Regional Centre for Quality of Health Care Under USAID Grant No.          25             QC
                               6230010.40 - 00002 for the Period July 1, 2001 through June 30, 2002
                                                                                                                      23             UN
   4-617-05-002-R   11/01/04   Audit of the Environmental Conservation Trust of Uganda Under USAID
                               Cooperative Agreement No. 617-A-00-01-00002-00 for the Year Ended December
                               31, 2003
   4-623-05-003-R   11/09/04   Audit of the Inter-Governmental Authority on Development Under USAID Award             11             QC
                               No. 623-0006 for the Period January 1, 2003 to December 31, 2003
   4-612-05-004-R   11/12/04   Audit of the Creative Centre for Community Mobilisation Under USAID Agreement         106             QC
                               No. 690-A-00-00-00012-00 for the Period February 1, 2001 to March 31, 2002
   4-674-05-005-R   12/15/04   Closeout Audit of the Centre for Higher Education Transformation Trust Under           41             QC
                               USAID Agreement No. 674-G-00-00-00003-00 for the Period January 1, 2002 to
                               April 30, 2003
   4-674-05-006-R   12/15/04   Audit of the Nelson Mandela Children’s Fund Under USAID Grant Agreement No.           267             QC
                               674-G-00-00-00071-00 for the Period April 1, 2002 to March 31, 2003
                                                                                                                     246             UN
   4-623-05-007-R   12/15/04   Audit of the Centre for African Family Studies Under USAID Cooperative                277             QC
                               Agreement No. 623-0005-A-00-4143-00 for the Period January 1, 2002 to
                               December 31, 2002                                                                     140             UN
   4-623-05-008-R   01/07/05   Audit of the Commonwealth Regional Health Community Under USAID Limited                2              QC
                               Scope Grant Agreement No. 6980483.23-80003 for the Period July 1, 2001 to
                               June 30, 2002                                                                          2              UN
   4-623-05-009-R   01/07/05   Audit of the Association for Strengthening Agricultural Research in Eastern and       198             QC
                               Central Africa Under USAID Cooperative Agreement No. 623-A-00-02-00095-00
                               for the Period January 1 to December 31, 2003                                         198             UN
   4-617-05-010-R   01/19/05   Audit of AIDS Information Centre Under USAID Agreement No. 623-0133-00-A-00-          348             QC
                               6007 for the Period July 1, 2001 to June 30, 2002
                                                                                                                     203             UN
   4-674-05-011-R   02/28/05   Audit of Hope Worldwide South Africa Under USAID Cooperative Agreement No.            139             QC
                               674-A-00-01-00042-00 for the Period January 1 to December 31, 2003
                                                                                                                      61             UN
   4-623-05-012-R   03/24/05   Audit of the Common Market for Eastern and Southern Africa Under USAID                 22             QC
                               Limited Scope Grant Agreement Nos. 6231001-80001 and 6231001-80002 for the
                               Period January 1, 2002 to December 31, 2002
   4-623-05-013-R   03/31/05   Audit of the Commonwealth Regional Health Community for East, Central and              10             QC
                               Southern Africa Under Limited Scope Grant Agreement No. 6980483.23-80003 for
                               the Period July 1, 2002 through June 30, 2003                                          3              UN
   5-367-05-001-R   10/06/04   Financial Audit of USAID Cooperative Agreement No. 367-A-00-02-00120-00,               39             QC
                               Managed by the Center for Victims of Torture, Nepal, for the Period from January
                               1, 2003 to December 31, 2003                                                           13             UN
   5-483-05-002-R   10/14/04   Financial Audit of the Development of Sustainable Aquaculture Project,                 30             QC
                               Cooperative Agreement No. 388-A-00-00-00068-00, Managed by the WorldFish
                               Center (also known as International Center for Living Aquatic Resources                19             UN
                               Management) for the Period from October 1, 2000 to December 31, 2002
   5-492-05-003-R   11/08/04   Financial Audit of the Project Titled “National Tri-Media Information Campaign on      2              QC
                               Tuberculosis,” USAID/Philippines Cooperative Agreement No. 492-A-00-02-00032,
                               Managed by the Reachout AIDS Education Foundation, Inc., for the Period from           2              UN
                               October 1, 2002 to February 28, 2004




                                                                                                                   BU--Better Use of Funds
                                                                                                                   QC--Questioned Costs
                                                                                                                   UN--Unsupported Costs
                                                                                                                   Note: UN is part of QC

Appendix A                                                                                              October 1, 2004 — March 31, 2005
52
                                     Semiannual Report to the Congress
                                                                                                                       Amount of
        Report         Date of                                                                                                      Type of
                                                                    Report Title                                        Findings
        Number         Report                                                                                                      Findings
                                                                                                                         ($000s)
     5-493-05-004-R    11/08/04   Financial Audit of the Asian Urban Disaster Mitigation Program Phase III (USAID           3        QC
                                  Cooperative Agreement No. 386-A-00-00-00068-00), OFDA 98 (USAID Grant No.
                                  AOT-G-00-98-00184-00), Subrecipient Grant - Climate Forecasting Applications in
                                  Bangladesh (USAID Grant No. AOT-A-00-00-00262-00), and Climate Forecasting
                                  Applications (USAID Grant No. DFD-A-000-03-00005-00), Managed by the Asian
                                  Disaster Preparedness Center, for the Period from January 1, 2003 to December
                                  31, 2003
     5-367-05-005-R    11/17/04   Financial Audit of the Project Titled “Certiﬁcation and Sustainable Marketing of        12         QC
                                  Non-Timber Forest Product, USAID/Nepal Cooperative Agreement No. 367-A-
                                  00-02-00209-00), Managed by the Asia Network for Sustainable Agriculture and
                                  Bioresources, for the Period from September 27, 2002 to December 31, 2003”
     5-367-05-006-R    12/01/04   Financial Audit of the Kathmandu Valley Earthquake Risk Management Action Plan          19         QC
                                  Implementation Project, USAID/Nepal Grant No. 367-G-00-00-00080-00, Managed
                                  by the National Society for Earthquake Technology-Nepal, for the Period from            18         UN
                                  October 1, 2002 to September 30, 2003
     5-367-05-007-R    12/15/04   Financial Audit of the Program for Enhancement of Emergency Response, USAID/            3          QC
                                  Nepal Cooperative Agreement No. 367-A-00-03-00075-00, Managed by the
                                  National Society for Earthquake Technology-Nepal, for the Period from March 27,         2          UN
                                  2003 to September 30, 2003
     5-492-05-008-R    12/17/04   Financial Audit of the Trade and Investment Policy Analysis and Advocacy Support
                                  Project - Advocacy for Trade and Investment Liberalization, USAID/Philippines
                                  Cooperative Agreement No. AID-492-A-00-00-00012-00, Managed by the
                                  Philippine Exporters Confederation, Inc., for the Period from January 1, 2003 to
                                  December 31, 2003
     5-442-05-009-R    12/28/04   Financial Audit of the Institutional Development and Service Delivery Support           3          QC
                                  Project, USAID/Cambodia Cooperative Agreement No. 442-A-00-99-00033-00,
                                  Managed by the Reproductive Health Association of Cambodia, for the Period from
                                  January 1, 2003 to December 31, 2003
     5-497-05-010-R    01/27/05   Financial Audit of the Project Titled “Democracy Reforms, Sustained and                 39         QC
                                  Deepened,” USAID/Indonesia Cooperative Agreement No. AID-497-A-00-03-
                                  00026-00, Managed by the Yayasan Pusat Reformasi Pemilu (Centre for Electoral           35         UN
                                  Reform/CETRO), for the Period from August 1, 2003 to June 30, 2004
     5-386-05-011-R    01/27/05   Financial Audit of the AVERT Project, USAID/India Project No. 386-0544, Managed        123         QC
                                  by the AVERT Society, for the Period from April 1, 2002 to March 31, 2003
                                                                                                                          116        UN
     5-492-05-012-R    01/31/05   Financial Audit of the Contraceptive Social Marketing in the Philippines Program,        88        QC
                                  USAID/Philippines Cooperative Agreement No. 492-A-00-02-00029, Managed by
                                  the DKT Philippines Inc., for the Period from October 1, 2002 to December 31,
                                  2003
     5-492-05-013-R    02/09/05   Financial Audit of the Barangay Justice Service System Project, USAID/Philippines
                                  Grant Agreement No. 492-G-0098-00044-00, Managed by the Gerry Roxas
                                  Foundation, Inc., for the Period from January 1, 2002 to December 31, 2003
     5-492-05-014-R    02/17/05   Financial Audit of the Strengthening Capacity to Identify and Reduce the Threat of
                                  Leading Infectious Diseases Project, USAID/Philippines Cooperative Agreement
                                  No. 492-A-00-00004-00, Managed by the New Tropical Medicine Foundation, Inc.,
                                  for the Year Ended December 31, 2002
     5-386-05-015-R    02/18/05   Financial Audit of the Energy Conservation and Commercialization Programme,
                                  USAID/India Project No. 386-0542, Managed by the Industrial Credit & Investment
                                  Corporation of India Bank Limited, for the Period from April 1, 2003 to March 31,
                                  2004
     5-493-05-016-R    03/29/05   Financial Audit of the Accelerated Economic Recovery in Asia Program, USAID            772         QC
                                  Cooperative Agreement No. 442-A-00-99-00072-00, Managed by the Kenan
                                  Foundation of Asia, for the Period from October 1, 2002 to September 30, 2003          760         UN
     6-263-05-001-R    10/11/04   Audit of USAID Resources Managed by Horticultural Exporters Improvement                 44         QC
                                  Association, USAID/Egypt Grant Agreement No. 263-G-00-99-00010-00, for the
                                  Period from January 1, 2002 to December 31, 2002
     6-263-05-002-R    11/09/04   Audit of USAID Resources Managed by the National Council for Women/Women
                                  Business Development Center, Under Cooperative Agreement No. 263-A-00-02-
                                  00016-00, for the Period from January 1, 2003 to December 31, 2003
     6-263-05-003-R    11/17/04   Financial Audit of the American Chamber of Commerce in Egypt, Grant Agreement
                                  No. 263-G-00-96-00073-12, for the Year Ended December 31, 2003

  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

October 1, 2004 — March 31, 2005                                                                                                   Appendix A
                                                                                                                                            53
                                  Semiannual Report to the Congress
                                                                                                                  Amount of
      Report        Date of                                                                                                       Type of
                                                                Report Title                                       Findings
      Number        Report                                                                                                       Findings
                                                                                                                    ($000s)
   6-263-05-004-R   12/07/04   Financial Audit of USAID Resources Managed by Alexandria Business Association,          13           QC
                               Cooperative Agreement No.263-A-00-02-00005-00, from January 1, 2003 through
                               December 31, 2003
   6-263-05-005-R   12/30/04   Financial Audit of USAID Resources Managed by Dakahlya Businessmen
                               Association for Community Development, Cooperative Agreement No. 263-A-00-
                               97-00062-00, from January 1, 2003 through December 31, 2003
   6-263-05-006-R   12/30/04   Financial Audit of USAID Resources Managed by the Ministry of Water Resources
                               and Irrigation/Water Policy Advisory Unit, Project Implementation Letter No. 3,
                               Project No. 263-0219, for the Period from July 1, 2001 through December 31, 2003
   6-263-05-007-R   02/03/05   Close-out Audit of USAID Resources Managed by the Ministry of Health and
                               Population Under Implementation Letter No. 2, USAID/Egypt’s Health Policy
                               Support Program, Grant No. 263-0254, for the Period from July 1, 2002 to
                               December 31, 2003
   6-263-05-008-R   02/15/05   Financial Audit of USAID Resources Managed by the Egyptian Exporters
                               Association, Cooperative Agreement No. 263-A-00-02-00031-00, for the Period
                               from January 1, 2003 to December 31, 2003
   7-685-05-001-R   10/28/04   Audit of USAID Resources Managed by “Association pour la Promotion Rurale             63             QC
                               de l’Arrondissement de Nyassia - Solidarite-Developpement- Paix” Under the
                               Casamance Recovery Development Program (685-0311) for the Period February
                               5, 2002 to October 4, 2003
   7-688-05-002-R   11/24/04   Audit of Local Currency Expenses Incurred by the “Ofﬁce Riz Segou” to Implement
                               the Income Diversiﬁcation and Increase Project (No. 688-0273) Under USAID/
                               Mali’s Sustainable Economic Growth Program from January 1, 2001 to September
                               30, 2003
   7-641-05-003-R   01/07/05   Audit of USAID Funds Provided to the Ghana Social Marketing Foundation Under         107             QC
                               the Family Planning/HIV-AIDS Program No. 641-A-00-00-0079 for the Year Ended
                               June 30, 2002
   7-641-05-004-R   01/10/05   Audit of USAID Funds Provided to the Ghana Social Marketing Foundation Under         156             QC
                               the Family Planning/HIV-AIDS Program No. 641-A-00-00-0079 for the Year Ended
                               June 30, 2003
   7-688-05-005-R   01/31/05   Audit of Local Currency Expenditures Incurred by the “Ofﬁce du Niger” in Mali to      75             QC
                               Implement the Sustainable Economic Growth Program (No. 688-0273) for the
                               Period January 1, 2001 through December 31, 2003                                      74             UN
   B-000-05-001-R   10/15/04   Audit of MEDAIR, Switzerland Under Six USAID Cooperative Agreements in               108             QC
                               Uganda, Afghanistan and Sudan for Periods Ending December 31, 2003
                                                                                                                    108             UN
   B-121-05-002-R   10/15/04   Audit of the Center for Ukrainian Reform Education Under USAID Cooperative            1              BU
                               Agreement No. 121-A-00-02-00002-00 for the Year Ended December 31, 2003
   B-000-05-003-R   10/15/04   Audit of Foundation Hirondelle Under USAID Grant Nos. HDA-G-00-02-00153-00            30             QC
                               and DOT-G-00-03-00017-00 for the Year Ended December 31, 2003
   B-168-05-004-R   11/09/04   Audit of the Bosnia and Herzegovina Trust Fund Accounts No. 4 and No. 5 Under
                               USAID Grant No. 168L-601 for the Period April 1, 2001 to June 30, 2004
   B-111-05-005-R   11/12/04   Audit of the Institute of Chartered Accountants of Scotland Under USAID
                               Cooperative Agreement No. 111-A-00-02-00034-00 for the Period May 2002 to
                               December 31, 2003
   B-000-05-006-R   11/12/04   Audit of German Agro Action Under USAID Grant No. AOT-G-00-00-00038-00 for
                               the Years Ended December 31, 2000, 2001, and 2002
   B-000-05-007-R   11/15/04   Audit of Veterinaires Sans Frontieres -- Germany Under USAID Grant No. AOT-G-
                               00-00-00196-00 for the Year Ended December 31, 2003
   B-000-05-008-R   11/17/04   Audit of Merlin Under Eight USAID Agreements for the Year Ended December 31,
                               2003
   B-118-05-009-R   11/18/04   Audit of IPO Junior Achievement Russia Under USAID Grant No. 118-G-00-98-
                               00151-00 for the Year Ended December 31, 2003
   B-000-05-010-R   12/03/04   Audit of Veterinaires Sans Frontieres ASBL Under USAID Grant No. AOT-G-00-00-
                               00178-00 for the Year Ended December 31, 2003
   B-118-05-011-R   12/15/04   Audit of Moscow Helsinki Group Under USAID Cooperative Agreement No. 118-A-           4              QC
                               00-02-00183 for the Year Ended December 31, 2003
   B-118-05-012-R   12/15/04   Audit of the Institute for the Economy in Transition Under USAID Cooperative
                               Agreement No. 118-A-00-00-00130-00 for the Year Ended December 31, 2003


                                                                                                                  BU--Better Use of Funds
                                                                                                                  QC--Questioned Costs
                                                                                                                  UN--Unsupported Costs
                                                                                                                  Note: UN is part of QC

Appendix A                                                                                             October 1, 2004 — March 31, 2005
54
                                     Semiannual Report to the Congress
                                                                                                                      Amount of
        Report         Date of                                                                                                     Type of
                                                                    Report Title                                       Findings
        Number         Report                                                                                                     Findings
                                                                                                                        ($000s)
     B-000-05-013-R    12/15/04   Norwegian People’s Aid Under Four Separate USAID Awards for Various Periods            3,618      QC
                                  Ended in 2002
                                                                                                                        3,087       UN
     B-000-05-014-R    01/07/05   Audit of Association Handicap International Under USAID Cooperative Agreement
                                  No. 685-A-00-01-00159-00 and Three Sub-agreements for the Year Ended
                                  December 31, 2003
     B-000-05-015-R    02/04/05   Audit of the Foundation of Terre des Hommes (Mozambique) Under a Sub-award
                                  (Grant Award No. 5 Sofala from USAID Recipient John Snow, Inc.) for the Period
                                  March 1 through December 31, 2001
     B-000-05-016-R    02/15/05   Audit of Grant No. AOT-G-00-00054-00 and Sub Grant KOV131 to Oxfam GB, for             55         QC
                                  Programs in Angola and Kosovo, respectively, for the Year Ended April 30, 2003
                                                                                                                         55         UN
     B-118-05-017-R    03/09/05   Audit of the Institute for Urban Economics Under USAID Cooperative Agreement
                                  No. 118-A-00-01-00135 for the Year Ended December 31, 2003
     B-000-05-018-R    03/09/05   Audit of the Foundation of Terre des Hommes (Mozambique) Under a Sub-Award
                                  (Grant Award No. 5 Sofala from USAID Recipient John Snow, Inc.) for the Year
                                  Ended December 31, 2002
     B-000-05-019-R    03/10/05   Audit of the International HIV/AIDS Alliance in Brighton, England Under USAID
                                  Grant No. HRN-G-98-00010-00 and Various Pass-through Agreements for the Year
                                  Ended December 31, 2003
     B-000-05-020-R    03/15/05   Audit of Cooperazione Internazionale Under USAID Grant Agreement No. PL 663-           51         QC
                                  G-00-01-00321-00 for the 20-Month Period Ended December 31, 2002
                                                                                                                         47         UN
     B-000-05-021-R    03/15/05   Audit of ACTED, in Paris, France Under Six USAID Agreements for the Years             701         QC
                                  Ended December 31, 2002 and December 31, 2003
     B-000-05-022-R    03/15/05   Audit of Action Contre La Faim in Paris, France, Under Multiple USAID                  24         QC
                                  Agreements for the Year Ended December 31, 2003
                                                                                                                         24         UN


                                                        —U.S.-BASED GRANTEES—


     5-438-05-005-D    03/30/05   Financial Audit of Incurred Costs in Mongolia by the National Center for State         19         QC
                                  Courts to Implement the Mongolia Judicial Reform Program, USAID/Mongolia
                                  Cooperative Agreement No. 492-A-00-01-00001-00, for the Period from January            17         UN
                                  26, 2001 to December 31, 2003
     E-267-05-008-D    03/22/05   Audit of Costs Incurred by Mercy Corps Under USAID Cooperative Agreement No.
                                  AFP-A-00-03-00001-00 from May 16, 2003 through July 31, 2004
     4-690-05-005-N    03/14/05   Agreed-Upon-Procedures Review of USAID Resources Managed by the Southern              9,587       QC
                                  Africa Enterprise Development Fund, USAID Grant No. AOT-0515-G-00-5086-00
                                  (Originally Grant No. AOT-G-00-95-00086-00) for the Period November 1, 1995 to        8,393       UN
                                  September 30, 2003
     6-294-05-003-N    11/03/04   Audit of the Fund Accountability Statement of USAID Resources Managed by               5          QC
                                  Young Men’s Christian Association Under Award Number 294-A-00-99-00135-00,
                                  “Youth Opportunities Program,” for the Period from October 1, 2001 to September        5          UN
                                  30, 2002
     6-294-05-004-N    11/03/04   Audit of the Fund Accountability Statement of USAID Resources Managed by               2          QC
                                  Young Men’s Christian Association Under Award Number 294-A-00-02-00227-00
                                  “Job Opportunities through Basic Services” for the Period from October 1, 2002 to
                                  September 30, 2003
     6-294-05-006-N    12/28/04   Audit of the Fund Accountability Statement of USAID Resources Managed by IBM          935         QC
                                  Corporation Under Award Number 294-C-00-01-00110-00 “Improved Maternal
                                  Child Health” for the Period from June 19, 2001 to June 30, 2003                       6          UN
     6-294-05-007-N    12/29/04   Audit of the Fund Accountability Statement of USAID Resources Managed by              320         QC
                                  CARE International Under Award Number 294-A-00-01-00130-00 “Emergency
                                  Medical Assistance Project” for the Period from October 1, 2001 to September 30,
                                  2002
     6-294-05-008-N    12/29/04   Audit of the Fund Accountability Statement of USAID Resources Managed by              391         QC
                                  CARE International Under Award Number 294-A-00-00072-00 “Village Service
                                  Program” for the Period from September 26, 2000 to September 30, 2002

  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

October 1, 2004 — March 31, 2005                                                                                                  Appendix A
                                                                                                                                                55
                                 Semiannual Report to the Congress
                                                                                                                      Amount of
      Report        Date of                                                                                                           Type of
                                                                  Report Title                                         Findings
      Number        Report                                                                                                           Findings
                                                                                                                        ($000s)
   6-294-05-009-N   01/26/05   Audit of Fund Accountability Statement of USAID Resources Managed by                        1            QC
                               American Near East Refugee AID Under Award Number 294-A-00-99-00160-00,
                               “Community and Rural Services Program,” for the Period from October 1, 2001 to
                               September 30, 2002
   6-294-05-010-N   01/26/05   Audit of Fund Accountability Statement of USAID Resources Managed by                      17             QC
                               American Near East Refugee AID Under Award No. 294-A-00-02-00229-00, “Job
                               Opportunities through Basic Services Program” for the Period from August 30,
                               2002 to August 29, 2003
   6-294-05-011-N   01/26/05   Audit of Fund Accountability Statement of USAID Resources Managed by                       4             QC
                               American Near East Refugee AID Under Award Number 294-A-00-01-00101-00,
                               “Village Service Program,” for the Period from October 1, 2001 to September 30,            4             UN
                               2002
   6-294-05-012-N   01/26/05   Audit of Fund Accountability Statement of USAID Resources Managed by
                               American Near East Refugee AID Under Award Number 294-A-00-00-00064-00,
                               “Ein Sultan Refugee Camp Water Distribution System,” for the Period from June
                               16, 2000 to June 15, 2001
   6-294-05-013-N   02/02/05   Audit of the Fund Accountability Statement of USAID Resources Managed by                   1             QC
                               World Vision Under Cooperative Agreement Number 294-A-00-02-00226-00 “Job
                               Opportunities through Basic Services” for the Period from August 5, 2002 to June
                               30, 2003
   6-294-05-014-N   02/03/05   Audit of the Fund Accountability Statement of USAID Resources Managed by
                               World Vision Under Cooperative Agreement Number 294-A-00-01-00102-00
                               “Village Services Program” for the Period from October 1, 2001 to September 30,
                               2002
   6-294-05-017-N   03/02/05   Audit of USAID Resources Managed by Chemonics International Inc., Contract
                               No. PCE-I-00-99-00007-00, for the Period from September 21, 2000 to September
                               20, 2002
   6-294-05-018-N   03/07/05   Audit of USAID Resources Managed by International Youth Foundation Under
                               Award No. 294-A-00-00-00070-00 “International Technology for Youth in Rural
                               Communities in the West Bank and Gaza” in Conjunction with Welfare Association
                               for the Period from October 1, 2001 Through September 30, 2002
   6-294-05-020-N   03/29/05   Audit of the Fund Accountability Statement of USAID Resources Managed by                   8             QC
                               Catholic Relief Services Under Award Number 294-A-00-02-00221-00, Program
                               of Linking Employment and Growth to Community Empowerment and Enduring
                               Assets in the West Bank for the Period from August 2, 2002 to June 30, 2003
   6-294-05-021-N   03/29/05   Audit of the Fund Accountability Statement of USAID Resources Managed by                 172             QC
                               Catholic Relief Services Under Award Number 294-A-00-01-00120-00, Gaza Rapid
                               Employment Program for the Period from October 1, 2001 to September 30, 2002
   6-294-05-022-N   03/29/05   Audit of the Fund Accountability Statement of USAID Resources Managed by                   1             QC
                               Catholic Relief Services Under Award No. 294-A-00-99-00158-00, Community and
                               Rural Services Program in the Jenin and Hebron Districts of the West Bank for the
                               Period from October 1, 2001 to September 30, 2002
   0-000-04-032-T   10/05/04   Review of the Audit Report for CARE USA for Fiscal Year Ending June 30, 2002
   0-000-04-044-T   10/05/04   Review of Audit of Inter-American Dialogue for Fiscal Year Ending December 31,
                               2003
   0-000-05-005-T   01/21/05   Review of the Audit Report for Interchurch Medical Assistance, Inc., for the Fiscal
                               Year Ending June 30, 2003
   0-000-05-006-T   01/21/05   Review of the Audit Report for The Africa-America Institute for the Fiscal Year
                               Ending September 30, 2002
   0-000-05-007-T   01/21/05   Review of the Audit Report for South-East Consortium for International
                               Development, Inc., for the Fiscal Year Ending September 30, 2001
   0-000-05-008-T   02/16/05   Review of the Audit Report for Management Science for Health, Inc., for Fiscal
                               Year Ending June 30, 2003
   0-000-05-014-T   01/21/05   Review of the Audit Report for Air Serv International, Inc., for Fiscal Year Ending
                               December 31, 2003
   0-000-05-017-T   02/07/05   Review of the Audit Report for Population Services International for the Fiscal Year
                               Ending December 31, 2003
   0-000-05-023-T   02/07/05   Review of the Audit Report for World Learning, Inc. for the Fiscal Year Ended June
                               30, 2003


                                                                                                                      BU--Better Use of Funds
                                                                                                                      QC--Questioned Costs
                                                                                                                      UN--Unsupported Costs
                                                                                                                      Note: UN is part of QC

Appendix A                                                                                                October 1, 2004 — March 31, 2005
56
                                     Semiannual Report to the Congress
                                                                                                                        Amount of
        Report         Date of                                                                                                       Type of
                                                                     Report Title                                        Findings
        Number         Report                                                                                                       Findings
                                                                                                                          ($000s)
     0-000-05-024-T    01/21/05   Review of the Audit Report for International College, for the Fiscal Year Ending
                                  June 30, 2003
     0-000-05-032-T    02/07/05   Review of the Audit Report for The Eurasia Foundation for the Fiscal Year Ended
                                  September 30, 2003

                                                       —U.S.-BASED CONTRACTORS—

     0-000-04-031-D    10/05/04   LTG Associates, Inc., Report on Audit of Timekeeping System Policies and
                                  Procedures
     0-000-04-032-D    10/05/04   Metcalf & Eddy, Report on Audit FY 2004 Floor Check
     0-000-05-001-D    10/05/04   Land O’ Lakes - International Development Division, Report on Audit of Fiscal Year       1          QC
                                  2001 Incurred Costs
     0-000-05-003-D    10/05/04   Creative Associates International, Inc., Report on Audit of Fiscal Year 2000
                                  Incurred Costs
     0-000-05-004-D    10/05/04   Aurora Associates International, Inc., Report on Audit of Fiscal Year 2000 Incurred
                                  Costs
     0-000-05-005-D    10/19/04   Checchi and Company Consulting, Inc,. Report on Audit of Fiscal Year 2000
                                  Incurred Costs
     0-000-05-006-D    10/19/04   Aurora Associates, Inc., Report on Audit of Fiscal Year 1999 Incurred Costs              40         QC
     0-000-05-007-D    10/20/04   Planning and Development Collaborative, Inc., Report on Audit of Fiscal Year 1998
                                  Incurred Costs
     0-000-05-008-D    10/05/04   Training Resource Group, Inc. Report on Audit of Fiscal Year 2001 Incurred Costs
     0-000-05-009-D    10/05/04   Training Resource Group, Inc., Report on Audit of Fiscal Year 2002 Incurred Costs
     0-000-05-010-D    12/10/04   DevTech Systems, Inc., Report on Audit of Fiscal Year 2000, 2001 and 2002
                                  Incurred Costs
     0-000-05-011-D    12/10/04   Creative Associates International, Inc., Report on Audit of Fiscal Year 2001
                                  Incurred Costs
     0-000-05-012-D    01/03/05   Checchi and Company Consulting, Inc., Report on Audit of Fiscal Year 2001
                                  Incurred Costs
     0-000-05-013-D    12/10/04   Associates in Rural Development, Inc., Report on Audit of Fiscal Year 2001
                                  Incurred Costs
     0-000-05-014-D    11/09/04   Checchi and Company Consulting, Inc. Report on Audit of Fiscal Year 2002
                                  Incurred Costs
     0-000-05-015-D    11/09/04   Checchi and Company Consulting, Inc. Report on Audit of Fiscal Year 2003                 65         QC
                                  Incurred Costs
     0-000-05-016-D    12/10/04   Fintrac, Inc., Report on Audit of Fiscal Year 1997 Incurred Costs
     0-000-05-017-D    12/10/04   Fintrac, Inc., Report on Audit of Fiscal Year 1998 Incurred Costs
     0-000-05-018-D    12/10/04   Fintrac, Inc., Report on Audit of Fiscal Year 1999 Incurred Costs
     0-000-05-019-D    12/10/04   Fintrac, Inc., Report on Audit of Fiscal Year 2000 Incurred Costs
     0-000-05-020-D    11/09/04   Management Systems International, Inc. Report on Audit of Fiscal Year 2002
                                  Incurred Costs
     0-000-05-021-D    01/21/05   Medical Services Corporation International, Report on Audit of Fiscal Year 2001          6          QC
                                  Incurred Costs
     0-000-05-022-D    01/21/05   Planning and Development Collaborative, Inc., Report on Audit of Fiscal Year 1999
                                  Incurred Costs
     0-000-05-023-D    11/09/04   Planning and Development Collaborative, Inc., Report on Audit of Fiscal Year 2001
                                  Incurred Costs
     0-000-05-024-D    11/09/04   Planning and Development Collaborative, Inc. Report on Audit of Fiscal Year 2000
                                  Incurred Costs
     0-000-05-025-D    02/07/05   Z Systems Corporation, Report on Audit of Fiscal Years 1999, 2000, 2001 and              2          QC
                                  2002 Incurred Costs
     0-000-05-026-D    11/09/04   Planning and Learning Technologies, Inc. Report on Audit of Fiscal Year 1999             19         QC
                                  Incurred Costs
     0-000-05-027-D    11/09/04   Planning and Learning Technologies, Inc. Report on Audit of FY 1998 Incurred             3          QC
                                  Costs
     0-000-05-028-D    12/10/04   Fintrac, Inc., Report on Audit of Fiscal Year 2001 Incurred Costs

  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

October 1, 2004 — March 31, 2005                                                                                                    Appendix A
                                                                                                                                               57
                                  Semiannual Report to the Congress
                                                                                                                     Amount of
      Report        Date of                                                                                                          Type of
                                                                  Report Title                                        Findings
      Number        Report                                                                                                          Findings
                                                                                                                       ($000s)
   0-000-05-029-D   12/10/04   Fintrac, Inc., Report on Audit of Fiscal Year 2002 Incurred Costs
   0-000-05-030-D   11/08/04   BHM International Inc., Report on Audit of Fiscal Year 1998 Incurred Costs
   0-000-05-031-D   01/03/05   Financial Markets International, Inc., Report on Audit of Fiscal Year 1994 Incurred
                               Costs
   0-000-05-032-D   01/04/05   Financial Markets International, Inc., Report on Audit of Fiscal Year 1995 Incurred
                               Costs
   0-000-05-033-D   01/04/05   Financial Markets International, Inc., Report on Audit of Fiscal Year 1996 Incurred
                               Costs
   0-000-05-034-D   01/04/05   Financial Markets International, Inc., Report on Audit of Fiscal Year 1997 Incurred
                               Costs
   0-000-05-035-D   01/04/05   Financial Markets International, Inc., Report on Audit of Fiscal Year 1998 Incurred
                               Costs
   0-000-05-036-D   01/04/05   Financial Markets International, Inc., Report on Audit of Fiscal Year 1999 Incurred
                               Costs
   0-000-05-037-D   01/21/05   Vietnam Assistance for the Handicapped, Report on Audit of Accounting System
                               and Related Internal Controls
   0-000-05-038-D   01/04/05   Management Systems International, Inc., Report on Audit of Fiscal Year 2001              16             QC
                               Incurred Costs
   0-000-05-039-D   01/19/05   Management Systems International, Inc., Report on Audit of Fiscal Year 2000
                               Incurred Costs
   0-000-05-040-D   12/10/04   Creative Associates International, Inc., Report on Audit of Fiscal Year 2002
                               Incurred Costs
   0-000-05-041-D   03/31/05   AMEX International, Inc., Report on Audit of Fiscal Year 2001 Incurred Costs            145             QC
   0-000-05-042-D   12/10/04   Aurora Associates, Inc., Report on Audit of Fiscal Year 2001 Incurred Costs             28              QC
   0-000-05-043-D   12/10/04   AMEX International, Inc., Report on Audit of Fiscal Year 2000 Incurred Costs            173             QC
   0-000-05-044-D   12/10/04   Associates for International Resources and Development, Report on Audit of
                               Fiscal Year 2000 and 2001 Incurred Costs
   0-000-05-045-D   01/04/05   Medical Services Corporation International, Report on Audit of Fiscal Year 2000          7              QC
                               Incurred Costs
   0-000-05-046-D   01/04/05   Motivation Charitable Trust, Report on Audit of Post Award Accounting System
   0-000-05-047-D   03/15/05   John Snow, Inc., Report on Audit of Fiscal Years 1999, 2000, and 2001 Incurred           3              QC
                               Costs
   0-000-05-048-D   03/31/05   Altarum Institute, Report on Audit of Fiscal Year 2003 Incurred Costs
   0-000-05-049-D   02/07/05   Camp, Dresser & McKee, Corporate, Report on Audit of Fiscal Years 1999 and
                               2000 Incurred Costs
   0-000-05-050-D   02/07/05   Camp, Dresser & McKee, Corporate, Report on Audit of Fiscal Years 2001 and
                               2002 Incurred Costs
   0-000-05-052-D   02/07/05   Creative Associates International, Inc., Report on Audit of Fiscal Year 1999            616             QC
                               Incurred Costs
   0-000-05-053-D   02/07/05   MacFadden & Associates, Inc., Report on Audit of Fiscal Year 2000 Incurred Costs         53             QC
   0-000-05-054-D   02/07/05   MacFadden & Associates, Inc., Report on Audit of Fiscal Year 2001 Incurred Costs         19             QC
   0-000-05-055-D   03/15/05   Carana Corporation, Report on Audit of Fiscal Year 2002 Incurred Costs
   0-000-05-056-D   02/07/05   BHM International, Inc., Report on Audit of Fiscal Year 2000 Incurred Costs             189             QC
   0-000-05-057-D   02/07/05   International Business and Technical Consultants, Inc., Report on Audit of Fiscal       58              QC
                               Year 1998 Incurred Costs
   0-000-05-058-D   03/31/05   International Business and Technical Consultants, Inc., Report on Audit of Fiscal        94             QC
                               Year 1999 Incurred Costs
   0-000-05-059-D   02/07/05   International Business and Technical Consultants, Inc., Report on Audit of Fiscal       130             QC
                               Year 2000 Incurred Costs
   0-000-05-060-D   02/07/05   International Business and Technical Consultants, Inc., Report on Audit of Fiscal        13             QC
                               Year 2001 Incurred Costs
   0-000-05-061-D   03/15/05   Carana Corporation, Report on Audit of Fiscal Year 2001 Incurred Costs
   0-000-05-063-D   03/15/05   Metcalf & Eddy, Inc., Report on Audit of Fiscal Year 2002 Incurred Costs                 27             QC




                                                                                                                     BU--Better Use of Funds
                                                                                                                     QC--Questioned Costs
                                                                                                                     UN--Unsupported Costs
                                                                                                                     Note: UN is part of QC

Appendix A                                                                                                October 1, 2004 — March 31, 2005
58
                                     Semiannual Report to the Congress
                                                                                                                      Amount of
        Report         Date of                                                                                                     Type of
                                                                    Report Title                                       Findings
        Number         Report                                                                                                     Findings
                                                                                                                        ($000s)
     E-266-04-043-D    03/17/05   Audit of Costs Incurred and Billed to USAID by BearingPoint, Inc. Under Contract       5,117      QC
                                  No. RAN-C-00-03-00043-00 from December 1, 2003 to March 31, 2004
                                                                                                                        3,928       UN
     E-267-05-001-D    10/21/04   Audit of Costs Incurred and Billed to USAID by the International Resources Group,
                                  Inc. Under Contract No. EMT-C-00-03-00007 from September 1, 2003 to March
                                  31, 2004
     E-267-05-002-D    01/17/05   Audit on Kroll Government Services Inc., Related to Labor Provided for Security
                                  Services Under USAID Contract No. 267-C-00-03-00001-00 from April 1, 2004
                                  through December 31, 2004
     E-267-05-003-D    01/29/05   Audit of Materials, Equipment, and Services Incurred Under USAID Contract No.
                                  EDG-C-00-03-00010-00
     E-267-05-005-D    02/19/05   Audit of Incurred Costs Submitted on Voucher Nos. 8 through 12 for Contract No.       312         QC
                                  TRN-C-00-03-00054-00
     E-267-05-006-D    02/27/05   Audit of Costs Billed Under Parsons Infrastructure and Technology Group               140         QC
                                  Subcontract No. 24964-000-ESU-W000-001 from January 12, 2004 through
                                  September 24, 2004
     E-267-05-007-D    03/01/05   Audit of Costs Billed on Development Alternatives, Inc. Prime Contract Nos. HDA-       9          QC
                                  I-00-03-00061-00 from January 1, 2004 through April 5, 2004 and DOT-I-00-03-
                                  00004-00 from February 5, 2004 through August 31, 2004
     5-306-05-002-N    12/09/04   Financial Audit of Local Costs Incurred by the Louis Berger Group, Inc. to             3          QC
                                  Implement the Rehabilitation of Economic Facilities and Services Program, USAID/
                                  Afghanistan Contract No. 306-C-00-02-00500-00, for the Period from July 1, 2004        3          UN
                                  to September 30, 2004
     5-306-05-006-N    03/14/05   Financial Audit of Local Costs Incurred by the Louis Berger Group, Inc. to
                                  Implement the Rehabilitation of Economic Facilities and Services Program, USAID/
                                  Afghanistan Contract No. 306-C-00-02-00500-00, for the Period from October 1,
                                  2004 to December 31, 2004
     6-294-05-002-N    10/13/04   Audit of the Fund Accountability Statement of USAID Resources Managed by               16         QC
                                  Development Alternatives, Inc. Under Award Number PCE-I-00-99-00009-00
                                  “Palestinian Enterprise Revitalization Project” for the Period from September 23,      1          UN
                                  2002 to August 31, 2003
     6-294-05-016-N    03/01/05   Audit of the Fund Accountability Statement of USAID Resources Managed by              305         QC
                                  the Services Group, Inc. Under Contract No. 294-C-00-00-00071-00 “Promoting
                                  Industrial Zones and Investment Mobilization” for the Period from October 1, 2001     303         UN
                                  to September 30, 2002

                                                            —ENTERPRISE FUND—

     0-000-05-001-E    11/29/04   Review of the Hungarian-American Enterprise Fund’s Financial Statement Audit
                                  Reports for the Fiscal Years September 30, 2003 and 2002
     0-000-05-002-E    11/29/04   Review of the Financial Statement Audit Report for the Polish-American Enterprise
                                  Fund for the Fiscal Year Ending September 30, 2003
     0-000-05-003-E    11/29/04   Review of the Audit Report for the Bulgarian-American Enterprise Fund for the
                                  Fiscal Year Ended September 30, 2003
     0-000-05-004-E    12/01/04   Review of the Audit Report for the Czech and Slovak American Enterprise Fund for
                                  the Fiscal Years Ended September 30, 2003 and 2002
     0-000-05-005-E    12/10/04   Review of Audit Report of the U.S. Russia Investment Fund for the Fiscal Years
                                  Ended September 30, 2003 and 2002
     0-000-05-006-E    12/10/04   Review of the Financial Statement Audit Report for the Central Asian-American
                                  Enterprise Fund for Fiscal Years Ended September 30, 2003 and 2002
     0-000-05-007-E    12/13/04   Review of the Audit of the Western NIS Enterprise Fund for the Fiscal Year Ended
                                  September 30, 2003
     0-000-05-008-E    12/30/04   Review of the Audit of the Romanian-American Enterprise Fund for the Fiscal Year
                                  Ended September 30, 2003
     0-000-05-009-E    01/14/05   Review of the Audit of the Albanian-American Enterprise Fund for the Fiscal Year
                                  Ended September 30, 2003
     0-000-05-010-E    01/14/05   Review of the Audit of the Baltic-American Enterprise Fund for the Fiscal Year
                                  Ended September 30, 2003



  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

October 1, 2004 — March 31, 2005                                                                                                  Appendix A
                                                                                                                                              59
                                  Semiannual Report to the Congress
                                             USAID Miscellaneous Reports
                                                                                                                   Amount of
      Report        Date of                                                                                                         Type of
                                                                 Report Title                                       Findings
      Number        Report                                                                                                         Findings
                                                                                                                     ($000s)
                                                   —QUALITY CONTROL REVIEWS—
   0-000-05-001-Q   10/07/04   Quality Control Review of the Financial Statement Audit of Western NIS Enterprise
                               Fund Performed by Ernst & Young, LLP for the Fiscal Year Ended September 30,
                               2002
   0-000-05-002-Q   10/28/04   Quality Control Review of the Audit of Centre for Development and Population
                               Activities Performed by Gelman, Rosenberg & Freedman for the Fiscal Year Ended
                               September 30, 2002
   0-000-05-003-Q   01/04/05   Quality Control Review of the Audit of the Consortium for Elections and Political
                               Process Strengthening Performed by Aronson & Company for the Fiscal Year
                               Ended September 30, 2003
   1-518-05-001-Q   11/23/04   Quality Control Review of the Fund Accountability Statement of the Audit of
                               the “Programa de Sostenibilidad Financiera y Alianzas Estrateticas,” Under
                               the Cooperative Agreement No. 518-A-00-98-00-00187-00, Managed by the
                               Fundacion Groupo Esquel, for the Year Ended December 31, 2003
   1-520-05-002-Q   11/24/04   Quality Control Review of the Audit Report and Working Papers of the Inter-
                               American Foundation’s Projects GT-260 “Fundacion para el Desarrollo Educativo,
                               Social y Economico,” for the Period December 4, 2001 to November 30, 2002 and
                               GT-270 “Asociacion Para El Desarrollo Integral, San Antonio,” for the Period of
                               May 1, 2003 to September 27, 2004
   1-519-05-003-Q   12/03/04   Quality Control Review of the Audit of Mother and Child Community Health
                               Services Project in Santiago de Maria, El Salvador, Grant Agreement No. 519-A-
                               00-01-00213-00, Managed by AmeriCares Foundation, Inc., for the Period from
                               October 1, 2003 through December 31, 2003
   1-520-05-004-Q   12/14/04   Quality Control Review of the Audit Report and Working Papers of the Audit of
                               “Better Health for Rural Women and Children” Project, Cooperative Agreement No.
                               520-98-A-00-00037-00, Managed by the Asociacion Bienestar de la Familia de
                               Guatemala for the Year Ending December 31, 2003
   1-520-05-005-Q   01/28/05   Quality Control Review of the Close-Out Audit of the Project “Communities in
                               Transition,” Cooperative Agreement No. 520-0413-A-00-5130-00, Managed by
                               Centro Canadiense de Estudios y Cooperacion, for the Period April 1, 2003 to
                               March 31, 2004
   4-623-05-001-Q   02/17/05   Quality Control Review of the Recipient-Contracted Audit of the Commonwealth
                               Regional Health Community, USAID Limited Scope Grant Agreement No.
                               6980483.23-80003 for the Period July 1, 2001 to June 30, 2002, Performed by
                               Ernst & Young (Arusha, Tanzania)
   4-611-05-002-Q   03/31/05   Quality Control Review of the Recipient-Contracted Audit of the Zambia Chamber
                               of Small and Medium Business Associations Under USAID Cooperative Agreement
                               No. 690-A-00-01-00117-00 for the Period July 1, 2001 to June 30, 2002 Performed
                               by Ernst and Young (Lusaka, Zambia)
   B-183-05-001-Q   02/09/05   Quality Control Review of Two Audits Done by Deloitte & Touche in Bulgaria of Two
                               Separate Grant Awards for Periods Ended December 31, 2002 and September 30,
                               2003
                                                                —OTHER—
   6-263-05-001-S   10/31/04   Sustainability of USAID-Financed Utility Infrastructure Activities in Egypt
   6-294-05-002-S   03/28/05   Information on Status and Results of the First 30 Financial Audits of USAID/West
                               Bank and Gaza Activities in Accordance with the Statutory Requirements of the
                               Consolidated Appropriations Acts of 2003. 2004, and 2005
   6-263-05-003-S   03/29/05   Survey of USAID/Egypt’s Population and Health Activities
   6-294-05-004-S   03/30/05   Survey of USAID/West Bank and Gaza’s Implementation of Executive Order
                               13224 - Blocking Properly and Prohibiting Transactions With Persons Who
                               Commit, Threaten to Commit, or Support Terrorism
   7-680-05-001-O   01/26/05   Application of Agreed-Upon-Procedures to Review Expenditures, Internal Control,         1              QC
                               and Compliance with Agreement Terms of the “Association to Combat Racism,
                               Ethnocentrism, and Regionalism” in Benin Under USAID Grant No. 680-G-00-03-
                               00013-00 for the Period October 25, 2002 to January 31, 2004



                                                                                                                    BU--Better Use of Funds
                                                                                                                    QC--Questioned Costs
                                                                                                                    UN--Unsupported Costs
                                                                                                                    Note: UN is part of QC

Appendix A                                                                                              October 1, 2004 — March 31, 2005
60
                                     Semiannual Report to the Congress
                                                                                                                Amount of
        Report         Date of                                                                                               Type of
                                                                  Report Title                                   Findings
        Number         Report                                                                                               Findings
                                                                                                                  ($000s)
     7-608-05-001-S    10/06/04   Risk Assessment of USAID/Morocco’s Management Controls After the Reduction-
                                  In-Force
     A-000-05-001-S    10/13/04   Interim Report on Phoenix Overseas Deployment Pilot Observation at Egypt




  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

October 1, 2004 — March 31, 2005                                                                                             Appendix A
                                                                                                                                             61
                                  Semiannual Report to the Congress

                                         USAID Performance Audit Reports
                                                                                                                   Amount of
     Report        Date of                                                                                                         Type of
                                                                 Report Title                                       Findings
     Number        Report                                                                                                         Findings
                                                                                                                     ($000s)
                                                   —ECONOMY AND EFFICIENCY—
  1-598-05-001-P   11/09/04   Audit of Regionalization Efforts in Latin America and the Caribbean
  1-598-05-002-P   12/03/04   Audit of USAID’s Bureau for Management, Ofﬁce of Acquisition and Assistance’s
                              Administration of Audits Required Under Awards to Foreign and U.S. Recipients
  1-514-05-003-P   12/21/04   Audit of USAID/Colombia-Financed Subawards
  1-524-05-004-P   01/26/05   Audit of Management Activities of USAID/Nicaragua’s Cognizant Technical Ofﬁcers
  1-527-05-005-P   02/14/05   Audit of USAID/Peru’s Global Development Alliances
  1-515-05-006-P   03/21/05   Audit of the Central America Mitigation Initiative
  4-656-05-001-P   11/04/04   Audit of USAID/Mozambique’s Performance Monitoring of Railroad Rehabilitation
                              Under the Southern Africa Floods Supplemental Appropriations
  4-690-05-002-P   12/15/04   Audit of USAID/RCSA’s Contractor Performance Evaluation Program
  4-621-05-003-P   03/15/05   Report on Follow-up Audit of Recommendation Nos. 1 through 10 from the Audit of        455             BU
                              USAID/Tanzania’s Participant Training Activities, Report No. 4-621-04-001-P
  5-383-05-001-P   11/24/04   Audit of USAID/Sri Lanka’s Security Over Its Information Systems
  5-367-05-002-P   01/07/05   Audit of USAID/Nepal’s Security Over Its Information Systems
  5-306-05-003-P   03/14/05   Audit of USAID/Afghanistan’s School and Clinic Reconstruction Program
  5-388-05-004-P   03/31/05   Audit of USAID/Bangladesh’s Nongovernmental Organization Service Delivery
                              Program
  6-608-05-001-P   02/21/05   Audit of USAID/Morocco’s Management of Activities Under the Middle East
                              Partnership Initiative
  6-263-05-002-P   03/31/05   Audit of USAID/Egypt’s Basic Education Activities
  7-660-05-001-P   10/28/04   Audit of USAID/Democratic Republic of Congo’s Monitoring and Reporting of Its
                              Health Program
  7-620-05-002-P   11/18/04   Audit of USAID/Nigeria’s Annual Reporting Process
  7-685-05-003-P   01/31/05   Audit of USAID/Senegal’s Contracting Operations
  7-620-05-004-P   03/31/05   Audit of USAID/Nigeria’s Global Development Alliances
  9-000-05-001-P   12/07/04   Audit of Field Support Mechanisms in the Global Health Bureau
  9-611-05-002-P   12/28/04   Audit of USAID/Zambia’s Global Development Alliances
  9-000-05-003-P   01/11/05   Audit of USAID’s Human Capital Strategy
  9-596-05-003-P   02/07/05   Audit of USAID/Guatemala-Central American Program’s Cooperative Agreement
                              with Caribbean-Central American Action (Cooperative Agreement No. 596-A-00-04-
                              00235-00)
  9-000-05-004-P   03/25/05   Audit of USAID’s Implementation of the Ofﬁce of Management and Budget’s
                              Program Assessment and Rating Tool
  9-663-05-005-P   03/30/05   Audit of USAID/Ethiopia’s Implementation of the President’s Emergency Plan for
                              AIDS Relief

  A-000-05-003-P   10/06/04   Audit of USAID’s Compliance with the Provision of the Federal Information Security
                              Act of 2002
  A-267-05-005-P   01/06/05   Audit of USAID’s Compliance with Federal Regulations in Awarding the Contract for
                              Security Services in Iraq to Kroll Government Services International Inc.
  A-000-05-006-P   02/22/05   Audit of USAID’s Information Technology Infrastructure
  B-118-05-001-P   03/11/05   Follow-up Audit of Recommendation No. 2 from Audit Report No. B-118-03-002-P,
                              Audit of USAID/Russia’s Monitoring of American International Health Alliance’s
                              Performance
  B-118-05-002-P   03/31/05   Audit of USAID/Russia’s Democracy Program
  E-267-05-001-P   01/31/05   Audit of USAID/Iraq’s Community Action Program
  E-267-05-002-P   02/28/05   Audit of USAID/Iraq’s Health System Strengthening Contract Activities




                                                                                                                   BU--Better Use of Funds
                                                                                                                   QC--Questioned Costs
                                                                                                                   UN--Unsupported Costs
                                                                                                                   Note: UN is part of QC

Appendix A                                                                                              October 1, 2004 — March 31, 2005
62
                                     Semiannual Report to the Congress
                                 African Development Foundation Audit Reports
                                                                                                                   Amount of
        Report         Date of                                                                                                  Type of
                                                                   Report Title                                     Findings
        Number         Report                                                                                                  Findings
                                                                                                                     ($000s)

                                                    --PROGRAMS AND OPERATIONS—

  0-ADF-05-003-C      11/15/04   Report on Audit of the African Development Foundation’s Financial Statements
                                 for Fiscal Years 2004 and 2003

                                                     --ECONOMY AND EFFICIENCY—

  A-ADF-05-002-P      10/06/04   Audit of the African Development Foundation’s Compliance with the Provisions of
                                 the Federal Information Security Management Act of 2002




                                      Inter-American Foundation Audit Reports
                                                                                                                   Amount of
        Report         Date of                                                                                                  Type of
                                                                   Report Title                                     Findings
        Number         Report                                                                                                  Findings
                                                                                                                     ($000s)

                                                    --PROGRAMS AND OPERATIONS—

     0-IAF-05-002-C   11/15/04   Report on Audit of the Inter-American Foundation’s Financial Statements for
                                 Fiscal Years 2004 and 2003

                                                     --ECONOMY AND EFFICIENCY—

     A-000-05-001-P   10/06/04   Audit of Inter-American Foundation’s Compliance with the Provisions of the
                                 Federal Information Security Management Act of 2002




  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

October 1, 2004 — March 31, 2005                                                                                                Appendix A
                                                                                                  63
                             Semiannual Report to the Congress

             AUDIT REPORTS OVER SIX MONTHS OLD
                WITH NO MANAGEMENT DECISION*
                                     As of March 31, 2005

                                                                                      Desired
     Report                             Issue
                           Auditee               Current Recommendation Status       Decision
     Number                             Date
                                                                                    Target Date




                                     NOTHING TO REPORT




  *Applies to USAID, ADF, and IAF.




Appendix B                                                          October 1, 2004 — March 31, 2005
64
                                     Semiannual Report to the Congress
             SIGNIFICANT AUDIT RECOMMENDATIONS
              DESCRIBED IN PREVIOUS SEMIANNUAL
                REPORTS WITHOUT FINAL ACTION
                                                         As of March 31, 2005

                                                                 USAID
                                                                                                            Management   Final Action
        Report                                                                                     Rec.
                                             Subject of Report                        Issue Date             Decision       Target
        Number                                                                                     No.
                                                                                                               Date          Date
     0-000-99-001-F   USAID’s Financial Statements Internal Controls and              03/01/99      1.1      03/01/99       04/05
                      Compliance for FY 1998
     9-000-02-005-P   USAID’s Staff Training and Development Activities                07/11/02      1       07/11/02       09/06
                                                                                                     2       07/11/02       09/06
                                                                                                     3       07/11/02       09/06
     9-000-03-002-P   USAID’s Human Capital Data                                      12/20/02       5       12/20/02       12/05
                                                                                                     7       03/24/03       12/05
     0-000-03-001-C   USAID’s Consolidated Financial Statements Internal Controls     01/24/03      2.2      01/24/03       04/05
                      and Compliance for Fiscal Year 2002
                      USAID/Ghana’s Distribution of P.L. 480 Title II Non-Emergency   10/15/03       4       10/15/03       10/05
     7-641-04-001-P   Assistance in Support of Its Direct Food Aid Distribution
                      Program
                                                                                                     5       10/15/03       12/05
     6-263-04-004-P   USAID/Egypt’s Participant Training Activities                   05/18/04       1       05/18/04       04/05
                                                                                                     2       05/18/04       04/05
     A-000-04-003-P   Capping Report: USAID’s Compliance with Federal                 05/19/04      1.1      05/19/04       08/05
                      Regulations in Awarding the Iraq Phase I Contracts
                                                                                                     1.2     05/19/04       08/05
                                                                                                      2      08/25/04       08/05
                                                                                                     3.1     05/19/04       08/05
                                                                                                     3.2     05/19/04       08/05
                                                                                                     3.3     05/19/04       08/05
                                                                                                     3.7     08/25/04       08/05
                                                                                                     3.8     08/25/04       08/05
                                                                                                    3.10     08/25/04       08/05
                                                                                                    3.14     08/25/04       08/05
                                                                                                   3.15.1    08/25/04       08/05
                                                                                                   3.15.2    08/25/04       08/05
                                                                                                    3.16     05/19/04       08/05
     1-598-04-007-P   Regional Activities Administered by USAID’s Bureau for Latin    06/04/04       1.2     06/04/04       06/05
                      America and the Caribbean
     5-306-04-006-P   Kabul to Kandahar Highway Reconstruction Activities Financed    09/21/04       1       09/21/04       09/05
                      by USAID/Afghanistan’s Rehabilitation of Economic Facilities
                      and Services Program
                                                                                                     2       09/21/04       09/05




October 1, 2004 — March 31, 2005                                                                                            Appendix C
                                                                                                                                        65
                               Semiannual Report to the Congress

                         African Development Foundation
                                                                                                         Management      Final Action
     Report Number                      Subject of Report                        Issue Date   Rec. No.
                                                                                                         Decision Date   Target Date
    9-ADF-03-005-P   Audit of Awarding and Monitoring of Grants by the African    02/28/03       1         02/28/03         07/05
                     Development Foundation
                                                                                                 2         02/28/03         07/05
                                                                                                 3         02/28/03         07/05
                                                                                                 5         02/28/03         07/05




                                Inter-American Foundation



                                                 NOTHING TO REPORT




Appendix C                                                                                      October 1, 2004 — March 31, 2005
66
                                     Semiannual Report to the Congress

                               Reports Issued With Questioned
                                  And Unsupported Costs
                                           USAID
                                October 1, 2004 through March 31, 2005

                                                                               NUMBER
                                                                                                   QUESTIONED              UNSUPPORTED
                               REPORTS                                         OF AUDIT
                                                                                                     COSTS                    COSTS1
                                                                               REPORTS

     A. For which no management decision had been made
                                                                                    33              $5,585,6022,3             $1,281,9322,3
        as of October 1, 2004

     B. Add: Reports issued October 1, 2004 through
                                                                                    117             $41,147,8654              $23,805,4114
        March 31, 2005

        Subtotal                                                                   150              $46,733,467               $25,087,343

     C. Less: Reports with a management decision made
                                                                                    835             $16,050,5126               $3,425,0966
        October 1, 2004 through March 31, 2005

        i.   Value of Recommendations Disallowed by
                                                                                                     $6,374,254                $1,791,446
             Agency Ofﬁcials

        ii. Value of Recommendations Allowed by Agency
                                                                                                     $9,676,258                $1,633,650
            Ofﬁcials

     D. For which no management decision had been made
                                                                                    62              $30,682,9557              $21,662,2477
        as of March 31, 2005

 1
   Unsupported Costs are included in Questioned Costs, but are provided as additional information as required by the Inspector General Act
 Amendments of 1988 (P.L. 100-504).
 2
   The ending balance at September 30, 2004, for Questioned Costs totaling $11,516,300 was decreased by $5,930,698 to reﬂect the retraction
 of one report and an adjustment in the amount of a recommendation contained in another report; the ending balance at the same period for
 Unsupported Costs of $5,878,653 was decreased by $4,596,721 to reﬂect the retraction of a report.
 3
   Amounts include $3,247,920 in Questioned Costs and $75,608 in Unsupported Costs for audits performed for the OIG by other federal audit
 agencies.
 4
  Amounts include $8,440,605 in Questioned Costs and $4,909,462 in Unsupported Costs for audits performed for the OIG by other federal audit
 agencies.
 5
   Unlike the monetary ﬁgures of this row, this ﬁgure is not being subtracted from the subtotal. Some audit reports counted here are again counted
 in the ﬁgure below it.
 6
  Amounts include $4,780,912 in Questioned Costs and $1,039,768 in Unsupported Costs for audits performed for the OIG by other federal audit
 agencies.
 7
  Amounts include $6,907,613 in Questioned Costs and $3,945,302 in Unsupported Costs for audits performed for the OIG by other federal audit
 agencies.




October 1, 2004 — March 31, 2005                                                                                                         Appendix D
                                                                                                              67
                                    Semiannual Report to the Congress
                       Reports Issued With Recommendations
                              That Funds Be Put To Better Use
                                          USAID
                                October 1, 2004 through March 31, 2005


                                                                         NUMBER OF               DOLLAR
                                      REPORTS
                                                                        AUDIT REPORTS            VALUES

     A.   For which no management decision had been made as of
                                                                              0                     $0
          October 1, 2004

     B.    Add: Reports issued October 1, 2004 through March 31, 2005         2                  $455,925

          Subtotal                                                            2                  $455,925

     C. Less: Reports with a management decision made October 1,
                                                                             21                  $83,587
        2004 through March 31, 2005

          i. Value of Recommendations Agreed to by Agency Ofﬁcials                               $83,587

          ii. Value of Recommendations Not Agreed to by Agency
                                                                                                    $0
              Ofﬁcials

     D. For which no management decision had been made as of
                                                                              1                  $372,338
        March 31, 2005



 1
     This ﬁgure is not subtracted from the subtotal.




Appendix E                                                                        October 1, 2004 — March 31, 2005
68
                            Semiannual Report to the Congress
                                   Reporting Requirements
                                                 USAID
  Summary of Instances in Which                          by the Federal Financial Management Improvement
                                                         Act of 1996 (FFMIA). FFMIA requires agencies
  Information or Assistance Was                          to substantially comply with (1) Federal ﬁnancial
  Refused                                                management system requirements, (2) Federal
                                                         Accounting Standards, and (3) the U.S. Standard
  The Inspector General Act of 1978 (Public Law 95-      General Ledger at the transaction level. According
  452), as amended, requires the identiﬁcation of any    to Ofﬁce of Management and Budget Circular No.
  reports made to the head of the agency describing      A-11, an agency that is not substantially compliant
  where information or assistance was refused or         with FFMIA must prepare a remediation plan. The
  not provided. During this reporting period, there      purpose of the remediation plan is to identify ﬁscal
  were no reports to the Administrator of USAID          year activities planned and underway that will allow
  describing instances where information or assistance   an agency to achieve substantial compliance with
  was unreasonably refused or not provided.              FFMIA:

  Decisions and Reasons for                              The Ofﬁce of Inspector General is in the process of
  Signiﬁcant Revised Management                          conducting the ﬁscal year 2005 FFMIA audit and will
                                                         report on the results of the audit in the September
  Decisions                                              2005 Semiannual Report to the Congress.
  The Inspector General Act requires that each
                                                         However, the results of the ﬁscal year 2004 ﬁnancial
  Inspector General’s Semiannual Report to the U.S.
                                                         statement audit indicate that USAID has made
  Congress include a description and explanation
                                                         progress in becoming compliant, but still needs to:
  of signiﬁcant revisions of management decisions.
  During this reporting period, there were no             • Implement a cost allocation model to allocate
  signiﬁcant revisions of management decisions.             the costs of Agency programs to the operating
                                                            unit and strategic objective level.
  Signiﬁcant Management
  Decisions with Which the                                • Implement a worldwide, integrated ﬁnancial
                                                            management system, allowing the Agency to
  Inspector General Disagrees                               use the U.S. Standard General Ledger at the
  The Inspector General Act requires that each              transaction level.
  Inspector General’s Semiannual Report to the
                                                         Our current audit work indicates that during the
  U.S. Congress include information concerning any
                                                         second quarter of ﬁscal year 2005, USAID made
  signiﬁcant management decisions with which the
                                                         further progress with implementing its new ﬁnancial
  OIG is in disagreement. During this reporting
                                                         management system overseas. USAID plans to
  period, there were no management decisions with
                                                         complete the worldwide deployment of the system
  which the OIG disagreed.
                                                         in 2006.
  Remediation Plan
  The Inspector General Act requires an update on
  issues outstanding under a remediation plan required

October 1, 2004 — March 31, 2005                                                                     Appendix F
                                                                                                                        69
                                Semiannual Report to the Congress

                           OIG STATISTICAL SUMMARY

                                                      USAID
                                           As of March 31, 2005
                                          INVESTIGATIVE ACTIONS

     WORK LOAD                                                       CIVIL

     CASES PENDING (10/01/04)                111                     CIVIL REFERRALS                              1

     CASES OPENED                             73                     COMPLAINTS                                   1

     CASES CLOSED                             62                     JUDGEMENTS/RECOVERIES                        0

     CASES PENDING (03/31/05)                122                     SETTLEMENTS                                  1

     CRIMINAL                                                        ADMINISTRATIVE

     PROSECUTIVE REFERRALS                    5                      REPRIMANDS/DEMOTIONS                         1

     PROSECUTIVE DECLINATIONS                 5                      PERSONNEL SUSPENSIONS                        1

     INDICTMENTS                              1                      RESIGNATIONS/TERMINATIONS                    7

     CONVICTIONS                              1                      OTHER ADMINISTRATIVE ACTIONS                 6

     FINES                                    0                      RECOVERIES                                   4

     RESTITUTIONS                             0                      SUSPENSIONS/DEBARMENTS                       0

                                                                     SAVINGS                                      3

                                                                     SYSTEMIC CHANGES                             11




                                       INVESTIGATIVE RECOVERIES

                                JUDICIAL RECOVERIES                                    $0

                                ADMINISTRATIVE RECOVERIES                      $310,168

                                SAVINGS                                        $163,788

                                TOTAL INVESTIGATIVE SAVINGS/ RECOVERIES        $473,956




Appendix G                                                                                  October 1, 2004 — March 31, 2005
U.S. Agency for International
         Development
 Office of Inspector General
 1300 Pennsylvania Avenue, NW
          Room 6.06D
      Washington, DC 20523




  The Semiannual Report to the Congress
       is available on the Internet at
 www.usaid.gov/oig/public/semiann/semiannual1.htm
